<html>
<title> - HATE CRIME ON THE INTERNET</title>
<body><pre>[Senate Hearing 106-803]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 106-803

                       HATE CRIME ON THE INTERNET

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON THE JUDICIARY
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                                   on

 RAMIFICATIONS OF INTERNET TECHNOLOGY ON TODAY'S CHILDREN, FOCUSING ON 
 THE PREVALENCE OF INTERNET HATE, AND RECOMMENDATIONS ON HOW TO SHIELD 
           CHILDREN FROM THE NEGATIVE IMPACT OF VIOLENT MEDIA

                               __________

                           SEPTEMBER 14, 1999

                               __________

                          Serial No. J-106-48

                               __________

         Printed for the use of the Committee on the Judiciary

                   U.S. GOVERNMENT PRINTING OFFICE
67-653                     WASHINGTON : 2001



                       COMMITTEE ON THE JUDICIARY

                     ORRIN G. HATCH, Utah, Chairman

STROM THURMOND, South Carolina       PATRICK J. LEAHY, Vermont
CHARLES E. GRASSLEY, Iowa            EDWARD M. KENNEDY, Massachusetts
ARLEN SPECTER, Pennsylvania          JOSEPH R. BIDEN, Jr., Delaware
JON KYL, Arizona                     HERBERT KOHL, Wisconsin
MIKE DeWINE, Ohio                    DIANNE FEINSTEIN, California
JOHN ASHCROFT, Missouri              RUSSELL D. FEINGOLD, Wisconsin
SPENCER ABRAHAM, Michigan            ROBERT G. TORRICELLI, New Jersey
JEFF SESSIONS, Alabama               CHARLES E. SCHUMER, New York
BOB SMITH, New Hampshire

             Manus Cooney, Chief Counsel and Staff Director

                 Bruce A. Cohen, Minority Chief Counsel

                                  (ii)

                            C O N T E N T S

                              ----------                              

                    STATEMENTS OF COMMITTEE MEMBERS

                                                                   Page

Hatch, Hon. Orrin G., U.S. Senator from the State of Utah........     1
Leahy, Hon. Patrick J., U.S. Senator from the State of Vermont...     3
Kennedy, Hon. Edward M., U.S. Senator from the State of 
  Massachusetts..................................................    11

                    CHRONOLOGICAL LIST OF WITNESSES

Panel consisting of Michael J. Gennaco, Assistant U.S. Attorney, 
  and Chief, Civil Rights Section, Central District of 
  California, Los Angeles, CA; Abraham Cooper, associate dean, 
  Simon Wiesenthal Center, Los Angeles, CA; Wade Henderson, 
  executive director, Leadership Conference On Civil Rights, 
  Washington, DC; Howard Berkowitz, national chair, Anti-
  Defamation League, Washington, DC; and Joseph T. Roy, Sr., 
  director, Intelligence Project, Southern Poverty Law Center, 
  Montgomery, AL.................................................     6

               ALPHABETICAL LIST AND MATERIALS SUBMITTED

Berkowitz, Howard:
    Testimony....................................................    24
    Prepared statement...........................................    26
Cooper, Abraham:
    Testimony....................................................    12
    Prepared statement...........................................    15
Gennaco, Michael J.:
    Testimony....................................................     6
    Prepared statement...........................................     9
Henderson, Wade:
    Testimony....................................................    16
    Prepared statement...........................................    20
Roy, Joseph T., Sr.:
    Testimony....................................................    50
    Prepared statement...........................................    53
        Editorial, Intelligence Report, No. 94, Spring 1999......    56
        Internet Hate Site List, Intelligence Report, No. 93, 
          Winter 1999............................................    57
        Story on Hate Sites and Related Litigation, Intelligence 
          Report, No. 93, Winter 1999............................    60
        Story on Hate Sites, Intelligence Report, No. 89, Winter 
          1998...................................................    62

                                APPENDIX
                         Questions and Answers

Responses of Michael Gennaco to Questions from Senator Leahy.....    71
Responses of Howard Berkowitz to Questions from Senator Leahy....    71

                  Additional Submission for the Record

Prepared statement of Karen Narasaki, on behalf of the National 
  Asian Pacific American Legal Consortium........................    73

 
                       HATE CRIME ON THE INTERNET

                              ----------                              


                      TUESDAY, SEPTEMBER 14, 1999

                                       U.S. Senate,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:18 a.m., in 
room SD-226, Dirksen Senate Office Building, Hon. Orrin G. 
Hatch (chairman of the committee) presiding.
    Also present: Senators Grassley, and Leahy.

 OPENING STATEMENT OF HON. ORRIN G. HATCH, A U.S. SENATOR FROM 
                       THE STATE OF UTAH

    The Chairman. I am sorry I am a little bit late. We will 
start this hearing. Good morning. We are happy to welcome all 
of you to today's hearing on Hate Crime on the Internet. We are 
pleased to have today five impressive witnesses, whom I shall 
introduce in short order.
    The Internet is a technology that heralds a breadth of 
understanding and education never before imagined. It holds a 
promise for disseminating knowledge and breaking down barriers 
to learning and understanding that is unrivaled, and I have 
accordingly been a staunch advocate and proponent of efforts to 
keep the Internet unregulated and competitive.
    However, today's hearing will focus on ramifications of 
Internet technology that can only be described as troubling. 
Unfortunately, for many parents, one of the timeless truths of 
good parenting, to teach children not to speak with strangers, 
has passed from the realm of the possible into a relic of a 
bygone day.
    We live in a time, according to a recent poll, when a full 
60 percent of parents disagree with the proposition that the 
Internet is a safe place for kids. And no wonder. In a 
technology seldom understood as well by parents as by their 
children, the universal information-sharing neighborhood 
established by the Internet has come to shelter a league of 
misfits intent on marketing their brand of hate to America's 
future.
    The knowledge of our children's lives, without which we 
cannot hope to fulfill our responsibilities as parents, seems 
increasingly out of our grasp, and the imagination and 
introspection that are so essential to a child's development 
are threatened by a technology where the power for advancement 
of knowledge exists alongside the possibility of contamination 
through hate.
    The strangers we warned our children not to speak to are, I 
fear, the very ones using the anonymity promised in cyberspace 
to prowl for children, to whom they could never hope to endear 
themselves on a street corner. This a serious situation indeed.
    The facts set out in newspaper accounts and reports by 
interested parties are simply staggering. One of our witnesses 
today hails from an organization, the Southern Poverty Law 
Center, which individually tracked sites for 254 hate groups in 
January of this year, up 50 percent from one year ago. Another 
group represented here, the Anti-Defamation League, estimated 
the presence of some 500 to 600 hate groups on the Web as of 
this June.
    But numbers hardly tell the story; the Web sites themselves 
do. They are not simply crude Web sites with blatantly racist 
or anti-Semitic messages. These groups are involved in a 
concerted effort to recruit college-bound middle- and upper 
middle-class kids, kids who are educated, energetic and 
articulate; in other words, precisely the type of kid you would 
not expect to see marching in a neo-Nazi parade.
    And those wolves come in sheep's clothing. To fulfill their 
recruitment objectives, these hate groups can be remarkably 
sophisticated, carefully avoiding obvious and explicit appeals 
to racism and anti-Semitism. These sites, of course, are 
matters of great concern to me. To the extent that these groups 
claim to disavow violence, the facts speak for themselves.
    The World Church of the Creator appears to have played a 
pivotal role in the life of Benjamin Nathaniel Smith, the 21-
year-old whose cowardly evil we recall from his July 4 shooting 
of African Americans, Jewish people, and Asians. In addition, 
literature from this group was found near synagogues burned 
this June in Sacramento, CA.
    We must be vigilant and prompt in our efforts to begin 
eliminating hate on the Internet, but we must also do so with 
exactitude. From this complicated maze of issues, there is 
simply no simple answer, and with the First Amendment as our 
country's first premise, we know that any solutions that we 
endorse must recognize that the surest way to defeat the 
message of hate is to hold it under the harsh light of public 
scrutiny.
    Throughout the course of this hearing and afterwards, I 
will be interested to hear from the witnesses their view of the 
adequacy of the current state of the law, and I will ask the 
witnesses whether more might be done by Congress, consistent 
with the First Amendment, to better enable the elimination of 
certain types of hate on the Internet, such as non-protected 
speech that clearly advocates an imminent act of violence.
    But I have some preliminary thoughts on other efforts that 
Congress might explore and I will be eager for the witnesses' 
views on these other efforts. I have already sought to exercise 
leadership in this area in various ways, through the 
introduction of legislation that aims to make filtering 
technology more readily accessible and that aims to criminalize 
the use of the Internet to teach bomb-making. Such a proposal 
would include provisions to help Internet service providers 
identify those sites that illegally incite violence through 
hate speech.
    Now, it is my hope that ISP's, Internet service providers, 
will then put some procedures in place and take down a site so 
designated. To encourage the ISP's in implementing such a 
procedure, we might grant them certain immunities from any 
liabilities that they might otherwise face.
    I am also contemplating a measure to make it a crime to 
knowingly or intentionally advocate on the Internet the 
commission of a crime of physical violence against a person or 
the property of any individual or group or class of 
individuals. Maybe with this legislation, we will be able to 
deter heinous incitements to violence not yet committed on the 
Internet.
    Now, I look forward to hearing from each of our witnesses 
here today and receiving your thoughts on some of these 
proposals.
    Finally, prior to closing, I would like to announce that 
today I am reissuing an updated timely and valuable report 
prepared by the majority staff of the Committee on the 
Judiciary. The updated report includes information about the 
prevalence of Internet hate, as well as recommendations about 
shielding children from the negative impact of violent media.
    I hope that this report, entitled ``Children, Violence, and 
the Media--A Report for Parents and Policy Makers,'' will 
further the discussion about the flood of media violence in 
this country, including on the Internet, and what can be done 
about it. After all, the problem of youth violence is a complex 
problem which demands a comprehensive solution, one which deals 
with the need to empower parents to make sure our schools are 
safer, and to improve enforcement, deterrence and prevention.
    I am very pleased to welcome all of you here today. I would 
like to turn to our Democrat leader on the committee, Senator 
Leahy, at this time.

  STATEMENT OF HON. PATRICK J. LEAHY, A U.S. SENATOR FROM THE 
                        STATE OF VERMONT

    Senator Leahy. Thank you, Mr. Chairman, and as a long-time 
member of this committee I will be anxious to read the report 
that you and the committee staff have put together. Should you 
want any advice or help from this side, feel free to ask.
    Today's hearing is a very important one and focuses on the 
serious problem of hate crimes, and on the growth of the use of 
the Internet to promote the agenda of hate. These are issues 
that concern every one of us.
    I think of the incidents of recent violent crimes that are 
motivated by hate and bigotry and how they have seared the 
conscience of this country. Last month, a gunman burst into a 
Jewish community center in Los Angeles and sprayed the building 
with 70 bullets. I think what strikes me as a parent and a 
grandparent so much is the view that we all saw, actually 
worldwide saw, with police officers leading the little children 
hand by hand, leading them to safety.
    Every one of us who have had children in school at that age 
or on a playground know how children are going to cross the 
street. All the children hold hands, and it is usually a couple 
of adults, teachers, doing it. Here, it is police officers in 
flack jackets, carrying automatic weapons, probably thinking of 
children of their own, leading these children to safety. It is 
a searing, terrible, terrible sight to see in our country. When 
the man surrendered who had done the shooting, he said his 
rampage had been motivated by his hatred of Jews.
    We can replicate this with all the other hate crimes based 
on religion or color of one's skin or ethnic background. A 
murderous string of drive-by shootings in Illinois and Indiana 
a month before left two people dead and nine wounded--again, 
racial and religious hatred. These are sensational crimes, the 
ones that focus public attention. But there is also a toll we 
are paying each year in other hate crimes that find less 
notoriety, but with no less suffering for the victims and their 
families.
    I think it is clear that we as a Nation still have serious 
work to do in protecting all Americans from these crimes and in 
ensuring equal rights for all our citizens. The answer to hate 
and bigotry has to ultimately be found in increased respect and 
tolerance for all our citizens, but strengthening our Federal 
hate crimes legislation is a step in the right direction.
    I commend Senator Kennedy for his leadership in this 
effort. I am proud to have been an original cosponsor of the 
Hate Crimes Prevention Act. This legislation amends the Federal 
hate crimes statute to make it easier for Federal law 
enforcement officials to investigate and prosecute cases of 
racial and religious violence. It focuses the attention and 
resources of the Federal Government on the problem of hate 
crimes committed against people because of their sexual 
preference or their gender or their disability.
    We passed the Hate Crimes Prevention Act in the Senate this 
year as part of the Commerce-Justice-State appropriations bill. 
I know Chairman Hatch has some concerns with the scope of the 
legislation. I also know the chairman is one who is totally 
opposed to bigotry, and I would hope that he and I and Senator 
Kennedy and others can work together to address the concerns 
that he has.
    I believe the bill in its current form would operate as 
intended. It would strengthen Federal jurisdiction over hate 
crimes as a backup, but not a substitute, for State and local 
law enforcement. The bill has received strong bipartisan 
support from State and local law enforcement organizations 
across the country, and we should pass this powerful law 
enforcement aid.
    The Hate Crimes Prevention Act is a tool for combatting 
acts of violence and threats of violence motivated by hatred 
and bigotry. It does not target pure speech, however offensive 
or disagreeable. The Constitution does not allow that. As 
Justice Holmes wrote, the Constitution protects not just 
freedom for the thought and expression we agree with, but 
freedom for the thought we deplore.
    There is another concrete action we could take in the 
Senate right now to help in the fight against hate crimes. We 
should face up to our responsibility to vote on the nomination 
of Bill Lann Lee to head the Civil Rights Division. Along with 
the Deputy Attorney General, Bill Lann Lee has been at the 
forefront of Federal efforts against hate crimes. He has done 
an outstanding job in this regard, but the Senate has refused 
to vote on his confirmation for 2 years.
    I think it is past time for this committee to do the right 
thing, the honorable thing, and report this qualified nominee 
to the Senate and let the Senate vote up or down on him. If 
Senators want to vote against him, fine. But any Senator who 
looks objectively at his record, I believe, Republican or 
Democrat, would vote for him. Then the Senate could fulfill its 
constitutional duty under the Advice and Consent Clause, 
because his is a critical position in the fight against hate 
crimes. If we want to oppose hate crimes, we ought to confirm 
Bill Lann Lee so he could have the full authority of a 
confirmed Assistant Attorney General for Civil Rights, rather 
than continue to treat him as if he were a second-class citizen 
and as if the efforts he is leading against hate crimes were 
unimportant. They are important.
    We ought to vote on this good man. We need his problem-
solving abilities in these difficult times. He is spearheading 
Federal efforts against hate crimes, against modern slavery and 
for equal justice for all Americans. If confirmed, he would be 
the first Asian Pacific American to be appointed to head the 
Civil Rights Division in its storied history, and the highest-
ranking Federal executive officer of Asian Pacific American 
heritage in our 200-year history. I think it would be a very 
important step that we could take in our efforts against hate 
crimes.
    In closing, let me say that it has been said that the 
content of the Internet is as diverse as human thought. I am a 
strong supporter of the Internet and have been since its 
inception. Its diversity is its greatest strength, but it comes 
at a cost. We will hear testimony today about how the Internet 
has been poisoned by extremists and bigots who use it to spread 
hate propaganda and reinforce each other's hateful convictions, 
almost as a net to pull in some of this Nation's losers who can 
validate themselves only by hating others.
    But we will also hear about how the Internet has been used 
to track down hate groups, and software that helps parents 
shield their children from this venom. As we take stock of the 
poison that is making its way to this new medium, we must not 
mistake the Internet itself with the actual source of the 
hateful content of these Web pages. When it comes to hate on 
the Internet, the problem is the message, not the medium. We 
have to examine what can be done about hate on the Internet 
within the constraints imposed by the First Amendment.
    So, Mr. Chairman, I think you have a very important hearing 
and I am delighted to join with you in this hearing.
    The Chairman. Well, thank you very much, Senator Leahy, for 
your good remarks.
    I am very pleased to welcome the five members of our panel. 
First, we will hear from Mr. Michael Gennaco, who is an 
Assistant U.S. Attorney for the Central District of California, 
and who coordinates that office's hate crimes investigation and 
prosecution.
    We are very proud of you, Mr. Gennaco. You have been 
responsible for securing the first conviction ever against a 
hate crime assailant for acts taken on the Internet. I believe 
you may have two of those to your credit, and I think it is 
time that that happened.
    Second will be Rabbi Abraham Cooper, somebody I greatly 
admire, who is the Associate Dean of the Simon Wiesenthal 
Center. He has been a longtime activist for Jewish and human 
rights causes on five continents. And with his efforts, the 
Center has produced a CD-ROM interactive report that 
illuminates the extent of hate on the Internet. So we are very 
grateful to have you here, sir.
    Third, we will hear from a friend of mine, Wade Henderson, 
who is the Executive Director of the Leadership Conference on 
Civil Rights. The Leadership Conference is the Nation's oldest 
and largest coalition of organizations committed to civil 
rights work and has over 180 component organizations.
    Did I get that right, Wade?
    Mr. Henderson. You did indeed.
    The Chairman. Fourth will be Howard Berkowitz, who is the 
National Chair of the Anti-Defamation League, a man I greatly 
respect. Mr. Berkowitz has been a central figure in advancing 
the League's efforts to fight anti-Semitism, racism and 
prejudice. And his organization is credited with being the 
first non-profit group to develop a hate crime filter for 
Internet users. So we are very anxious to hear your testimony 
as well.
    Last but not least, we will hear from Joseph Roy, who is 
the Director of the Southern Poverty Law Center's Intelligence 
Project. In that capacity, Mr. Roy gathers intelligence on 
extremist activities nationwide, assists law enforcement, and 
helps educate community groups on the threat of domestic 
terrorism. I have tremendous respect for you and your 
organization.
    We have, I think, in this panel as good a panel to discuss 
these issues as I have ever seen. Now, we are expecting a vote 
any minute, but I think we will begin anyway. And if we do have 
to interrupt, I hope you will understand it is just the nature 
of this beast called the U.S. Senate.
    So we will start with you, Mr. Gennaco, first and we will 
go right across the table.

    PANEL CONSISTING OF MICHAEL J. GENNACO, ASSISTANT U.S. 
ATTORNEY, AND CHIEF, CIVIL RIGHTS SECTION, CENTRAL DISTRICT OF 
 CALIFORNIA, LOS ANGELES, CA; ABRAHAM COOPER, ASSOCIATE DEAN, 
   SIMON WIESENTHAL CENTER, LOS ANGELES, CA; WADE HENDERSON, 
  EXECUTIVE DIRECTOR, LEADERSHIP CONFERENCE ON CIVIL RIGHTS, 
    WASHINGTON, DC; HOWARD BERKOWITZ, NATIONAL CHAIR, ANTI-
  DEFAMATION LEAGUE, WASHINGTON, DC; AND JOSEPH T. ROY, SR., 
 DIRECTOR, INTELLIGENCE PROJECT, SOUTHERN POVERTY LAW CENTER, 
                         MONTGOMERY, AL

                STATEMENT OF MICHAEL J. GENNACO

    Mr. Gennaco. Thank you. In September 1996, 62 Asian 
American students at the University of California at Irvine 
began preparing for another academic year. Almost 3 years ago 
to the day, this occurred. It was orientation week, a time of 
renewal, a return to campus, a welcoming for both new and 
returning students. But the unfortunate greeting that 62 Asian 
American students received arrived over the Internet to their 
e-mail accounts from a person who called himself ``Asian 
Hater.''
    ``Asian Hater'' e-mailed all 62 students, stating that he 
hated Asians, that he blamed them for all of the ills on 
campus, and for keeping the reputation of UC-Irvine down. In 
the e-mail, ``Asian Hater'' demeaned and derogated Asian 
Americans, and told each of the victims that if they did not 
leave campus that he would make it his personal career to hunt 
down and kill each of them.
    After the students received the electronic message, a cloud 
of terror hung over the UCI campus for weeks. Some of the 
victims left school for home. Others considered transferring to 
other schools. Others changed their academic schedules so that 
they would not be on campus alone at night. Still others 
started carrying mace and changed their commuting habits.
    Victims talked about how the threat sent a chill up their 
spines, how it caused them to feel unsafe on campus and how 
they were constantly looking over their shoulder. They wondered 
who ``Asian Hater'' was and whether he would actually come 
after them. Fear was cast over the campus by that singular 
threat of hate, not only for the 62 students who were the 
direct recipients of the threat, but also for the entire Asian 
community on campus and the campus as a whole.
    Good morning, Mr. Chairman and members of the committee. I 
am Michael Gennaco, a Federal prosecutor for the U.S. 
Attorney's Office for the Central District of California. It 
was my privilege to represent the United States in the 
prosecution against ``Asian Hater,'' the first prosecution ever 
under the Federal hate crimes statute involving threats 
transmitted over the Internet.
    Through that experience, I learned how the Internet can be 
used efficiently and effectively to spread racially motivated 
terror to scores of unsuspecting individuals. I soon learned 
that the UC-Irvine hate crime was only a precursor of other 
Internet hate crimes. For example, on the morning of March 5, 
1998, 42 Latino faculty members turned on their computers at 
Cal State-Los Angeles to read their e-mails. They read a mean-
spirited, derogatory threat against Latinos.
    Using the most demeaning racial slurs, the sender told the 
faculty members that he hated their race, that he wanted them 
to die, that the only reason that the professors were hired was 
because of affirmative action, that their race was stupid, 
greedy and ugly, and that the sender was going to personally 
come down and kill each of them. As with the UC-Irvine case, 
many of the Latino faculty members were terrified by the 
message of hate, wondering who could hate them that much, a 
former unbalanced student perhaps? The professors talked about 
how the message left them fearful about being alone on campus 
and caused them to be continually looking over their shoulders 
in anxiety.
    As the Federal investigation continued, the investigative 
team learned that the 42 Latino professors were not the only 
victims targeted by this messenger of hate. The sender had 
searched the Internet for other victims and sent similar death 
threats to 25 Latino students at MIT and to Latino employees at 
NASA, Xerox, Indiana University, the Texas Hispanic Journal, 
and the IRS. Similar concerns of anxiety and fear were 
communicated to the FBI from the victims at those institutions 
as well.
    As a result of the Federal investigations, my investigative 
team was able to successfully prosecute the senders of 
threatening e-mail in both the UC-Irvine and the Cal State-Los 
Angeles cases. However, the climate of fear and foreboding 
caused by these electronic threats transmitted over the 
Internet vividly illustrates the need for increased vigilance 
by all in order to successfully combat this new method of 
violating the civil rights of Americans.
    Despite some views to the contrary, there is nothing unique 
about the Internet that insulates the sender of such hate 
threats from the criminal laws of our country. A sender simply 
cannot target a group of individuals because of their race, 
national origin, or religious beliefs and send them threats via 
the Internet.
    The Supreme Court has repeatedly said that threats of 
violence are not protected by the First Amendment. In accord 
with that jurisprudence, similar threats of violence are not 
protected by the First Amendment simply because they are 
transmitted in cyberspace.
    Because the Internet presents an effective and efficient 
way for persons to communicate to numerous individuals, the 
ability of individuals and hate groups to terrorize victims has 
multiplied exponentially. A person or hate group who wants to 
target and threaten scores of individuals can do so simply 
sitting at a computer terminal for a few minutes.
    Unlike the traditional means of sending threatening 
communications via the telephone or through the U.S. mail, the 
Internet offers a medium of communication where a skilled user 
can spew out hate-laced threats to countless victims throughout 
the country with little effort. Moreover, hate mongers can 
create threats at their terminal and send out those threats 
while hiding behind computer screens. In short, the Internet 
has created a whole new class of criminals. Persons who do not 
have the fortitude to threaten persons face-to-face or even 
over the telephone can hide behind the anonymity of cyberspace 
and send out their hate-laced threats.
    In addition, I have learned through my prosecution of 
Internet hate crimes that certain inherent characteristics of 
e-mail make hate threats communicated over the Internet 
particularly frightening to targeted victims. Unlike 
traditional mail, electronic mail is transmitted 
instantaneously. The receiver thus knows that the sender is 
thinking the communicated message of harm at the same time the 
transmission is received.
    Moreover, unlike communications over the telephone, the 
electronic message is not accompanied by non-verbal 
inflections, tones of voice, or any other auditory cues. The 
message simply blips on to the victim's screen. As a result, 
the victim cannot gauge, except from the message itself, the 
degree to which the sender is intent on carrying out the 
threat, whether the sender has the capacity to implement the 
threat, or any other information about the person who sends the 
hate transmission. This knowledge vacuum makes any threat 
received over the Internet particularly disturbing to the 
victim.
    Finally, because an electronically transmitted message 
arrives directly on the victim's computer screen, usually with 
a ring or other audio cue, the message is much more invasive 
than traditional mail. Regular mail is delivered in a mailbox. 
Electronic mail flashes on to a computer screen at the victim's 
work station, her home, her bedroom, her children's room, 
wherever the victim's terminal happens to be.
    There is thus no question that this new mode of 
transmitting thoughts, knowledge and ideas, while having great 
potential and tremendous advantages over traditional methods of 
communication, also presents a new and serious challenge to law 
enforcement authorities with regard to those that would abuse 
the technology.
    The inherent nature of Internet hate crimes investigations 
and prosecutions also demands that Federal investigators and 
prosecutors assume an active role in bringing hate criminals to 
justice for several reasons. First, oftentimes, as with the Cal 
State-Los Angeles case, the sender transmits hate mail across 
State lines to victims throughout the country.
    Second, investigators must have expertise in computer 
crimes and sufficient resources in order to track the sender of 
the electronic transmissions and recapture any similar message 
sent from the sender's computer. The FBI, for example, has the 
expertise in its computer crimes units.
    Finally, as with both the UC-Irvine and the Cal State 
cases, in order to obtain locator information about the sender 
and potential victims, one must have the capability to subpoena 
Internet service providers. Quite often, those providers reside 
outside the State in which the transmission originated. 
Accordingly, the Federal Government must play a role in 
investigating and prosecuting cyberspace hate crimes.
    Of course, because much of the electronically transmitted 
hate, while despicable, may be protected by the First 
Amendment, criminal prosecution cannot always provide the 
answer. For that reason, it is essential that other methods to 
combat the spread of hate on the Internet be devised and 
implemented, whether through education or new technologies such 
as filtering devices.
    Internet service providers, civil rights organizations, 
Federal and local investigative and prosecutive authorities, 
and State and Federal legislators must all play a role in 
countering the hate mongers on the Internet. It is only by 
working together that we can successfully combat those who 
would use the Internet to spread their message of hate and 
fear, and in order to ensure a cyberspace consistent with a 
world view of racial and religious tolerance.
    Thank you.
    The Chairman. Thank you so much.
    [The prepared statement of Mr. Gennaco follows:]

                PREPARED STATEMENT OF MICHAEL J. GENNACO

                          HATE ON THE INTERNET

    In September 1996, 62 Asian American students at the University of 
California at Irvine began preparing for another academic year. It was 
orientation week, a time of renewal, a return to campus, a welcoming 
for both new and returning students * * * but the unfortunate greeting 
that 62 Asian American students received arrived over the Internet to 
their e-mail accounts, from a person who called himself ``Asian 
Hater''. ``Asian Hater'' e-mailed all 62 students stating that he hated 
Asians, that he blamed them for all of the ills on campus, and for 
keeping the reputation of UC-Irvine down. In the e-mail, ``Asian 
Hater'' demeaned and derogated Asian Americans and told each of the 
victims that if they did not leave campus that he would make it his 
personal career to hunt down and kill each of them.
    After the students received the electronic message, a cloud of 
terror hung over the UCI campus for weeks. Some of the victims left 
school for home, others considered transferring to other schools, 
others changed their academic schedules so that they would not be on 
campus alone at night, still others started carrying mace and changed 
their commuting habits. Victims talked about how the threat sent a 
chill up their spines, how it caused them to feel unsafe on campus, and 
how they were constantly looking over their shoulder. They wondered who 
``Asian Hater'' was and whether he would actually come after them. Fear 
was cast over the campus by that singular threat of hate, not only for 
the 62 students who were the direct recipients of the threat, but also 
for the entire Asian community on campus and the campus as a whole.
    Good morning members of the committee. I am Michael Gennaco, a 
Federal prosecutor from the United States Attorney's Office for the 
Central District of California. it was my privilege to represent the 
United States in the prosecution against ``Asian Hater'', the first 
prosecution ever under the Federal hate crime statute involving threats 
transmitted over the Internet. Through that experience, I learned how 
the Internet can be used efficiently and effectively to spread racially 
motivated terror to scores of unsuspecting individuals.
    I soon learned that the UC-Irvine hate crime was only a precursor 
of other Internet hate crimes. For example, on the morning of March 5, 
1998, 42 Latino faculty members turned on their computers at Cal State 
Los Angeles to read their e-mails. They read a mean-spirited derogatory 
threat against Latinos. Using the most demeaning racial slurs, the 
sender told the faculty members that he hated their race, that he 
wanted them to die, that the only reason that the professors were hired 
was because of affirmative action, that their race was stupid, greedy, 
and ugly and that the sender was going to personally come down and kill 
each of them. As with the UC-Irvine case, many of the Latino faculty 
members were terrified by the message of hate, wondering who could hate 
them that much (a former unbalanced student perhaps). The professors 
talked about how the message left them fearful about being alone on 
campus and caused them to be continually looking over their shoulders 
in anxiety.
    As the Federal investigation continued, the investigative team 
learned that the 42 Latino professors were not the only victims 
targeted by this messenger of hate. The sender had searched the 
Internet for other victims and sent similar death threats to 25 Latino 
students at MIT, and to Latino employees at NASA, Xerox, Indiana 
University, the Texas Hispanic Journal, and the IRS. Similar concerns 
of anxiety and fear were communicated to the FBI from the victims at 
those institutions as well.
    As a result of the Federal investigations, my investigative team 
was able to successfully prosecute the senders of threatening e-mail in 
both the UC-Irvine and the Cal State Los Angeles cases. However, the 
climate of fear and foreboding caused by these electronic threats 
transmitted over the Internet vividly illustrates the need for 
increased vigilance by all in order to successfully combat this new 
method of violating the civil rights of Americans.
    Despite some views to the contrary, there is nothing unique about 
the Internet that insulates the sender of such hate threats from the 
criminal laws of our country. A sender simply cannot target a group of 
individuals because of their race, national origin or religious beliefs 
and send them threats via the Internet. The Supreme Court has 
repeatedly said that threats of violence are not protected by the First 
Amendment. In accord with that jurisprudence, similar threats of 
violence are not protected by the First Amendment, simply because they 
are transmitted in cyberspace.
    Because the Internet presents an effective and efficient way for 
persons to communicate to numerous individuals, the ability of 
individuals and hate groups to terrorize victims has multiplied 
exponentially. A person or hate group who wants to target and threaten 
scores of individuals can do so simply by sitting at a computer 
terminal for a few minutes. Unlike the traditional means of sending 
threatening communications via the telephone or through the U.S. mail, 
the Internet offers a medium of communication where a skilled user can 
spew out hate-laced threats to countless victims throughout the country 
with little effort.
    Moreover, hate mongers can create hate threats at their terminal 
and send out those threats while hiding behind computer screens. In 
short, the Internet has created a whole new class of criminals--persons 
who do not have the fortitude to threaten persons face to face or even 
over the telephone can hide behind the anonymity of cyberspace and send 
out their hate-laced threats.
    In addition, I have learned through my prosecution of Internet hate 
crimes that certain inherent characteristics of e-mail make hate 
threats communicated over the Internet particularly frightening to 
targeted victims. Unlike traditional mail, electronic mail is 
transmitted instantaneously--the receiver thus knows that the sender is 
thinking the communicated message of harm at the same time the 
transmission is received. Moreover, unlike communications over the 
telephone, the electronic message is not accompanied by non verbal 
inflections, tones of voice, or any other auditory cues. The message 
simply blips onto the victim's screen. As a result, the victim cannot 
gauge, except from the message itself, the degree to which the sender 
is intent on carrying out the threat, whether the sender has the 
capacity to implement the threat or any other information about the 
person who sends the hate transmission. This knowledge ``vacuum'' makes 
any threat received over the Internet particularly disturbing to the 
victim.
    Finally, because an electronically transmitted message arrives 
directly on the victim's computer screen, usually with a ring or other 
audio cue, the message is much more invasive than traditional mail. 
Regular mail is delivered in a mail box. Electronic mail flashes onto a 
computer screen at the victim's work station, her home, her bedroom, 
her children's room * * * wherever the victim's terminal happens to be.
    There is thus no question that this new mode of transmitting 
thoughts, knowledge, and ideas, while having great potential and 
tremendous advantages over traditional methods of communication, also 
presents a new and serious challenge to law enforcement authorities 
with regard to those that would abuse the technology.
    The Inherent nature of Internet hate crime investigations and 
prosecutions also demands that Federal investigators and prosecutors 
assume an active role in bringing hate criminals to justice for several 
reasons. First, oftentimes, as with the Cal State-Los Angeles case, the 
sender transmits hate mail across State lines to victims throughout the 
country. Second, investigators must have expertise in computer crimes 
and sufficient resources in order to track the sender of the electronic 
transmissions and recapture any similar messages sent from the sender's 
computer--the FBI, for example, has the expertise in its computer 
crimes units. Finally, as with both the UC-Irvine and Cal State cases, 
in order to obtain locator information about the sender and potential 
victims, one must have the capability to subpoena Internet service 
providers--quite often those providers reside outside the state in 
which the transmission originated. Accordingly, the Federal Government 
must play a role in investigating and prosecuting cyberspace hate 
crimes.
    Of course, because much of the electronically transmitted hate, 
while despicable, may be protected by the First Amendment, criminal 
prosecution cannot always provide the answer. For that reason, it is 
essential that other methods to combat the spread of hate on the 
Internet be devised and implemented whether through education, or new 
technology such as filtering devices. Internet service providers, civil 
rights organizations, Federal and local investigative and prosecutive 
authorities, and State and Federal legislators must all play a role in 
countering the hate mongers on the Internet. It is only by working 
together that we can successfully combat those who would use the 
Internet to spread their message of hate and fear and to ensure a 
cyberspace consistent with a world view of racial and religious 
tolerance.

    The Chairman. I would like to personally hear all the rest 
of the testimony. We have a vote. I am suggesting that we 
recess so that we can go and vote, so we can come back and hear 
all of you. We appreciated your testimony, Mr. Gennaco.
    So it will take us about 5 to 10 minutes to be able to go 
over and vote and get back here, but we will try and do that as 
quickly as we can. We will just recess for that amount of time 
until we can get back from this vote.
    Senator Leahy. I would like to also put a statement in the 
record by Senator Kennedy.
    The Chairman. Without objection, we will keep the record 
open for statements from every member of the committee until 
5:00 p.m. today.
    [The prepared statement of Senator Kennedy follows:]

            PREPARED STATEMENT OF SENATOR EDWARD M. KENNEDY

    Thank you Mr. Chairman. I welcome this opportunity to discuss once 
again this critical issue. Hate crimes continue to be a festering 
problem that cannot be ignored by Congress or the American people. 
During the last two years, the nation's conscience has been shocked by 
the hate and brutality targeted against innocent victims because of 
their race, religion, gender, disability or sexual orientation.
    Just look at today's newspapers, which contain an article about 
Lawrence Brewer, one of the men who dragged James Byrd, Jr. to death in 
Texas. Brewer bragged in a jailhouse letter about the ``rush'' he felt 
while killing James Byrd. In the letter, Brewer said ``And no longer am 
I a virgin. It was a rush and I'm still licking my lips for more.'' 
According to Jasper prosecutors, by killing James Byrd, Brewer and his 
friends intended to give publicity to a new white supremacist group, 
the Texas Rebel Soldiers.
    White supremacist Benjamin Smith left two people dead and injured 
nine people during his July 4th rampage in Indiana and Illinois.
    Last month, Buford Furrow, terrorized children and adults at the 
North Valley Jewish Community Center, in Los Angeles, wounding three 
children and two adults.
    These incidents are just the tip of the iceberg. Many, many more 
hate crimes occur across this country that don't receive nationwide 
attention. And, many of them go unreported because the victims are 
embarrassed or feel too intimidated to go to the police.
    Recently, California Attorney General Bill Lockyer announced that 
1,750 hate crimes were reported by California law enforcement agencies 
last year--nearly five a day.
    The national statistics collected by the FBI show that:

  <bullet> In 1997, 11,211 law enforcement agencies around the country 
        reported 8,049 bias-motivated criminal incidents to the FBI, 
        compared to 8,759 in 1996.
  <bullet> Of the 8,049 total incidents, 4,710 were motivated by racial 
        bias; 1,385 by religious bias; 1,102 by sexual orientation bias 
        and 836 by ethnicity/national origin bias.
  <bullet> Of the 1,385 incidents reported by religious bias, 79 
        percent were anti-Semitic.
  <bullet> This report included, for the first time, crimes directed 
        against disabled individuals.

In 1997, there were 12 crimes reported to have occurred due to a 
person's disability.
    It is long past time for the Senate to act against the problem of 
hate crimes and their impact on the nation. We can continue to do this 
by funding organizations such as the National Center for Hate Crime 
Prevention, located in Newton, Massachusetts, which organizes hate 
crime prevention and response training for practitioners, trainers and 
youth across the country. The Center also develops publications and 
other resource materials to help professionals and communities address 
the complex issues involved in juvenile hate crime and its impact on 
society. At the request of city officials, the Center just completed 
training sessions in Jasper, Texas, Denver and Los Angeles.
    It is clear that tolerance in this country faces a serious 
challenge, because of these despicable crimes. As the Southern Poverty 
Law Center has noted,

        In a year that saw hate groups soar past the 500 mark, the most 
        dangerous sign was not the rising number of jackbooted sieg-
        heilers or hooded cross-burners. It was not even the highly 
        publicized slayings of James Byrd, Jr. in Jasper, Texas, and 
        Matthew Shepard in Laramie, Wyoming. Instead, it was the 
        increasing number of reminders that hate-based ideology is 
        being repackaged as an intellectualized version of white self-
        affirmation that seeks mainstream respectability.

    We are coming to a new millennium, and enjoying record economic 
prosperity and dramatic technological advance. Yet every day, lives 
continue to be shattered by hatred and bigotry. The explosion of hate 
organizations on websites is an ominous example of the dark side of our 
progress in technology. These sites are spewing hate to millions of 
people, young and old. No family with a computer is immune from the 
infiltration of hate into their home. No family is immune from having 
their children, who surf the web unsupervised, come across these sites. 
No community is safe from those who seek to carry out violent acts of 
prejudice.
    Every mindless act of hatred exacts a toll upon the nation. Finding 
the right strategies to fight hate is the responsibility of everyone. I 
commend the organizations that are represented here today for their 
work in combating hate crimes. Together, Congress, state and local 
governments and communities must send the powerful message that America 
is determined to stop these vicious crimes.

    The Chairman. So with that, we will recess until we can get 
back.
    [The committee stood in recess from 10:45 a.m. to 11:01 
a.m.]
    The Chairman. We will turn to you, Rabbi Cooper. Sorry for 
the delay, but it is just one of those things we have to go 
through around here. So we will turn to your testimony.

                  STATEMENT OF ABRAHAM COOPER

    Rabbi Cooper. Thank you, Mr. Chairman. On behalf of the 
400,000 constituent families of the Wiesenthal Center, I first 
wish to commend this committee for revisiting the problem of 
hate on the Internet and for giving our Center the opportunity 
to share its perspective on this crucial issue.
    The phenomenal growth of the Internet and its impact on all 
aspects of our lives continues to astound even its most ardent 
promoters. Consider that as we speak there are more than 109 
million users of the Internet in North America alone. By the 
year 2000, Europe's online population will increase to 59 
million. By 2001, China will have 40 million users. Worldwide 
Matrix Information and Directory Services reported that last 
year there were 102 million accessing the Internet, up from 57 
million in 1997, and projected for 2001, 707 million users.
    It is not only the venture capitalists who have understood 
the limitless potential of these new technologies. Human rights 
groups like the Wiesenthal Center utilize the World Wide Web to 
spread their educational mandate free of charge to schools, 
researchers, and the media. Recently, our Center has used the 
Internet to broadcast the Dali Lama's speech at our Museum of 
Tolerance into Asia, beamed your colleague Senator Brownback's 
speech from Capitol Hill to an audience in Los Angeles 
attending our International Conference on Slavery Today, and 
broadcast a live simultaneous conference on Japanese war crimes 
from Tokyo and Los Angeles. We have also utilized our Web site 
to empower victims of the Nazi Holocaust seeking justice and 
restitution from Swiss banks and European insurance companies.
    It is this very power of communication and marketing that 
extremists, professional bigots, anarchists, and terrorists 
have sought to harness in their ongoing efforts to promote 
their agendas into the mainstream of our society, with a 
particular focus on America's youth. The main weapon of choice 
to market hate has become the World Wide Web. For the first 
time in the history of our democracy, those promoting hate, 
racial violence, and terrorism are able to do so directly into 
the mainstream 24 hours a day, 7 days a week, in an 
unassailable and attractive format.
    As our Digital Hate 2000 CD-ROM report shows, many of these 
groups, once isolated geographically and marginalized to the 
fringes of society, have succeeded in creating an online sub-
culture of hate. This enables extremists to market hate music 
CD's alongside practical how-to guides to make bombs in your 
home or garage. By the way, Mr. Chairman, I have the current 
top 10 list of bomb-making sites, downloaded just this past 
Friday.
    Digital links are the virtual cement for the skinhead 
movement, bridging the geographic distance between the 
Charlemagne skinheads in France, for example, to groups in New 
Jersey and Colorado. To date, there is no evidence that this 
online culture of hate has yet succeeded in creating a mass 
movement, but not for lack of trying. Indeed, the World Church 
of the Creator, a group linked to this summer's anti-Semitic 
and racist violence, has designed Web sites for kids as young 
as 9 and 10 years old. The KKK and other extremist groups like 
the Aryan Nations have followed suit.
    But those behind the changing face of hate in America are 
not concerned in the short run about numbers. For them, the 
Internet has already succeeded beyond their wildest dreams in 
undermining our civil society. Taking a page from the all too 
successful game book of international terrorists, they use the 
Internet to inspire a social misfit in a high school, a racist 
lone wolf, or an unnamed leaderless resistance cell to act out 
white power fantasies against blacks, Jews, and Asian 
Americans.
    In 1999, the Internet can serve as a terrorism tutor. It 
did for Eric Harris at Columbine. It provided the theological 
justification for torching of synagogues in Sacramento and the 
pseudo-intellectual basis for violent hate attacks in Illinois 
and Indiana.
    While the main activities of these groups and individuals 
have been focused on the World Wide Web, there is growing 
evidence that other technologies available via the Internet are 
being used to promote this agenda, and to also engage in 
illegal activities, including the illegal sale of firearms.
    So here we are on the eve of the millennium with every 
indication that the overwhelming majority of Americans reject 
the anti-Semitism, the racism and bigotry repackaged on the 
Internet. But we also live at a time when, despite the greatest 
period of sustained economic growth in U.S. history, we see the 
number of self-proclaimed hate groups soaring to over 400 and 
hate crimes continuing unabated. This year, we have also 
witnessed individuals prepared to carry out domestic acts of 
terrorism, and the young and impressionable being lured to an 
online world promoting racist violence and terrorism.
    What steps should be taken? First, every law enforcement 
department that deals with hate crimes in America has to be 
online. Second, parents need to take a more proactive approach 
to their kids' Internet activity. The Internet is not a 
babysitting service. Talk to your kids, and by all means 
utilize a filtering software or work with your kids to set your 
own guidelines.
    Third, we need the attention and involvement of the 
collective genius that is giving us the Internet. We need them 
to be good corporate citizens and neighbors. We need their 
leadership not only in technology, but in fostering good 
citizenship and tolerance.
    To give one point, there is no law requiring for-profit 
companies to continue to do business and provide services to 
individuals and groups teaching and preaching bomb-making and 
terrorism. It is preferred that the online community set their 
own standards and stick to them. In this connection, the 
Wiesenthal Center wishes to commend yahoo.com's recent removal 
of racist clubs from their sites as a welcome example of 
proactive leadership. Just last night, Yahoo indicated that 
they have now taken off probably over 70 of these free clubs 
that have been utilized by the Klan and other hate 
organizations.
    In short, a good rule of thumb in approaching these issues 
online is to review what Americans have done in the pre-
Internet world. If we are talking about mail, mail equals 
privacy. If there is evidence of illegal activity via e-mail, 
as we heard from our distinguished speaker, the same standards 
should apply as traditional mail. The same would hold true for 
telephonic-type communications.
    As for the World Wide Web, it is the new main street of 
commerce, marketing, and advertising. It is not generally a 
venue for discussion and debate. We would therefore hope that 
Internet providers would at least take the basic step of 
setting their own standards for use of their service, and that 
they would be responsive to those standards and the concerns of 
the community.
    After Columbine, Sacramento and Chicago, after the North 
Valley JCC, we desperately need to work together to marginalize 
the message and messengers of terrorism and racism in our 
country. The Internet community's direct involvement in this 
effort will go a long way in ensuring that our kids will be 
living in a safer, more tolerant America.
    Thank you, Mr. Chairman, and if you have any questions, I 
would be happy to answer them.
    The Chairman. Thank you, Rabbi Cooper.
    [The prepared statement of Rabbi Cooper follows:]

               PREPARED STATEMENT OF RABBI ABRAHAM COOPER

    Mr. Chairman; on behalf of the 400,000 constituent families of the 
Simon Wiesenthal Center, I first wish to commend this committee for 
revisiting the problem of hate on the Internet and for giving our 
Center the opportunity to share its perspective on this crucial issue.
    The phenomenal growth of the Internet and its growing impact on all 
aspects of our lives--continues to astound even its most ardent 
promoters. Consider that as we speak, there are 109.23 million users of 
the Internet in North America alone. By the year 2000, Europe's online 
population will increase to 59 million. By 2001 China will have 40 
million users.
    Worldwide, Matrix Information and Directory Services reported that 
in 1998, there were 102 million accessing the Internet, up from 57 
million in 1997. Projected for 2001?--707 million users!
    And it's not only the venture capitalists who have understood the 
limitless potential of these new technologies. Human rights groups like 
the Wiesenthal Center utilize the Worldwide Web to spread their 
educational mandate--free of charge--to schools, researchers and the 
media--free of charge. Our Center has used the Internet to broadcast 
the Dali Lama's speech at the Museum of Tolerance into Asia, beamed 
Senator Brownback's speech from Capitol Hill to our audience in Los 
Angeles attending our International Conference on slavery, and 
broadcast a live, simultaneous conference on Japanese war crimes from 
Tokyo and Los Angeles. We have also utilized our Website to empower 
victims of the Nazi Holocaust seeking justice and restitution from 
Swiss banks and insurance companies.
    It is of course, this very power of communication and marketing 
that extremists, professional bigots, anarchists and terrorists have 
sought to harness in their ongoing efforts to promote their agendas 
into the mainstream of our society--with a particular focus--on 
America's youth.
    The main weapon of choice to market hate is the Worldwide Web. For 
the first time in history of our democracy, those promoting hate, 
racial violence ant terrorism have been able to do so directly into the 
mainstream, 24 hours a day, 7 days a week in an unassailable and 
attractive format. And as our Digital Hate 2000 CD-Rom report shows, 
many of these groups, once isolated geographically and marginalized to 
the fringes of society, have succeeded in creating an online subculture 
of hate. This enables extremists to market hate music CD's alongside 
practical how-to guides to make bombs in your own home or garage. 
Digital links are tee `virtual' cement for skinhead movement, bridging 
the geographic distance between the Charlemagne skinheads in France to 
groups from New Jersey to Colorado.
    To date, there is no evidence that this online culture of hate has 
yet succeeded in creating a mass movement of hate. But not for lack of 
trying. Indeed, the World Church of the Creator, a group linked to this 
summer's antisemitic and racist violence has designed Websites for kids 
as young as 9 or 10 years old. The KKK and other extremist groups, like 
the Aryan Nations have followed suit.
    But those behind the changing face of hate in America are not 
concerned in the short run about numbers. For them the Internet has 
already succeeded beyond their wildest dreams in undermining our civil 
society. Taking a page from the all-too-successful gamebook of 
international terrorists, they use the Internet to inspire a social 
misfit in a high school, a racist lone wolf--or an unnamed leaderless 
resistance cell to act out white power fantasies against blacks, Jews 
or Asian Americans.
    In 1999, the Internet can serve as a terrorism tutor--it did for 
Eric Harris at Columbine; it provided the theological justification for 
the torching of synagogues in Sacramento, and the psuedo-intellectual 
basis for violent hate attacks in Illinois and Indiana.
    And while the main activities of these groups and individuals have 
been focused on the Worldwide Web, there is growing evidence that other 
technologies available via the Internet are being used to promote this 
agenda and to also engage in illegal activities including the illegal 
sale of firearms.
    So here we are, on the eve of the millennium, with every indication 
that the overwhelming majority of Americans reject the antisemitism, 
the racism and bigotry repackaged on the Internet. But we also live at 
a time when, despite the greatest period of sustained economic growth 
in U.S. history, we see the number of self-proclaimed hate groups 
soaring to over 400, and hate crimes continuing, unabated. This year, 
we have also witnessed individuals prepared to carry out domestic acts 
of terrorism and young, impressionable, being lured to an online world 
promoting racist violence and terrorism.
    What steps should be taken? First every law enforcement department 
that deals with hate crimes in America has to be online. Secondly, 
parents need to take a more proactive approach to their kids Internet 
activity. The Internet is not a babysitting service. Talk to your kids 
and by all means utilize a filtering software or work with your kids to 
set your own guidelines. Third, we need the attention and involvement 
of the collective genius that has given us the Internet. We need them 
to be good corporate citizens and neighbors. We need their leadership, 
not only in technology, but in fostering good citizenship and 
tolerance. To give just one suggestion, there is no law requiring for-
profit companies to continue to do business and provide services to 
individuals and groups teaching and preaching bomb making and 
terrorism. It is preferred that the online community set their own 
standards and stick to them. (Yahoo.com's recent removal of racists 
clubs from their sites is a welcomed example). In short, a good rule of 
thumb in approaching these issues online is to review what Americans 
have done in the pre-Internet world. If we are talking about `mail'--
mail-privacy. If there is evidence of illegal activity via e-mail, the 
same standard should apply as traditional mail. The same would hold 
true for telephonic-type communications. As for the Worldwide Web, it 
is the new mainstreet of commerce, marketing and advertising--it is not 
generally a venue for discussion and debate. We would therefore hope 
that Internet providers would at least take the basic step of setting 
their own standards for use of their service and that they would be 
responsive to those standards and the concerns of the community.
    After Columbine, Sacramento, Chicago, after the North Valley JCC, 
we desperately need to marginalize the message and messengers of 
terrorism and racism in our country. The Internet commmunity's direct 
involvement in this effort will go a long way to ensuring that our kids 
will be living in a safer, more tolerant America. Thank you, Mr. 
Chairman.

    The Chairman. We will turn to you now, Mr. Henderson.

                  STATEMENT OF WADE HENDERSON

    Mr. Henderson. Thank you, Mr. Chairman. My name is Wade 
Henderson. I am the Executive Director of the Leadership 
Conference on Civil Rights. I also serve as counsel to the 
Leadership Conference Education Fund. I am pleased to appear 
before you today on behalf of both organizations to discuss the 
issue of hate on the Internet.
    As you noted, Mr. Chairman, the Leadership Conference on 
Civil Rights is the Nation's oldest, largest, and most diverse 
coalition of organizations committed to the protection of civil 
and human rights in the United States. Since its establishment 
in 1950, the Leadership Conference has promoted the passage and 
monitored the implementation of laws designed to achieve 
equality under law for all persons in the United States. The 
Leadership Conference Education Fund was founded in 1969 as the 
education arm of the civil rights coalition and continues to 
fill that role today.
    Hate, whether it is purveyed on the Internet, on the 
printing press or on the street corner, is a matter of 
fundamental concern to the Leadership Conference. Hatred of 
people because of who they are, where they worship, or the 
color of their skin is the antithesis of what we stand for as 
an organization. Hate makes a mockery of our accomplishments 
and undermines our half century of work to rid the United 
States of vestiges of slavery and oppression.
    Hate manifests itself in many ways, ranging all the way 
from a muttered remark in the workplace to brutal killing 
sprees. All hate must be condemned, but society's response to 
hate must be tailored to the manner in which it is expressed. 
Specifically, it is important to recognize a distinction 
between hate speech and hate crimes.
    In my testimony today, I will outline the Leadership 
Conference's concern about the proliferation of both hate 
speech and hate crimes, and explain our view of the 
relationship between these two phenomena. In doing so, however, 
I will make it clear that we believe the legislative reply to 
hate speech and hate crimes should be very different.
    At the outset, I want to emphasize that I believe the 
Internet is a wonderful development. It dramatically lowers the 
barriers to those who wish to enter the marketplace of ideas, 
enabling many more people to publish information and 
disseminate their views. Indeed, the Internet is perhaps the 
most democratic form of communication ever invented. In just a 
few years, the Internet has already revolutionized such diverse 
fields as medicine, law and commerce. Over time, I believe it 
will contribute greatly to the civil life of the Nation as 
well.
    The Internet is profoundly non-judgmental. It transmits 
information, whether the information is good or bad, true or 
false, helpful or hurtful. In the realm of civil rights, that 
means that the Internet is a forum for messages of racial 
healing, as well as messages of racial hatred. For reasons I 
will explain, I am ultimately optimistic that, on balance, the 
Internet is a force for social reconciliation. But while we 
marvel at the Internet's potential for good, we can't afford to 
ignore that which is frightening.
    The Leadership Conference abhors hate speech on the 
Internet and, of course, we abhor hate speech conveyed through 
any other medium. But we recognize that hate speech on the 
Internet reaches a wider and perhaps more impressionable 
audience, and that sophisticated hate mongers can use the 
Internet to enlist converts to their cause.
    As other witnesses have already described, hate groups are 
increasingly well-established in cyberspace, using the Internet 
to promote and distribute their propaganda, recruit members, 
and exchange information. Their messages are disturbing, 
despicable, and must be condemned in the strongest possible 
terms. But the existence of these viewpoints in cyberspace 
merely confirms their existence in American culture. The 
Internet does not create hatred; it illuminates it. It reminds 
us of the long road we must travel before we reach a truly 
race-blind society.
    The Leadership Conference believes that the best antidote 
for offensive speech is more speech on the other side, and 
therefore we have sought to answer hate speech on the Internet 
with anti-hate speech on the Internet. We have aggressively 
used the Internet to disseminate our message of racial harmony 
and non-discrimination to a broader audience, and to make more 
widely available the tools that we believe can combat bigotry.
    For example, 2 years ago, with the assistance of the Bell 
Atlantic Corporation, we launched a new Web site, 
www.civilrights.org, to educate the public about the history 
and goals of the civil rights movement and to counter those who 
espouse hatred because of individuals' race, ethnicity, gender, 
disability, religion, or sexual orientation. A central 
component of this Web site is the Hate Crimes Prevention 
Center, initiated by the Leadership Conference Education Fund. 
It is an interactive clearinghouse for information about 
bigotry and hate crimes.
    These initiatives, inspired by the White House Conference 
on Hate Crimes, have dramatically extended our institutional 
presence in combatting prejudice in cyberspace and elsewhere. 
Our online Hate Crimes Prevention Center, for example, now 
provides updated information on Federal and State hate crime 
statutes and statistics, community-based law enforcement 
strategies to respond to bigotry and violence, materials for 
parents and teachers to help them raise a generation of 
children who will grow up to embrace diversity and non-
discrimination, and, of course, links to other relevant 
resources.
    In addition, the Leadership Conference has entered into a 
long-term relationship with America Online to develop a portal 
that will serve as the seminal resource on the Internet on the 
history and future of the civil rights movement in this 
country. As a leader in information technology, America Online 
believes strongly in the power of combatting prejudice and 
improving inter-group understanding utilizing the Internet.
    These are but some of the steps we are taking to counter 
hate speech on the Internet, to drown out bigots with a chorus 
of harmony. But for two very important reasons, the Leadership 
Conference emphatically does not endorse proposals to censor 
hate speech on the Internet.
    First, we want the Internet to thrive, and we believe that 
the Internet by its nature cannot thrive in a climate of 
censorship. We want it to thrive because we recognize the 
Internet's potential as a force for cohesion and tolerance. It 
empowers individuals to reach across racial, ethnic, and 
religious lines like never before. It fosters dialogue. We 
support robust speech on the Internet because we are convinced 
we are right, that the hate mongers are wrong, and we know that 
reason will ultimately prevail over prejudice in the 
marketplace of ideas.
    Second, the Leadership Conference is deeply committed to 
the First Amendment. There was a time not too long ago when the 
message of the civil rights movement was seen as subversive and 
offensive. There was a time when civil rights leaders invoked 
the constitutional principle of free speech to confront threats 
of censorship and repression. Now that we are in the mainstream 
and the bigots are on the fringes, we will not abandon the 
principles and protections that brought us as a Nation to where 
we are today.
    Now, one reason we must be so vigilant about countering 
hate speech is that, left unchallenged, hate speech can incite 
violence. When bigots cross over the line from speech to action 
and carry out their warped ideology through violence, we leave 
the realm of hate speech and enter the realm of hate crimes. 
And whereas hate speech must be condemned but tolerated in our 
constitutional system, hate crimes must be condemned and 
prosecuted.
    While we do not believe that Congress should attempt to 
censor or crack down on hate speech, the Leadership Conference 
strongly believes that a fresh legislative response to the 
epidemic of hate crimes is both necessary and appropriate. And 
for that reason, we do support the passage of the Hate Crimes 
Prevention Act of 1999.
    I won't discuss the hate crimes bill, Mr. Chairman. I know 
that you are familiar with it. But I will say that it does 
remove anachronistic and unnecessarily burdensome limits on 
Federal prosecution, and that for us is a very important 
matter.
    And I will just make one final point to conclude. We know 
that the limits of current law are evident from the prosecution 
of Buford Furrow, the avowed white supremacist who shot up a 
day care center and killed a Federal employee. While the murder 
of Federal postal worker Joseph Ileto, because of his 
ethnicity, has resulted in a Federal indictment, Furrow's 
brutal assault on four children because of their religion did 
not constitute a Federal crime and therefore must be prosecuted 
by the Los Angeles district attorney's office in State court.
    The fact that the children are not Federal employees and 
were not engaged in a federally-protected activity does not 
make the assault on them any less of an infringement on Federal 
interests. Buford Furrow's crime was deliberately intended to 
shatter the ideals of equality and tolerance, on which our 
Federal Government was founded and which are embodied in the 
Federal Constitution. We hope that Congress will act soon to 
strengthen the Nation's hate crime laws.
    Now, where is the line between speech and action? As the 
Federal prosecution described by my colleague initially makes 
clear, there are times when hate speech takes the form of 
threats so specific and so imminent that law enforcement may 
appropriately intervene. The line is not always bright, 
especially as we come to grips with the promise and perils of 
the Internet, but we rely on the courts to define that line in 
individual cases. And I want to commend the prosecutor for 
being able to do that through his case.
    The aftermath of the Matthew Shepard case, however, 
contains a lesson about the promise and perils of the Internet. 
Judy Shepard, Matthew's mother, wrote recently that almost 
overnight after the killing, memorial Web sites for Matthew 
appeared. But then the huge number of hate-filled messages left 
at some of them forced the web masters to shut down their guest 
books.
    Ms. Shepard notes that, ``It is in the environment of 
institutionalized intolerance that our senses are bombarded 
almost daily with incident after incident of violence and 
hate.'' But then she writes, ``For all who ask what they can do 
for Matthew and other victims, my answer is to educate and 
bring understanding where you see hate and ignorance, bring 
light where you see darkness, bring freedom where there is 
fear, and begin to heal.''
    Judy Shepard is exactly right. The way to fight those using 
the Web to promote hate is to counter speech with more 
compelling speech, promoting the vision of America where we 
live together in mutual respect and celebrate our diversity.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Mr. Henderson.
    [The prepared statement of Mr. Henderson follows:]

                  PREPARED STATEMENT OF WADE HENDERSON

    Mr. Chairman and Members of the Committee: My name is Wade 
Henderson and I am the Executive Director of the Leadership Conference 
on Civil Rights. I also serve as Counsel to the Leadership Conference 
Education Fund. I am pleased to appear before you today on behalf of 
the Leadership Conference to discuss the issue of hate on the Internet.
    The Leadership Conference on Civil Rights is the nation's oldest, 
largest and most diverse coalition of organizations committed to the 
protection of civil and human rights in the United States. Since its 
establishment in 1950 by A. Philip Randolph, Arnold Aronson, and Roy 
Wilkins, three civil rights leaders who would eventually receive the 
Presidential Medal of Freedom, LCCR has promoted the passage and 
monitored the implementation of laws designed to achieve equality under 
law for all persons in the United States. Today, LCCR consists of over 
180 organizations working in concert to advance the cause of equality. 
Our coalition includes groups representing persons of color, women, 
labor organizations, persons with disabilities, older Americans, gays 
and lesbians, major religious groups, and civil liberties and human 
rights interests. It is a privilege to represent the civil and human 
rights community in addressing the Committee today. LCEF was founded in 
1969 as the education arm of the civil rights coalition and continues 
to fill that role today.
    Hate--whether it is purveyed on the Internet, on the printing 
press, or on the street corner--is a matter of fundamental concern to 
the Leadership Conference. Hatred of people because of who they are, 
where they worship or the color of their skin, is the antithesis of 
what we stand for as an organization. Hate makes a mockery of our 
accomplishments and undermines our half century of work to rid the 
United States of the vestiges of slavery and oppression.
    The Leadership Conference proudly participated in historic 
struggles that led to enactment of the Civil Rights Act of 1964, the 
Voting Rights Act of 1965, the Fair Housing Act of 1968, the Americans 
with Disabilities Act of 1990, and many other landmark civil rights 
laws. As difficult as those campaigns may have been, that may have been 
the easy part. Much more difficult is the struggle to change attitudes, 
to overcome bigotry, to build harmony. All the laws in the world cannot 
exorcise the demons of hatred, racism, sexism, xenophobia and 
homophobia that still plague this society.
    Hate manifests itself in many ways, ranging all the way from a 
muttered remark in the, workplace to brutal killing sprees. All hate 
must be condemned; but society's response to hate must be tailored to 
the manner in which it is expressed. Specifically, it is important to 
recognize a distinction between hate speech and hate crimes. In my 
testimony today I will outline LCCR's concern about the proliferation 
of both hate speech and hate crimes, and explain our view of the 
relationship between these two phenomena. In doing so, however, I will 
make clear that we believe the legislative reply to hate speech and 
hate crimes should be very different.

                              HATE SPEECH

    Some bigots keep their thoughts to themselves, never uttering a 
hateful remark or engaging in a hateful deed. Others, unfortunately, 
make themselves heard. They spread their vile opinions through casual 
conversation, or by confronting the object of their hatred with verbal 
abuse. Still others go so far as to disseminate their views through 
leaflets, pamphlets, books or broadcast media. Hitler's Mein Kampf is 
one of history's most notorious examples of published hate speech, but 
the ugly tradition both predates Hitler and survives him. And today, 
hate speakers have a new medium through which to express themselves: 
the Internet.
    At the outset, I want to emphasize that I believe the Internet is a 
wonderful development. It dramatically lowers the barriers to those who 
wish to enter the marketplace of ideas, enabling many more people to 
publish information and disseminate their views. Indeed, the Internet 
is perhaps the most democratic form of communication ever invented. In 
just a few years the Internet has already revolutionized such diverse 
fields as medicine, law and commerce; over time, I believe it will 
contribute greatly to the civic life of the nation as well.
    The Internet is profoundly non-judgmental. It transmits information 
whether that information is good or bad, true or false, helpful or 
hurtful. In the realm of civil rights, that means the Internet is a 
forum for messages of racial healing as well as racial hatred. For 
reasons I will explain, I am ultimately optimistic that, on balance, 
the Internet is a force for social reconciliation. But while we marvel 
at the Internet's potential for good, we cannot afford to ignore that 
which is frightening.
    The Leadership Conference abhors hate speech on the Internet. Of 
course we abhor hate speech conveyed through any other medium; but we 
recognize that hate speech on the Internet reaches a wider and perhaps 
more impressionable audience, and that sophisticated hate-mongers can 
use the Internet to enlist converts to their cause.
    As other witnesses have described, hate groups are increasingly 
well-established in cyberspace, using the Internet to promote and 
distribute their propaganda, recruit members, and exchange information. 
In 1995, Ku Klux Klan leader Don Black established the Stormfront site 
that ``serves as a clearinghouse for traditional white supremacist 
materials, addresses, and links to Home Pages * * * [of other hate 
groups].'' Skinheads USA also maintains a web page that begins with a 
warning: ``If you are not interested in the survival of the White race, 
piss off.'' The page also includes a game called ``write a caption''--
on one day the photograph to be captioned was of an African-American 
man being assaulted by a Caucasian.
    Another web page by a group calling itself CNG expresses the view 
that ``all non-Whites must be either exported or segregated to prevent 
further bastardization of our people, domination of our land, jobs and 
positions of education and employment.'' Still other ``hate pages'' on 
the Internet are run by individual extremists such as the site 
``Independent White Racialists'' whose organizer, a self-described 
skinhead, says his page ``is evidence that concerned White people don't 
have to be members of an organization to fight our freedom for White 
survival.''
    Such messages are disturbing, despicable and must be condemned in 
the strongest possible terms. But the existence of these viewpoints in 
cyberspace merely confirms their existence in American culture. The 
Internet does not create hatred; it illuminates it. It reminds us of 
the long road we must travel before we reach a truly race-blind 
society.
    What, then, is the proper response to Internet-spread hate speech? 
In our view, it is not sufficient to turn off the computer or slap on 
filtering software; these voices of disunity must be countered. Over 
seventy years ago Supreme Court Justice Louis Brandeis wrote:

        [T]he fitting remedy for evil counsels is good ones * * * If 
        there be time to expose through discussion the falsehoods and 
        fallacies, to avert the evil by processes of education, the 
        remedy to be applied is more speech, not enforced silence. Only 
        an emergency can justify repression. Such must be the rule if 
        authority is to be reconciled with freedom. Such, in my 
        opinion, is the command of the Constitution.

Whitney v. California, 274 U.S. 357, 375 (1927) (Brandeis, J., 
concurring) (emphasis added).
    The Leadership Conference has taken Justice Brandeis' wisdom to 
heart. We believe that the best antidote for offensive speech is more 
speech on the other side, and therefore we have sought to answer hate 
speech on the Internet with anti-hate speech on the Internet. We have 
aggressively used the Internet to disseminate our message of racial 
harmony and non-discrimination to a broader audience and to make more 
widely available the tools we believe can combat bigotry.
    For example, in November 1997, with the assistance of Bell Atlantic 
Corporation, we launched a new Web site, www.civilrights.org, to 
educate the public about the history and goals of the civil rights 
movement and to counter those who espouse hatred against individuals 
because of their race, ethnicity, gender, disability, religion, or 
sexual orientation. A central component of this web site is the Hate 
Crimes Prevention Center, located at http://civilrights.org/lcef/hcpc/, 
an interactive clearinghouse for information about bigotry and hate 
crimes. These initiatives, inspired by President Clinton's challenge at 
the White House Conference on Hate Crimes for Americans to find ways to 
overcome the fears that lead to bigotry and violence, have dramatically 
extended our institutional presence in combating prejudice in 
cyberspace and elsewhere.
    Since that time, with funding from the Levi Strauss Foundation and 
the Gill Foundation, the Leadership Conference has expanded 
``civilrights.org.'' Our on-line Hate Crimes Prevention Center, for 
example, now provides updated information on federal and state hate 
crime statutes and statistics; community-based and law enforcement 
strategies to respond to bigotry and violence; materials for parents 
and teachers to help them raise a generation of children who will grow 
up to embrace diversity and non-discrimination; and of course links to 
other relevant resources.
    In the near future, the Leadership Conference expects to take 
another major step forward in the on-line fight against hatred. With 
the assistance of Ripple Effects, a San Francisco-based software 
company, we are developing a multimedia tool, deliverable over the 
Internet, that will proactively spread our message of racial and ethnic 
tolerance to pre-adolescents before the destructive thoughts and 
behaviors that can lead to violence take root. Combining the power of 
technology and cutting-edge behavioral research, we believe this module 
will effectively leverage the digital medium to help counter all forms 
of bigotry and hate.
    In addition, the Leadership Conference has entered into a long-term 
relationship with America Online to develop a portal that will serve as 
the seminal resource on the Internet on the history and future of civil 
rights in this country. As a leader in information technology, America 
Online believes strongly in the power of combating prejudice and 
improving intergroup understanding utilizing the Internet.
    These are some of the steps we are taking to counter hate speech on 
the Internet, to drown out the bigots with a chorus of harmony. But for 
two very important reasons, the Leadership Conference emphatically does 
not endorse proposals to censor hate speech on the Internet.
    First, we want the Internet to thrive; and we believe that the 
Internet, by its nature, cannot thrive in a climate of censorship or 
heavy-handed government regulation. We want it to thrive because we 
recognize the Internet's potential as a force for cohesion and 
tolerance. It empowers individuals to reach across racial, ethnic and 
religious lines like never before. It fosters the dialogue that is the 
sine qua non of reconciliation. We support robust speech on the 
Internet because we are convinced we are right, the hate-mongers are 
wrong, and we know that reason will eventually prevail over prejudice 
in the marketplace of ideas.
    Second, the Leadership Conference on Civil Rights is deeply 
committed to the First Amendment. There was a time, not too long ago, 
when the message of the civil rights movement was seen as subversive or 
offensive. There was a time when our leaders invoked the constitutional 
principle of free speech to confront threats of censorship and 
repression. Now that we are in the mainstream, and the bigots are on 
the fringes, we will not abandon the principles and protections that 
brought us to where we are today.

                              HATE CRIMES

    One reason we must be so vigilant about countering hate speech is 
that, left unchallenged, hate speech can incite hate violence. When 
bigots cross over the line from speech to action and carry out their 
warped ideology through violence, we leave the realm of hate speech and 
enter the realm of hate crimes. Whereas hate speech must be condemned 
but tolerated in our constitutional system, hate crimes must be 
condemned and prosecuted.
    The Leadership Conference believes that hate crimes are a more 
serious problem than is generally recognized, and that the problem 
requires a more unified and determined response by governmental, civic, 
religious and educational organizations. Two years ago, in conjunction 
with the Leadership Conference Education Fund (LCEF), we published 
Cause For Concern: Hate Crimes in America, one of the first 
comprehensive assessments of the hate crime problem in the United 
States. That investigation confirmed our fear that violence motivated 
by hatred is both prevalent and on the rise.
    Even in the short time since we published Cause for Concern, there 
have been a series of hate-related crimes that serve as painful 
reminders of the bigotry still simmering in our society. On June 7, 
1998, the dismembered body of 49 year-old James Byrd, Jr., an African 
American male, was found in a wooded area in Jasper, Texas. The 
assailants chained Byrd to the back of their pickup truck and dragged 
his body along a rural dirt road. When found, Byrd's head and right arm 
were missing. Three white males were subsequently arrested and charged 
with his murder.
    In October of the same year, three white males tied Matthew Shepard 
to a wooden fence along an old dirt road, and pistol-whipped him with 
the butt of a .357 Magnum until they believed he was dead. They broke 
his skull. Then they took his wallet, his patent leather shoes and took 
off to burglarize his house. Matthew died a few days later in the 
hospital.
    Earlier this year, Steven Mullins admitted to crushing the head of 
Billy Jack Gaither, an Alabama gay man with repeated blows of an ax 
handle, after stabbing him in the neck and ribcage.
    Most recently, avowed white supremacists Benjamin Smith and Buford 
O. Furrow, Jr. went on shooting sprees in two Midwestern states and at 
a Jewish Community Center in Los Angeles, respectively. Smith killed 
two and wounded nine others while Furrow shot five individuals, 
including four children, before, killing a Filipino postman. Furrow 
said he wanted the community center attack to be ``a wake-up call to 
America to kill Jews.''
    These are crimes against individuals, but they also represent an 
attack on the American ideal that we can forge one nation out of many 
different people. The violence reverberates beyond the immediate 
victims, scarring every other member of the targeted minority group and 
cracking the bedrock of peaceful tolerance on which our country was 
founded.
    While we do not believe that Congress should attempt to censor or 
crackdown on hate speech, the Leadership Conference strongly believes 
that a fresh legislative response to the epidemic of hate crimes is 
both necessary and appropriate. For that reason, we support passage of 
the Hate Crimes Prevention Act of 1999 (S. 622 and H.R. 1082), 
legislation cosponsored by members of both parties in both Houses, 
including Senators Kennedy, Specter, Leahy and Schumer on this 
Committee.
    S. 622 would strengthen the current federal hate crimes statute in 
two respects. First, it would remove unnecessary and anachronistic 
obstacles to federal prosecution of hate crimes under current law. 
Second, it would bring within the ambit of 18 U.S.C. Sec. 245 crimes 
committed due to the victim's disability, sexual orientation or gender.
    The limits of current federal law are evident from the prosecution 
of Buford Furrow, the avowed white supremacist who shot-up a day care 
center and killed a federal employee. While the murder of Post Office 
employee Joseph S. Ileto, because of his ethnicity has resulted in a 
federal indictment, Furrow's brutal assault of 4 children because of 
their religion did not constitute a federal crime and must be 
prosecuted by the Los Angeles District Attorney's Office in state 
court. The fact that the children are not federal employees and were 
not engaged in a federally protected activity does not make the assault 
on them any less of an infringement on federal interests. Furrow's 
crime was deliberately intended to shatter the ideals of equality and 
tolerance on which our federal government was founded and which are 
embodied in the federal constitution.
    Consider other brutal hate crimes beyond the reach of federal law:

  <bullet> On June 18, 1995, Thai Mai, a 23 year old Vietnamese 
        American was attacked by three young white males at a nightclub 
        in Michigan. After yelling racial slurs at Mai, the three men 
        beat him until he fell against the cement floor splitting his 
        head open. Mai died five days later from major head trauma.
  <bullet> Randy Lawson, a white male and father of three was attacked 
        and murdered by two African Americans on April 9, 1994. 
        Lawson's attackers later admitted that they had killed him 
        because he was white and they did not like white people. The 
        murder incited intense outrage within the community and lead to 
        two other racially motivated killings.
  <bullet> On January 4, 1996 Fred Mangione, a gay man was brutally 
        murdered in Houston Texas by two neo-Nazis who bragged about 
        hating homosexuals. The two assailants, both members of a white 
        supremacist group, stabbed Mangione 35 times.

    To be sure, the assailants in each of these cases were prosecuted 
in state court. But our support for the Hate Crimes Prevention Act does 
not rest on the assumption that perpetrators of violent crimes will go 
unpunished. Most often state prosecution will suffice. But we believe 
it is important for there to be a federal backstop to ensure adequate 
punishment if local authorities are unable or unwilling to prosecute.
    More important, we urge passage of the Hate Crimes Prevention Act 
on the grounds that federal law should reflect the federal interest in 
protecting all minorities from bigotry and hate-motivated violence. 
Just as there is symbolic value in congressional condemnation of hate 
speech on the Internet, we think Congress should express the entire 
nation's outrage at these heinous hate crimes by including them within 
the protection of federal criminal law. That is a legitimate function 
of the criminal law.
    The civil rights community is frustrated, frankly, that this 
Congress, which is so quick to deploy the federal criminal law to 
condemn other conduct that could be left to state prosecutors, has been 
suddenly overcome by abstract concerns about federalism when it comes 
to condemning hate crimes. We respectfully submit that the slaying of 
Matthew Shepard by homophobic bigots implicates federal interests far 
more than the sale of two marijuana cigarettes on a city street corner. 
Yet Congress has not hesitated to mobilize federal law and federal 
resources against the latter crime, despite the existence of concurrent 
state criminal jurisdiction over drug distribution.
    One other criticism of hate crimes legislation is that it somehow 
infringes on the right of free speech. As I have made clear, the 
Leadership Conference takes a back seat to no organization in its 
support of civil liberties, including the liberty of free speech. That 
is why it is important to recognize the distinction between hate speech 
and hate crimes. Until a hate-monger crosses the line from speech to 
action, he is cloaked in the protection of the federal Constitution. 
When he does cross the line, we believe the federal criminal law should 
be available to protect his victims.
    Where is the line between speech and action? As the federal 
prosecution described by my colleague on the first panel makes clear, 
there are times when hate speech takes the form of threats so specific 
and so imminent that law enforcement may appropriately intervene. The 
line is not always bright, especially as we come to grips with the 
promise and perils of the Internet, but we rely on the courts to define 
that line in individual cases.

                               CONCLUSION

    The aftermath of the Matthew Shepard case, in particular, contains 
a lesson about the promise and perils of the Internet.
    Judy Shepard, Matthew's mother, wrote recently that ``[a]lmost 
overnight [after the killing], memorial Web sites for Matthew 
appeared--but then the huge number of hate-filled messages left at some 
of them forced the Web masters to shut down the guest books.'' Mrs. 
Shepard notes that ``it is in this environment of institutionalized 
intolerance that our senses are bombarded, almost daily, with incident 
after incident of violence and hate.''
    But then she writes, ``For all who ask what they can do for Matthew 
and other victims, my answer is to educate and bring understanding 
where you see hate and ignorance, bring light where you see darkness, 
bring freedom where there is fear, and begin to heal.''
    Judy Shepard is exactly correct. The way to fight those using the 
Web to promote hate is to counter hate speech with more compelling 
speech promoting the vision of an America where we live together in 
mutual respect and celebrate our diversity.

    The Chairman. Mr. Berkowitz, we will turn to you.

                 STATEMENT OF HOWARD BERKOWITZ

    Mr. Berkowitz. Mr. Chairman, members of the committee, I am 
Howard Berkowitz, National Chairman of the Anti-Defamation 
League. I am accompanied here today by Abraham Foxman, National 
Director, by Jess Hordas, ADA's new Washington Director, and by 
Michael Lieberman, the League's Washington counsel. ADL very 
much appreciates this opportunity to testify on hate on the 
Internet.
    Hate groups and extremists have moved quickly to the 
Internet. This is the dark side of the information 
superhighway. What attracts all of these hate groups to the 
Internet is fairly easy to understand. First, it is very cheap. 
Second, it is easily accessible to literally hundreds of 
millions of people. Third, it provides them a new method of 
communication which is far better than what they have had in 
the past. And, fourth, it is anonymous. People can go to their 
Web sites. Nobody knows they have been there, and therefore 
they are very much in every one of our homes 24 hours a day.
    As a vehicle for spreading hate, the Internet is more 
powerful than any extremist of the past decade could have 
imagined. Anti-Semites and racists use the Internet to recruit 
new members and threaten their enemies with violence. Online 
membership firms make it easy to join. Online, they become part 
of an electronic community of like-minded individuals which 
helps to reinforce their hateful convictions.
    While hundreds of hate sites currently online comprise only 
a tiny portion of the World Wide Web, these sites are just as 
easily accessible to the 100 million Americans using the 
Internet as is the Web site of the U.S. Senate. Children who 
explore the Internet, whether visiting Web sites, reading e-
mail messages, or conversing in chat rooms, run the risk of 
encountering hate. Many hate groups specifically target the 
young. These hateful messages can deeply influence and affect 
impressionable young children, seducing them with very 
sophisticated graphics, rock music, and even crossword puzzles.
    They may stumble on these sites inadvertently. For example, 
a child doing a homework assignment on World War II or the 
Holocaust might enter the term ``holocaust'' into a search 
engine. In response to his query, the search engine will 
provide the child with links to historic Holocaust Web sites, 
but also will include sites prepared Holocaust deniers and 
white Aryan racists.
    The propaganda presented by hate sites is aimed at 
influencing not just attitudes, but also behavior. Hate crimes 
in Chicago, Sacramento, and Los Angeles this summer demonstrate 
how online propaganda can lead to action. Matthew Williams, a 
primary suspect in the murder of a gay couple in Redding, CA, 
and the Sacramento synagogue arsons in June, was drawn into the 
hate movement by white supremacist Web sites.
    Benjamin Smith, a member of the racist and anti-Semitic 
World Church of the Creator who shot at six orthodox Jews and 
murdered a Korean student and a black man over the July 4 
weekend, repeatedly viewed the group's Web site and 
complimented its web master on his work.
    At the Web site of hate group Aryan Nations, Internet users 
can order the extremist book that Los Angeles gunman and former 
Aryan Nations security guard Buford Furrow had in his car at 
the time of his vicious attacks in Los Angeles in August.
    Many of the groups and individuals creating hate sites have 
extensive histories of violence. In the League's written 
statement, we have included additional material on all these 
extremist individuals, groups and movements that I have 
mentioned above.
    But what can be done about hate on the Internet? There are 
no simple answers to this question. We feel strongly that 
censorship is not the answer. The First Amendment's protection 
of free speech shields most extremist propaganda. However, the 
First Amendment does not protect speech that threatens or 
harasses other people.
    What can be done? The ADL carefully monitors and documents 
Internet hate and promotes public awareness of the plans and 
histories of online bigots. In line with our view that exposure 
will lead to the rejection of the haters and their propaganda, 
we continue to publish materials concerning hate on the 
Internet. These can be found on our own Web site, and are 
included in our new report called ``Poisoning on the Web,'' 
which has been provided to all members of Congress.
    Additionally, in cooperation with the Learning Company of 
Massachusetts, ADL has released a new software filter. This 
software filter is entitled the ADL Hate Filter. It provides 
parents and others with the ability to block access to Internet 
sites that ADL believes promote hate. It is a site-specific 
filter, not a word-specific one, and it also offers those being 
blocked from the site an educational experience to learn why 
the site is being blocked.
    We have several other recommendations that we think could 
be very helpful in trying to deal with hate on the Internet. 
First, provide education and training for Federal prosecutors 
in the use of Federal criminal civil rights statutes to 
prosecute incidents of bias-motivated threats on the Internet. 
In addition, we urge Congress to enact the Hate Crimes 
Prevention Act. This necessary complementary legislation would 
authorize the Department of Justice to assist local 
prosecutions and, where appropriate, investigate and prosecute 
cases in which bias violence occurs because of the victim's 
sexual orientation, gender, or disability.
    Second, mandate a new study by the Commerce Department's 
National Telecommunications Information Authority on the impact 
of electronic hate on bias crimes. The NTIA's very useful 
December 1993 report, ``The Role of Telecommunications in Hate 
Crimes,'' pre-dates the widespread use of the Internet by these 
organized hate groups.
    Third, provide funds for the Department of Education to 
develop outreach and educational programs to protect our 
Nation's children by teaching teachers how to develop their 
students' critical thinking skills and responsible use of the 
Internet.
    Fourth, civic leaders and politicians should take a 
leadership role in speaking out against bigotry, anti-Semitism 
and racism on the Internet and wherever it occurs. Americans of 
goodwill must join together to reject the efforts of extremists 
to exploit the Internet for their own propaganda purposes.
    Fifth, encourage the ISP's to identify and eliminate hate 
sites that are on the ISPs' programs. And, six, penalize 
knowingly advocating an action of physical violence to an 
individual.
    Thank you very much, Mr. Chairman, for these hearings and 
for all that you are doing in this area.
    The Chairman. Well, thank you, Mr. Berkowitz. We appreciate 
that.
    [The prepared statement of Mr. Berkowitz follows:]

                 PREPARED STATEMENT OF HOWARD BERKOWITZ

      hate on the internet: the anti-defamation league perspective
    Concerns about online extremism are not new. In January 1985, the 
Anti-Defamation League released a report entitled Computerized Networks 
of Hate. Years before the Internet became a household word, that report 
exposed a computerized bulletin board created by and for white 
supremacists and accessible to anyone with a modem and a home computer. 
Aryan Nations, a paramilitary group affiliated with the ``Identity 
Church'' pseudo-theological hate movement, sponsored the bulletin board 
and named it ``Aryan Nation Liberty Net.'' The project was the work of 
two individuals: Louis Beam, then a Knights of the Ku Klux Klan and 
Aryan Nations leader, and George Dietz, the man behind the largest neo-
Nazi publishing mill in the United States.
    This bulletin board was a forerunner of extremism on the Internet. 
Computerized Networks of Hate detailed five ways the ``Aryan Nation 
Liberty Net'' served the white supremacist movement, all of which 
remain important to extremism on the Internet today. First, the 
bulletin board was designed to draw young people to the hate movement 
with appealing propaganda. Second, the network helped stir up hatred 
against the ``enemies'' of white supremacy. Third, the bulletin board 
was a means to make money. Fourth, the system offered the potential for 
circulating secret, coded messages among extremists, and finally, it 
bypassed embargoes that nations outside of the United States placed on 
hate literature.
    Though Computerized Networks of Hate noted little to suggest that 
Aryan Nation Liberty Net represented a great leap forward in the spread 
of anti-Semitic and racist propaganda, it warned that ``complacency'' 
about this development ``would be unwise.'' At the time, Beam wrote 
that the bulletin board was a ``patriotic brain trust'' and boasted 
that ``computers are now bringing their power and capabilities'' to the 
white supremacist movement. ``The possibilities,'' Beam remarked, 
``have only been touched upon.''
    The same month that ADL released Computerized Networks of Hate, 
white supremacist Stephen Donald (Don) Black was released from prison. 
While serving just over two years, Black had learned to use computers. 
In 1981, Black was arrested with a group of nine other neo-Nazis and 
Klansmen in Slidell, Louisiana, and charged with plotting to invade the 
Caribbean island of Dominica, overthrow its government, and turn it 
into a ``white state.'' He was convicted, and following an unsuccessful 
appeal, he surrendered to Federal marshals in December, 1982.
    In the years following his release, Black gradually withdrew from 
white supremacist activism, eventually becoming a computer consultant. 
However, he did not disavow his racism. It was Black who would launch 
Stormfront, the first extremist hate site on the World Wide Web, a 
decade after ADL reported on ``Aryan Nation Liberty Net.'' ``There is 
the potential here to reach millions,'' Black said of the Internet. ``I 
think it's a major breakthrough. I don't know if it's the ultimate 
solution to developing a white rights movement in this country, but 
it's certainly a significant advance.''
    Initially, Black could find only a handful of other Web sites that 
reflected his anti-Semitic, racist message. Today, hundreds of bigotry-
laden sites promoting a variety of philosophies have joined Stormfront 
on the Web. The propaganda presented by these sites, from subtle to 
heavy-handed, is aimed at influencing both attitudes and behavior.
    Though it is not always easy to draw a connection between online 
speech and violence, extremist groups with histories of violence have 
extensive Web sites. Additionally, extremists have used the Internet to 
comment favorably on violent acts. One Web site calls John William 
King, convicted murderer of James Byrd, an ``American Hero'' and asks 
readers to ``give thanks to God'' for King's act. Another site's 
``Memorial'' to gay murder victim Matthew Shepard claims he ``got 
himself killed'' because of his ``satanic lifestyle'' and ``will be in 
hell for all eternity.''
    Many extremist sites target the young. Hate groups such as the 
World Church of the Creator have posted Web sites filled with simple 
propaganda devoted specifically to wooing children. Bigotry-laced hard 
rock and the Internet have proved a natural match for racist Skinheads 
trying to capture the minds of teens.
    While deeply disturbing, the growth of hate and extremism on the 
Internet simply mirrors the expansion of Internet use. What began as a 
small computer network used primarily by scientists and academic 
researchers has become a mass medium. Computers and Internet access are 
in workplaces, homes, schools and libraries, and prices for both are 
falling rapidly. For many Internet users in the United States, going 
online costs nothing. Large numbers of U.S. workers have free access to 
the Internet at their offices. Many U.S. residents use free Internet 
access at their local public libraries, and educational institutions 
regularly connect their students to the Web free of charge.
    Most Internet Service Providers willingly ``host'' their customers' 
World Wide Web pages; in return for a user's access fee, they provide 
nearly unlimited use of the hardware and communications lines necessary 
for creating a site on the Web. Some Web-based services, such as Tripod 
and GeoCities, host Internet users' pages free of charge. All of the 
above provide free, easy-to-use Web development tools, making it 
simple, even for those who know nothing about computer programming, to 
create their own Web pages.
    Beyond low cost and availability, the Internet provides a new type 
of information distribution, since time and distance are compressed. 
Information posted there is available instantaneously, 24 hours a day, 
from anywhere on the planet. The World Wide Web creates the illusion 
that all information is present in the user's computer at the instant 
it is needed. Accessing information has never been easier. What's more, 
the Internet has done more than that, for it has turned every user into 
a potential publisher. It has never been easier for any individual to 
broadcast his or her ideas to the world.
    A worldwide collection of computers linked by high-speed phone 
lines, the Internet displays remarkable versatility, sometimes 
resembling a letter, on other occasions a telephone, and still other 
times a television. Like a printed letter, the Internet provides a way 
to communicate directly with others, near or far, but on the Internet, 
``E-mail'' (electronic mail) is delivered nearly instantaneously (E-
mail arrives so much more quickly than standard printed correspondence 
that users of the Internet sometimes call traditional letters ``snail 
mail''). Furthermore, E-mail users pay nothing for the transmission of 
messages; their accounts are charged a flat fee for service, if they 
pay for their accounts at all.
    Like a telephone, the Internet provides a way to communicate in 
``real time'' with others. A person using a chat room or Internet Relay 
Chat channel to converse with friends can engage in a fast-paced 
conversation, for friends' words appear on the screen mere seconds 
after they've been typed. Like television, the Internet can 
``broadcast'' information to vast audiences. Millions of Internet users 
can view the same World Wide Web site simultaneously, and Web sites, 
like television programs, are able to transmit text, sound, photos, and 
moving images. The growth of the Internet represents a revolution in 
communication as significant as that begun by the development of the 
printing press in the 15th century. Yet the time needed for its impact 
to be felt has been drastically telescoped. What took centuries is now 
taking place in a matter of a few years.
    Even before Stormfront appeared on the Web, extremists had begun 
exploiting other ways to use the Internet, and these practices continue 
today. Lively conversations take place on numerous extremist Internet 
Relay Chat channels. The USENET, a collection of thousands of public 
discussion groups (or newsgroups) on which people write, read and 
respond to messages, attracts hundreds of thousands of participants 
each day, both active (those who write) and passive (those who simply 
read or ``lurk''). Newsgroups have been compared to community bulletin 
boards. Haters of all sorts debate, rant, and insult their opponents on 
newsgroups with titles such as alt.politics. white-power and 
alt.revisionism.
    Electronic mailing lists (or ``listservs'') flourish as well. Such 
lists are like private ``bulletin boards'' available only to 
subscribers. While some lists keep their subscription information 
confidential, most are easy to join. Postings to some of these lists 
are moderated (i.e., monitored by the list operator who applies certain 
standards of acceptability), but others are entirely unregulated.
    In fashioning their lists, extremists and racists create an 
``electronic community'' of like-minded people. Before the Internet, 
many extremists worked in relative isolation, forced to make a great 
effort to connect with others who shared their ideology. Today, on the 
Internet, bigots communicate easily, inexpensively, and sometimes 
anonymously with hundreds of fellow extremists. Online, extremists 
reinforce more easily each other's hateful convictions.
    Extremists also use E-mail, which allows them to communicate with 
one another directly, their missives ostensibly hidden from public 
view. In fact, E-mail is not truly private: computer-savvy individuals 
can intercept and read private messages. Some users, nervous about 
eavesdroppers, now use cryptographic programs. Cryptography converts 
written material using a secret code, rendering it unreadable by anyone 
who does not have the means to decode it. With encrypted E-mail, 
extremists have found a secure forum in which to exchange ideas and 
plans. E-mail can also be used to spread hate propaganda. With a 
mailing list and a message, hate mailings can easily reach the 
mailboxes of large numbers of people. Enterprising haters have managed 
to mass-mail hate materials to tens, hundreds, or even thousands of 
unsuspecting people without revealing their identity.
    Though purveyors of hate make use of all the communication tools 
the Internet provides, the World Wide Web is their forum of choice. In 
addition to its multimedia capabilities and popularity with Internet 
users, the Web allows bigots to control their message. Organized haters 
complain about civil rights activists who critique their manifestoes in 
USENET newsgroups and other interactive forums. In contrast, haters can 
refuse to publish critical messages on their Web sites, just as a TV 
station can refuse to broadcast another station's opinions over its 
airwaves. Furthermore, it is impossible for someone surfing the Web to 
know if any particular organization, other than one with a national 
reputation, is credible. Both the reputable and the disreputable are on 
the Web, and many Web users lack the experience and knowledge to 
distinguish between them. Increasingly, Web development tools have made 
it simple for bigots to create sites that visually resemble those of 
reputable organizations. Consequently, hate groups using the Web can 
more easily portray themselves as legitimate voices of authority.

                               DON BLACK

    Since its creation, Stormfront has served as a veritable 
supermarket of online hate, stocking its shelves with many forms of 
anti-Semitism and racism. In its first two years, Stormfront featured 
the writings of William Pierce of the neo-Nazi National Alliance; David 
Duke; representatives of the Holocaust-denying Institute for Historical 
Review and other assorted extremists. By 1997, Black's site became home 
to the Web pages of other extremists, such as Aryan Nations and Ed 
Fields, racist publisher of The Truth At Last, a hate-filled newspaper. 
He also posted new reprints of white supremacist articles and essays, 
such as The Talmud: Judaism's holiest book documented and exposed. 
Meant to inflame Christians by characterizing the Talmud as primarily 
anti-Christian and filled with ``malice,'' ``hate-mongering'' and 
``barbarities,'' this particularly scurrilous tract willfully distorts 
and misrepresents an important religious document while demonstrating a 
complete lack of understanding of its history, complexity, and role in 
Jewish religious practice.
    Some of Black's recent efforts have involved the expansion of 
Stormfront: enlarging its collection of links, adding an interactive 
chat room, and housing additional racist Web sites. One of these sites, 
Our Legacy of Truth, offers the text of works such as ``Proof of Negro 
Inferiority'' by Alexander Winchell and Adolf Hitler's Mein Kampf, as 
well as Willie Martin's ``1001 Quotes By and About Jews.'' This 
pernicious compendium of quotations strings together mistranslated 
remarks made by Jews, statements of well-known non-Jews taken out of 
context, and the ravings of anti-Semites, so as to give readers the 
impression that Jews are constantly striving for global control. 
Another site now housed by Black, White Singles, serves as a free 
dating service for white supremacists. ``Women and men listed on WS 
[White Singles] are heterosexual, white gentiles only,'' its Home Page 
declares. Well over 200 men and women have registered for this service, 
many of them submitting pictures of themselves for viewing by 
prospective mates. A third new site at Stormfront, White Nationalist 
News Agency (NNA), posts the text of articles from the Associated Press 
and other reputable news sources, seemingly without legal permission. 
Attached to these articles are the racist and anti-Semitic comments of 
Vincent Breeding, NNA editor and National Alliance activist of Tampa, 
Florida.
    Beyond his additions to Stormfront, Black has begun to help other 
white supremacists by hosting their sites without publicly admitting 
that he is doing so. Unlike sites such as The Truth at Last or White 
Nationalist News Agency, which are housed by Black and are in effect 
part of Stormfront, it is not readily apparent that he services these 
other sites.
    Adrian Edward Marlow of Suisun City, California, maintains one of 
these sites, White Pride World Wide.\10\ In fact, Marlow owns Black's 
Web server, the computer that contains his Web site and makes it 
available to Internet users. Black rents this server from Marlow and 
controls it electronically from a remote location: his home in West 
Palm Beach, Florida.\11\ Marlow also uses his own server to co-host 
white supremacist sites with Don Black.
    Not surprisingly, White Pride World Wide is advertised on 
Stormfront and links to the mailing lists and chat room at Black's 
site. The rest of the site reflects Black's values as well: it includes 
``1001 Quotes By and About Jews,'' Madison Grant's racist tract The 
Passing of the Great Race and transcriptions of Louis Beam's speeches. 
Like Stormfront, White Pride World Wide also houses other racist Web 
sites, such as Verboten (a German-language extremist site) and 
women.wpww.com (a site created by and for white supremacist women).
    Black hosts a site named Blitzcast, which Stormfront and White 
Pride World Wide recommend for those seeking online, racist audio 
``broadcasts.'' Using free audio software easily downloadable from the 
Web, visitors to Blitzcast can listen to the speeches of American Nazi 
Party founder George Lincoln Rockwell, the weekly radio addresses of 
National Alliance leader William Pierce, and the ravings of anti-
Semitic Jew Benjamin Freedman. Also appearing at Blitzcast is Frank 
Weltner, who uses the pseudonym ``Von Goldstein Mohammed'' and runs Jew 
Watch, yet another site hosted by Black.
    Jew Watch organizes its anti-Semitic materials much in the same way 
a popular Web directory might group more benign information. Weltner 
presents accusations that Jews were behind the terrors caused by 
Russia's Communist regime in ``Jews, Communism, and The Job of Killing 
Off the USSR's Christians.'' ``Jewish Genocides Today and Yesterday'' 
describes an alleged Jewish plan to deport non-Jews from the U.S. in 
1946. ``90 percent of All United States News-papers Are Owned and Run 
by Jews'' repeats the oft-heard charge that Jews run the media, and 
``The Rothschild Internationalist-Zionist-Banking-One World Order 
Family'' claims that Jews control the world of finance. Adolf Hitler's 
writings, transcripts of Father Charles Coughlin's anti- Semitic radio 
broadcasts, and the text of Henry Ford Sr.'s bigoted International Jew 
are all available at Jew Watch as well.
    When Marlow created Web sites at more than ten domain names that 
resembled the names of major daily newspapers, another misleading Web 
venture involving Black garnered attention. In October 1998, Marlow 
linked these sites directly to Stormfront. Consequently, Web users 
looking for news about Philadelphia at ``philadelphiainquirer.com,'' 
for example, ended up visiting Don Black's site, not the Philadelphia 
Inquirer Home Page (which is located at phillynews.com). Other 
newspapers affected included the Pittsburgh Post-Gazette, the Chicago 
Sun-Times, the Atlanta Constitution, and the London Telegraph.
    As Black's site has grown and he has aggressively continued to 
promote it, an increasing number of Web users have been visiting 
Stormfront. Black told the Associated Press that the number of contacts 
to Stormfront doubled during the domain name incident, to 2,000 per 
day. According to Black, Web surfers have accessed Stormfront more than 
a million times since its debut.
    Web users visiting Stormfront right now will likely find a bold 
advertisement in the lower left-hand corner of their screens. By 
clicking on it, they arrive at the Web site for perhaps America's best-
known and most politically active racist: Black's mentor, David Duke.

                               DAVID DUKE

    Like Don Black, David Duke first became an active racist as a teen-
ager. Soon after, as a student at Louisiana State University, he 
founded the neo-Nazi group White Youth Alliance. After his graduation, 
Duke founded the Knights of the Ku Klux Klan and launched a publicity 
blitz that boosted its membership.
    Duke's days as a Klan leader ended abruptly in 1980, after he was 
accused of trying to sell his group's membership list. Duke left the 
Klan to establish and head the National Association for the Advancement 
of White People (NAAWP), which he himself confirmed was simply a Klan 
without robes. Though Duke shed his official role in the NAAWP when he 
became more politically active, he continued to maintain ties to the 
group and its agenda continued to parallel his.
    Running as a Republican, Duke won a Louisiana State Legislature 
seat in January 1989, despite scrutiny and opposition from national 
Republican leaders. While in office, he continued to sell neo-Nazi 
literature. While claiming that he had repudiated racism, Duke made 
statements such as ``Jews are trying to destroy all other cultures.'' 
Duke won 43.5 percent of the vote in an unsuccessful 1990 U.S. Senate 
race and 700,000 votes in a 1991 race for the governorship of 
Louisiana.
    After an unsuccessful Presidential bid in 1992, Duke retreated from 
the political arena but continued to concentrate on raising his media 
profile. He tried his luck as a radio talk show host in 1993, but his 
controversial program, the ``David Duke Conservative Hotline,'' proved 
unpopular. Two years after Duke failed to raise the $7,000 needed to 
continue broadcasting his program, he established The David Duke Report 
Online, a less costly venue for disseminating his views.
    David Duke has embraced the Internet as a key to the future of the 
white supremacist movement. An article featured prominently at his 
site, ``The Coming White Revolution--Born on the Internet,'' outlines 
his high hopes that the Internet will ``facilitate a world-wide 
revolution of White awareness.''
    Concerned that the ``non-white birthrate,'' ``massive 
immigration,'' and ``racial intermarriage'' will ``reduce the founding 
people of America into a minority,'' Duke boasts at his Web site about 
the ``genetic potential'' of ``our people,'' stressing the ``innate 
intellectual and psychological differences'' between whites and Blacks.
    In another piece posted at his site, ``Race and Christianity,'' 
Duke writes, ``I truly believe that the future of this country, 
civilization, and planet is inseparably bound up with the destiny of 
our White race. I think, as the history of Christianity has shown, that 
our people have been the driving force in its triumph.''
    In November 1998, Duke renamed and redesigned his site. The site, 
now simply called David Duke, pictures Duke amid colorful images of an 
American flag, the Lincoln Memorial, Mount Rushmore, and the White 
House. A ``David Duke Biography'' portrays the former Klan leader as a 
respectable citizen, listing the awards and degrees he has received and 
pointing out that he is a ``publicly-elected Republican official'' 
(Duke currently serves as the Chairman of the St. Tammany, Louisiana, 
Republican Parish Executive Committee). Duke's site also sells his 
autobiography, My Awakening: A Path to Racial Understanding; Duke 
promises to personally autograph all copies of the book ordered from 
the site.
    Though Duke's site does not possess the depth or breadth of a site 
like Stormfront, his well-known name may attract curious, potential 
extremists browsing the Web. This is particularly troublesome 
considering Duke's expressed belief in the Internet as a white 
supremacist recruitment tool and his recent offline activities.
    After years spent denying his racism in order to advance in 
politics, Duke has once again openly embraced the white supremacist 
movement. In a July 1997 article published by The Tallahassee Democrat, 
he acknowledged that his politics were becoming ``more radical'' in 
reaction to what he referred to as a `` `growing undercurrent' of white 
frustration.'' Most disturbing are his speeches given in 1997 and 1998 
at four separate events sponsored by the National Alliance, a group the 
Anti-Defamation League has identified as the single most dangerous 
organized hate group in the United States today.
                         the national alliance
    The National Alliance (NA) was originally established as the 
``Youth for Wallace'' campaign in support of the failed 1968 
Presidential bid of Alabama Governor George Wallace. After Wallace 
lost, the group was renamed the ``National Youth Alliance.'' In 1970, 
William Pierce, a former American Nazi Party official, joined the 
group, and in 1974 (around the time that David Duke founded his Knights 
of the Ku Klux Klan), Pierce took the reins and dropped the word 
``Youth'' from the organization's name.
    Now in his mid-60's, Pierce still leads the group out of a compound 
in West Virginia. Using the pseudonym Andrew Macdonald, he authored the 
novel The Turner Diaries, which details a successful world revolution 
by an all-white army, and the systematic extermination of Blacks, Jews, 
and other minorities. Many extremists regard The Turner Diaries as an 
explicit terrorism manual, and the novel is believed to have inspired 
several major acts of violence, including the April 1995 Oklahoma City 
bombing. Pierce continues to encourage violence, viewing it as the 
ultimate solution to what he terms ``the Jewish problem.'' His weekly 
radio program, American Dissident Voices (ADV), is rife with incendiary 
speech. Between his novels and his broadcasts, Pierce provides bigots 
with both an ideological and a practical framework for committing acts 
of mass destruction.
    The National Alliance is currently the largest and most active neo-
Nazi organization in the nation. In the past several years, dozens of 
violent crimes, including murders, bombings and robberies, have been 
traced to NA members or appear to have been inspired by the group's 
propaganda. At the same time, the organization's membership base has 
experienced major growth, with its numbers more than doubling since 
1992.
    The NA's current strength can be attributed to several factors: its 
willingness to cooperate with other extremists (such as David Duke); 
its energetic recruitment and other promotional activities; its 
vicious, but deceptively intellectualized propaganda, and a skillful 
embrace of the Internet.
    A former physics professor at Oregon State University, Pierce was 
quick to understand the potential power of the Internet. Today, the 
NA's site is one of the best-organized and most informative hate sites 
on the Web. It promotes Pierce's Nazi-like ideology: biological 
determinism, hierarchical organization, an emphasis on will and 
sacrifice, and ``a long-term eugenics program involving at least the 
entire populations of Europe and America.''
    In the section of its site entitled ``What is the National 
Alliance?,'' the NA calls for the creation of ``White Living Space'' 
purged of all non-whites and demands the formation of a government 
``wholly committed to the service of [the white] race and subject to no 
non-Aryan influence.'' On the site, this section is reprinted in 
Swedish, Dutch, and German, as are French and German translations of 
The Turner Diaries and the text of selected ADV broadcasts in Swedish.
    Also included on the NA's site are Pierce's anti-Semitic screed 
``Who Rules America'' (a particular favorite among online bigots) and 
articles from the NA's print publications, Free Speech and National 
Vanguard. These documents contain familiar themes: America is in 
decline, its vital essence polluted by non-Aryans, and only the 
revolutionary program of the NA can save it.
    The NA Web site also features an online version of the NA's 
National Vanguard Books catalog, which offers an extensive selection of 
racist and anti-Semitic books, videotapes, and cassettes. These items 
are divided into categories such as ``National Socialist Revolution''; 
``Race: Science and Sociology''; and an especially long list of 
materials concerned with ``Communism, Zionism, Feminism, and the 
Jews.''
    Visitors can order books from the National Alliance by downloading 
a user-friendly order form from the NA site, printing it out, and 
sending it to the NA with payment. Additionally, ``any White person (a 
non-Jewish person of wholly European ancestry) of good character and at 
least 18 years of age who accepts as his own the goals of the National 
Alliance'' can apply for membership using the Web, by downloading and 
printing out a membership form and mailing it to the group. Users can 
also find items relating to a particular topic by plugging in key words 
to the site's search engine; over 250 items turned up when searching 
for the term ``Jews.''
    NA sympathizers have also increased the group's exposure by using 
public Internet forums, sending unsolicited E-mail messages, and 
disrupting USENET newsgroups. In the ``Reviews and Commentaries'' 
section of the Web site for Amazon.com, visitors are invited to comment 
on books they have read. In at least two reviews (no longer at the 
site), NA supporters promoted their organization's message. Reviewing 
The Turner Diaries, one of these sympathizers urged other readers to 
``contact the author's organization, the National Alliance, and get 
involved in the struggle for self-determination and freedom for our 
people.'' Another commentary lamented that whites who ``just sit on 
their butts all day and allow the Jewish takeover of the U.S. to 
continue unchallenged really need to read the chapter called the `Day 
of the Rope.' Everyone else who wants to fight needs to join the 
[NA].''
    In October 1994, thousands of people in four states received an 
unsolicited E-mail message containing NA propaganda from an untraceable 
address. An action like this is considered a serious breach of 
``netiquette'' (responsible Internet use). The NA disavowed this act 
but noted its interest in sending unsolicited messages in its 
newsletter.
    A similar transmission of another National Alliance piece occurred 
in 1995, on the eve of the Jewish High Holy Days, and again in February 
1998, when hundreds of people received an unsolicited E-mail message 
containing the transcript of Pierce's ADV program entitled ``Bill, 
Monica, and Saddam.'' In it, Pierce claimed that by writing about the 
Monica Lewinsky affair, the ``Jewish media bosses'' harmed President 
Clinton, who ``would do whatever they told him to do,'' but ``had 
screwed up so many times that he had become a liability for them.''
    Those sympathetic to the NA have also targeted specific 
institutions, such as Southwest Texas University. In April 1998, three 
Black students there were charged with raping two white students at a 
dormitory party. The campus NAACP chapter voiced opposition to the 
charges and criticized school administrators for a ``rush to 
judgment.'' In response, a National Alliance supporter sent 16,000 
unsolicited E-mail messages to students and faculty calling on the 
NAACP to apologize to ``victims of rape'' and all white women. ``The 
truth is,'' the E-mail read, ``White people in this country are under 
attack by an ever-growing population of black criminals.'' NA 
sympathizers have also posted thousands of messages to USENET 
newsgroups, seeing them as a way to broadcast their message widely. In 
its July 1995 Bulletin, the NA encouraged ``the Alliance's seasoned 
cybernauts'' to spread its Web site address ``as widely as possible.''
    In a 1996 speech to the NA's Cleveland unit, Pierce described the 
NA's organized effort to dominate discussions in USENET newsgroups. He 
outlined the operations of an ``Alliance Cybercell,'' a group of NA 
supporters active in USENET newsgroups. ``We have organized members 
working as teams, not identifying themselves as Alliance members but 
going into these discussion groups and virtually taking them over,'' 
Pierce explained. These cell leaders ``decide what discussion groups 
they want to get into * * * analyze the situation, analyze the types of 
propaganda that have been presented by the other side and we go in 
there and just tear them apart.'' Though Pierce encouraged online NA 
supporters to shift their recruiting activities from public debate to 
private discussions, one still finds NA members descending on USENET 
newsgroups and other public forums where they believe they might find 
sympathizers, spewing their hateful propaganda and inviting people to 
visit the NA Web site.
    NA members correspond privately via E-mail not only with potential 
recruits, but also with each other. The organization claims to have 
established a ``Rapid Response Team (RRT),'' a group of NA volunteers 
who are contacted via E-mail to respond to special situations. 
According to the NA, this team serves many purposes, from gathering 
information to quickly alerting other NA members in their area when an 
``emergency'' arises.

        NATIONAL ASSOCIATION FOR THE ADVANCEMENT OF WHITE PEOPLE

    While David Duke has recently allied himself with the National 
Alliance, his NAAWP has also jumped on the Internet bandwagon. Duke 
once described the NAAWP as ``a perfect foil for me.'' Around 1990, 
soon after his successful run for the Louisiana State Legislature, he 
resigned from leadership of the group, but he still remained active 
behind the scenes. Duke's campaign treasurer, Paul Allen, became the 
NAAWP's leader, and the office for Duke's unsuccessful 1991 
gubernatorial campaign served as the group's headquarters. The NAAWP 
has described Duke as ``former NAAWP President and still, best friend 
to the organization,'' and Duke's Web site proudly identifies him as 
``founder and former National President of the NAAWP.''
    The NAAWP portrays itself as a non-profit ``white rights'' 
organization that defends white interests and rights in the same 
fashion that the NAACP works for the ``Advancement of Colored People.'' 
Unlike some groups that proudly embrace the label of ``racist,'' the 
NAAW is more subtle in its hate. As early as 1985, the NAAWP encouraged 
its followers to mute their white supremacist views and ``never refer 
to racial superiority or inferiority, only talk about racial 
differences, carefully avoiding value judgements.'' The NAAWP North 
Carolina chapter Web site responds to the question ``Is the NAAWP a 
`hate group'?'' with a firm ``absolutely not.'' At the national NAAWP 
site, a group leader writes, ``I don't condemn black people. I want the 
best for them, both from a compassionate Christian-point-of-view, and 
because if they escape from the cycle of poverty, drugs, and crime, 
then we too will be better off.'' According to the NAAWP Michigan 
chapter, ``the NAAWP doesn't stand for hating anyone, and more 
importantly it never has. It's about building a new, better society. A 
homogeneous community where everyone contributes, everyone benefits, 
and all share a common set of values and cultural beliefs.''
    The NAAWP, like David Duke, has tried to hide its hate, but its 
racist and anti-Semitic views, like those of its founder, are evident. 
NAAWP News, the group's newsletter, has regularly published articles 
with titles like ``Anti-Semitism is normal for people seeking to 
control their own destiny''; ``Jewish control of the media is the 
single most dangerous threat to Christianity,'' and ``Why most Negroes 
are criminals.''
    On its Web sites as well, the NAAWP shows its true colors. ``Tired 
of Black History Month, Martin Luther King Day, Miss Black USA, Black 
Entertainment Network, The United Negro College Fund, [and] Affirmative 
Action?'' asks the NAAWP Arkansas chapter site. The Hawaii chapter's 
site calls gays ``the worst predators on [sic] our children'' and 
declares, ``the Jesse Jacksons of this World just want White Women 
around to Pimp for Money and Drugs and to make the White Man Pay.''
    The National NAAWP Web site offers particularly clear examples of 
the bigotry that underlies the NAAWP's talk about ``white rights.'' It 
presents an anti-Semitic essay by National Alliance member Kevin Alfred 
Strom with the comment, ``this essay is a real call to all arms for all 
the races and nations of the world to rise up against these hypocrites, 
deceivers and tyrants--the j*ws [sic].'' The site also posts another 
essay by Strom, ``The Beast as Saint,'' which purports to discredit Dr. 
Martin Luther King, Jr. as a plagiarizer and a patron of prostitutes. A 
third document at the site, ``Jews, Jews, Jews,'' offers ``proof that 
the Jew really does control the media'' in the way of a list of 
``Jewish CEO's.

                              KU KLUX KLAN

    NAAWP members sometimes attend rallies organized by an older, 
better-known hate group: the Ku Klux Klan (KKK). For more than 130 
years, the Klan has provided a model for extremists by actively 
practicing and promoting bigotry, intimidation and violence.
    The strength of America's oldest hate group has fluctuated, peaking 
and receding at various times in American history, coinciding with the 
rise and decline of social and economic discontent in the nation. The 
economic, political and cultural changes in the South after the Civil 
War, the dislocations in the early 1920's and the struggle for civil 
rights in the 1950's and 1960's all fueled Klan growth.
    In recent years, as a result of the counteractions of law 
enforcement and civil rights groups, changing fashions in the extremist 
movement, and internal power struggles, the Klan has lost much of its 
clout. David Duke's Knights of the Ku Klux Klan, which fell into 
decline when Don Black went to jail, underwent a major split in 1994. 
Other large, national Klans active in the 1960's, 1970's, and 1980's 
have also disintegrated. For instance, a 1987 Southern Poverty Law 
Center legal victory effectively dismantled the United Klans of America 
after its members lynched a Black teen-ager, Michael Donald. A 1993 
court order disbanded the Invisible Empire, Knights of the Ku Klux Klan 
after group members pelted civil rights activists with rocks and 
bottles during a brotherhood march in Forsyth County, Georgia.
    Still, in the 1990's, Klan members remain active and violent, 
planning terrorist bombings and burning Black churches. In April 1997, 
three Klan members were arrested in a plot to blow up a natural gas 
refinery near Fort Worth, Texas. Three more men with links to the Klan 
were arrested in February 1998 for planning to poison water supplies, 
rob banks, plant bombs, and commit assassinations. In a July 1998 court 
judgment, the Christian Knights of the Ku Klux Klan, its South Carolina 
state leader Horace King, and several other Klansmen were held 
responsible for their roles in a conspiracy to burn down a Black 
church.
    Like other white supremacist groups, the Klan has turned to the 
Internet as a means to revitalize their movement and attract a new 
cadre of supporters and activists. ``Up until last month, the Knights 
of the Ku Klux Klan Realm of Florida was very small,'' writes Brian K. 
Bass of his Klan group. ``But now we have a website up, and our numbers 
are growing dramatically. We picked up 6 new members in just the last 
two weeks, and have other applications under consideration. I feel that 
this is due to the website.'' On the Web, some Klan factions favor the 
toned-down rhetoric associated with the NAAWP and other hate groups 
trying to appear mainstream. The first Klan page on the Web belonged to 
a group that adopted this strategy: Thom Robb's Knights of the Ku Klux 
Klan.
    Robb's site presented a ``kinder, gentler'' Klan that teaches white 
racial pride but professes to be neither anti-Black nor anti-Catholic. 
Whites ``have a right to be proud of their race'' the site explains, 
adding that the popular image of a racist Klan is a lie deliberately 
spread by the liberal media.
    Nonetheless, Robb's site relied on traditional Klan themes: whites 
are victims of intolerance who face racial extinction from a horde of 
Blacks and foreigners eager to intermarry and destroy American culture 
and religion; America should belong to Americans, not Asians, Arabs or 
Jews. Furthermore, early incarnations of Robb's site reprinted the 
``Franklin Prophecy,'' a vile, anti-Semitic speech falsely attributed 
to Benjamin Franklin.
    Today, Robb's Klan site reflects even stronger efforts to appear 
respectable, particularly in stating, like Duke, that the Klan's goal 
should be ``political power.'' This ``political power'' is to be used 
to combat ``anti-white and anti-Christian propaganda'' and to promote 
``White Christian civilization.'' Robb remains dismissive of the Klan's 
violent image, claiming his group ``is well known through out [sic] law 
enforcement for being non-violent.''
    Some Klan members are not content with this toned-down language. 
One unabashedly bigoted Klan with more than a few Web sites, the 
Knights of the White Kamellia was founded in Louisiana in 1993. This 
group seeks to ``maintain and defend the superiority of the White 
race,'' maintain ``a marked difference between the White and Negro 
race,'' prevent the government ``from falling into the hands of the 
Negro and or the ungodly,'' and educate ``against miscegenation of the 
races.''
    Many other Klans are also now on the Web. Web users can find a 
membership application for the American Knights of the Ku Klux Klan, 
perhaps today's most vocal and active Klan, at that group's Web site. A 
few sites use the old Klan moniker ``Invisible Empire,'' among them 
America's Invisible Empire of Alabama and Pennsylvania's Invisible 
Empire KKK. Smaller regional groups, such as the Southern Cross 
Militant Knights and the Northwest Knights, are active on the Internet 
as well.
    While the Klans on the Web represent different factions and espouse 
various viewpoints, their Web sites are formatted in similar ways. Most 
Klan sites contain a membership application, a list of upcoming 
rallies, a statement of principles, an explanation of customs (such as 
cross burning), and a spurious account of Klan history. At many sites, 
the three latter items are adaptations, if not direct appropriations, 
of the materials originally posted at Robb's Klan sites. In fact, Robb 
threatened another Klan group with legal action for posting a document 
that Robb claims belongs exclusively to his Klan.
    Furthermore, some Klan sites link to other Klan sites with which 
they are not affiliated. For instance, the North Georgia White Knights 
Web site links to many chapters of the Knights of the White Kamellia, 
the New Order Knights, and the Knights of the Ku Klux Klan. The site 
for America's Invisible Empire links to the Web pages of the Northwest 
White Knights and Knights of the White Kamellia, among others. Such 
links, as well as the similarities between KKK sites, demonstrate the 
bonds among the different Klan factions, despite their infighting.

                        IDENTITY CHURCH MOVEMENT

    The Identity Church movement, a pseudo-theological manifestation of 
racism and anti-Semitism on the far right, first came to light in the 
U.S. during the late 1970's and early 1980's, though its roots lie in 
the late years of the last century, with the British movement known as 
Anglo-Israelism.
    Anglo-Israelism held that white Anglo-Saxons are descended from the 
Ten Lost Tribes of Israel. Adherents to this doctrine believed that 
England and the U.S. are the true Israel in which Biblical promises to 
the ``Chosen People'' are to be fulfilled. The Identity movement takes 
the position that white Anglo-Saxons--not Jews--are the real Biblical 
``Chosen People;'' that Jews are the descendants of a union between Eve 
and Satan; and that the white race is inherently superior to other 
races. Identity believers assert that Blacks and other nonwhites are 
``mud people,'' on the same spiritual level as animals, and therefore 
without souls.
    A nationwide movement, Identity has filled dozens of ``churches'' 
with its hate. Additionally, Identity has become the ``religion'' of 
choice for many hate groups, including Aryan Nations and the Posse 
Comitatus, in addition to some factions of the Ku Klux Klan.
    Numerous Identity ``churches'' have established a Web presence in 
recent years, among them America's Promise Ministries, Stone Kingdom 
Ministries, and Kingdom Identity Ministries. Many of these 
organizations have made good use of the Web to market their pamphlets, 
books, and videotapes to their supporters. America's Promise Ministries 
offers Web users a vast online catalog of books, pamphlets, audio 
tapes, and video tapes filled with their racist beliefs. Along with a 
section full of online Identity books and book reviews, the Stone 
Kingdom Ministries Web site lists hundreds of ``Bible Studies on 
Audiocassettes'' for sale. Among bumper stickers, decals, charts, and 
other merchandise, the Kingdom Identity Ministries Web site retails 
Identity-based books written for children. Also at the Kingdom Identity 
site, Web users can enroll in a correspondence course, which consists 
of studying almost 300 pages of Identity materials, to receive a 
``Certificate in Christian Education.''
    With links to these ``churches'' at its Web site, the bimonthly 
newspaper The Jubilee of Midpines, California, serves as a national 
umbrella publication for Identity believers. Like the Web sites for 
those groups, the Jubilee site puts the power of the Web to use to 
raise funds. In addition to selling books and videotapes that the 
Jubilee guarantees ``you won't find in the B. Dalton bookstore,'' 
visitors to the Jubilee site can sign up for subscriptions to the 
newspaper's print edition; buy advertising in its print or online 
versions, and purchase inexpensive, long distance telephone service 
that will benefit The Jubilee.
    While some Identity ``churches'' focus on the Web's commercial 
potential, paramilitary Identity groups such as the Posse Comitatus and 
Aryan Nations have used it to encourage action.

                            POSSE COMITATUS

    William Potter Gale created an Identity group named Posse 
Comitatus, which means ``power of the county'' in Latin. Other Posses 
unaffiliated with Gale sprang up in its wake, particularly during the 
1970's and 1980's. Loosely affiliated bands of armed anti-tax and anti-
Federal government vigilantes and survivalists, these Posses believed 
that all government power is rooted at the county, not Federal, level.
    Because they are convinced that the Federal government is 
controlled by ``enemies'' (usually Jews), Posse adherents resist paying 
taxes as well as other duties of law-abiding citizens. Aspects of the 
Posse's ideology, most notably its fierce hostility to Federal 
authority, reverberate among today's militia and common law court 
activists.
    In the 1970's, Posses attracted Klan members and other anti-Semites 
(among them David Duke), and in 1983, these groups gained nationwide 
attention when active Posse member Gordon Kahl murdered two Federal 
Marshals in North Dakota and became a fugitive. When Kahl died in a 
shootout with Arkansas law enforcement officers, Posses and other 
Identity groups made him a martyr.
    In 1991, James Wickstrom, an Identity minister and Posse leader 
based in Michigan, was convicted of plotting to distribute $100,000 in 
counterfeit bills to white supremacists at a 1988 Aryan Nations event. 
He was released from prison in 1994 and today runs a Posse Web site 
with fellow Identity ``Pastor'' August Kreis of Pennsylvania.
    At his Posse Web site, Kreis calls ``the occupying forces'' of the 
``zionist [sic] or jewish [sic] occupied government'' the enemies of 
``We the People'' and describes them as the reason that the government 
has ``grossly overstepped its bounds.''
    Kreis and Wickstrom also use their Web site to editorialize about 
current events. Written by Kreis, ``Villain or American Folk Hero?'' 
voices support for alleged abortion clinic bomber Eric Robert Rudolph. 
Kreis claims that ``those who call themselves Identity'' and ``a 
growing consensus of conservative Christians'' believe Rudolph has 
``done the will of * * * God.''
    In justifying Rudolph's alleged actions, Kreis stresses that ``it 
is * * * an inarguable matter of Scriptural mandate that those involved 
with [abortion] have committed capital murder--a crime punishable by 
DEATH!'' Kreis maintains that ``several hundred [Jewish Occupational 
Government] agents'' are chasing Rudolph to ``execute him'' on the 
spot, and he urges ``the proud European White folk living in this 
country'' to ``rise up against this tyrannical, parasitic [Jewish] 
communist government.'' Perhaps Rudolph engenders greater sympathy 
among this group because he himself may be an Identity believer: in 
1984, he and his family spent several months at the Schell City, 
Missouri, Church of Israel compound run by Identity preacher Dan 
Gayman.
    With regard to the brutal murder on October 23, 1998, of Dr. 
Barnett Slepian of upstate New York, likely targeted because he 
performed abortions, Kreis and Wickstrom comment, ``Not much needs to 
be said. The justice in the `putting to DEATH' of this jewish [sic] 
abortionist says it all! * * * Pray that other True Israelite Warriors 
across this land continue to rid our country of these murdering 
bastards!''

                      ARYAN NATIONS AND THE ORDER

    A contemporary of Posse Comitatus co-founder William Potter Gale, 
Wesley Swift was a Klan organizer who served as an aide to Gerald L.K. 
Smith, for many years America's most notorious peddler of anti-
Semitism. During the 1950's, Swift was a leader of a Los Angeles church 
called the ``Anglo-Saxon Christian Congregation.'' When Swift died, 
``Rev.'' Richard G. Butler proclaimed his ``Church of Jesus Christ 
Christian'' (CJCC the direct successor to Swift's church. In the early 
1970's, Butler formed a new group around his church: Aryan Nations 
(AN). Since then, he has held court at a 20-acre AN/CJCC compound in 
Northern Idaho, anticipating the creation of an exclusively white 
``national racist state'' in the Pacific Northwest. At its Web site, AN 
preaches that God's creation of Adam marked ``the placing of the White 
Race upon this earth''; and that ``the twelve tribes of Israel'' are 
``now scattered throughout the world'' and are ``now known as the 
Anglo-Saxon, Germanic, Teutonic, Scandinavian, Celtic peoples.'' As a 
corollary, all non-whites are seen as inferior, but it is the Jews who 
are singled out as the special object of AN's ``theologically'' based 
hatred.
    AN vilifies Jews as ``the natural enemy of our Aryan (White) Race. 
This is attested by scripture and all secular history. The Jew is like 
a destroying virus that attacks our racial body to destroy our Aryan 
culture and the purity of our Race.''
    Citing the Book of Revelation, AN envisions a ``battle'' being 
fought ``between the children of darkness (today known as Jews) and the 
children of light * * * the Aryan Race, the true Israel of the bible.'' 
According to AN, there will ``soon'' be a ``day of reckoning,'' in 
which ``the usurper will be thrown out by the terrible might of 
Yahweh's people, as they return to their roots and their special 
destiny.''
    In this struggle between the Jews and ``the children of light,'' AN 
claims that the Jews have a surrogate: the United States Government, 
often referred to as ``ZOG'' (Zionist Occupied Government). In 1996, AN 
posted to its site an ``Aryan Declaration of Independence,'' which 
declared, ``the history of the present Zionist Occupied Government of 
the United States of America is a history of repeated injuries and 
usurpations * * * [all] having a direct object--the establishment of an 
absolute tyranny over these states.'' Holding ``the eradication of the 
White race and its culture'' as ``one of its foremost purposes,'' this 
``ZOG'' is accused of relinquishing the ``powers of government to 
private corporations, White traitors and ruling class Jewish 
families.''
    AN perceives itself as literally surrounded by enemies: vigorously 
fighting back is not only a solution to its problems, but a duty. 
According to AN, those whites who resist ``ZOG'' are ``chosen and 
faithful,'' and the white ``Racial Nation has a right and is under 
obligation to preserve itself and its members.''
    Although primarily an Identity group, AN embraces a neo-Nazi 
philosophy. Richard Butler himself has praised Hitler, and at the AN 
Web site, which announces, ``WE BELIEVE in the gam-ma'di'on * * * a 
cross formed of four capital gammas * * * in the figure of a 
swastika,'' he is pictured giving the raised stiff-arm Nazi salute.
    One of the most ambitious Identity Web sites, the AN site contains 
a membership application, a substantial book catalog, an online 
``Literature Archives'' of hateful texts, and a long list of links to 
other hate sites.
    AN is no stranger to violence. During the early 1980's, several of 
Butler's followers joined members of the neo-Nazi National Alliance and 
some Klan splinter groups to form a secret organization called The 
Silent Brotherhood, also known as The Order, which planned to overthrow 
the U.S. government.
    To raise money for its planned revolution, The Order engaged in a 
crime spree involving murder, counterfeiting, bank robberies, and 
armored-car hold-ups. Ostensibly, the group's activities ended with the 
death of its founder and leader, Robert J. Mathews, in a shootout with 
Federal agents in December 1984 and the incarceration of many of its 
members. Yet The Order has taken on a new life on the World Wide Web, 
serving as inspiration for today's Identity adherents and other white 
supremacists.
    Hosted by the same Internet Service Provider as the AN Web site, 
the 14 Word Press Web site is devoted to the work of David Lane, an 
imprisoned member of The Order. Lane's best-known legacy is the ``14 
words'': ``We must secure the existence of our people and a future for 
White children.'' Despite the fact that Lane is a convicted felon 
serving a 190-year sentence in a high-security prison, his writings, 
including pieces from his monthly Focus Fourteen newsletter, can reach 
millions through the Internet. Among his columns, many of which are 
offered at the 14 Word Press site, is a sympathetic letter to convicted 
Oklahoma City bomber Timothy McVeigh.

                               NEO-NAZIS

    The symbols associated with Hitler's Nazis are attractive to bigots 
on the Web because they suggest anti-Semitism in an immediate, forceful 
way to the general public.
    Like Identity ``churches,'' neo-Nazis use the Web to market 
merchandise, selling items emblazoned with the instantly recognizable 
symbols of Hitler's Nazi party. Naming itself for the Shutzstaffel, the 
elite section of the Nazi Party that ran Hitler's extermination camps, 
the online store SS Enterprises specializes in selling Nazi-related 
paraphernalia, including newly-designed T-shirts, pins, patches, hats, 
stickers, flags, belt buckles, arm bands, and helmets bearing 
swastikas, the initials ``SS,'' a German eagle, or an iron cross. Also 
available are Nazi patches, pins, rings, and hats designed during 
Hitler's era. Like the T-shirt a music fan might buy at a rock concert, 
one shirt reads ``Adolf Hitler European Tour 1939-1945,'' listing the 
nations that Hitler invaded during those years. Other white supremacist 
T-shirts sold by SS Enterprises feature racist slogans such as ``If we 
knew they were going to be this much trouble, we'd a picked our own 
damn cotton!!'' or depictions of Klansmen behind phrases like ``Boyz N' 
the Hood.'' Another shirt depicts a ``Black Family Tree'': a tree with 
nooses hung from it, seemingly ready for a Klan-style lynching.
    At Our Hero's Library Web site, twenty something neo-Nazi Tom Smith 
proudly displays a picture of his ``Aryan hero,'' Adolf Hitler, flanked 
by animated, swirling swastikas. Hosted by Don Black's Stormfront, 
Smith's site features numerous Hitlerian essays covering topics such as 
eugenics and ``Aryan'' culture. Amidst photos of Jews with their eyes 
blacked out, he lists Jewish ``powerlords'' and posts a Jewish 
``surname index.'' ``Before buying anything always check to make sure 
the company is not j*wish [sic],'' Smith writes. Seeing Jewish 
conspiracies everywhere, he calls Bob Dole, Bill Clinton, Ross Perot, 
and Pat Buchanan Jewish ``marionettes''; blames Jews for schoolyard 
violence in Arkansas, and declares them responsible for the conflict 
between Ireland and Britain. ``The J*w has been and is always very 
aware of the conflict amongst non-j*ws, and is tireless in his pursuit 
of trying to profit from the internal feuds of his enemies,'' Smith 
writes. ``When these feuds are not [innate] in and of themselves, the 
j*w creates new feuds via his presence in each of the opposing 
countries to create a new profit-scenario for himself.'' Also available 
at Our Hero's Library are downloadable copies of Smith's extensive 
messages to USENET newsgroups, the Internet's system of electronic 
bulletin boards.
    Other neo-Nazis on the Web represent more established organizations 
and have been active in the white supremacist movement much longer, 
since the days of American Nazi Party leader George Lincoln Rockwell. 
Following Rockwell's assassination by a disgruntled party member in 
1967, Matthias (Matt) Koehl took over his American Nazi Party, renaming 
it the National Socialist White People's Party. In 1970, NSWPP member 
Frank Collin started his own group, the National Socialist Party of 
America (NSPA), made famous by its attempts to march through the 
predominantly Jewish town of Skokie, Illinois in 1977. Another former 
NSWPP member, Harold Covington joined the NSPA in the mid-1970's. At 
that time, Gary ``Gerhard'' Lauck, who went on to found the NSDAP-AO (a 
German acronym meaning National Socialist German Workers Party--
Overseas Organization), was also a member of Collin's group. Covington 
took over the NSPA in 1980, after Collin was sentenced to seven years 
in prison for sexually abusing children. In 1982, Koehl dropped the 
name NSWPP in favor of the name ``The New Order,'' and Covington's NSPA 
disbanded. In 1994, Covington founded a new group using the old name 
once used by Koehl: NSWPP. Today, Covington and Lauck both have a 
presence on the World Wide Web.
    Harold Covington was one of the first neo-Nazis on the Web, 
establishing a site as early as 1996. Covington's original site defined 
National Socialism as ``a world view for White People'' and listed 
guiding principles such as ``Racial Idealism'' and ``The Upward 
Development of the White Race.'' The site listed ``Ten Basic Principles 
of National Socialism,'' which urged ``Aryan'' racial purity and 
conquest of the world. Covington lauded Rockwell at length and provided 
links to other white supremacist sites.
    ``Gerhard'' Lauck has also been online for many years. In the early 
days of cyberspace, Lauck's materials were circulated on a closely 
guarded computer network named the ``Thule Network,'' a bulletin board 
system similar to the ``Aryan Nation Liberty Net.'' In order to gain 
access to the network, prospective users had to pass a loyalty test and 
a background check. According to some estimates, over 1,500 neo-Nazis 
in Germany had access to Lauck's propaganda via the ``Thule Network,'' 
which remains active today.
    In 1995, Danish authorities, acting on international warrants, 
arrested Lauck and agreed to extradite him to Germany, where he was 
sentenced in 1996 to four years in prison for inciting racial hatred by 
disseminating anti-Semitic and racist material. Lauck was released in 
March 1999 and deported to the United States.
    While he was in jail, Lauck's Web site featured the headline, 
``Free Gerhard Lauck!'' The site said about Lauck's arrest and 
imprisonment: ``these illegal and reprehensible acts by the anti-White 
authorities are a direct assault upon ALL pro-White organizations. YOU 
are under attack now! If International Jewry is allowed to kidnap 
Gerhard Lauck their next step will be to systematically silence all 
pro-White leaders, organizations, and members worldwide one by one.''
    Like other neo-Nazis, Lauck has expressed intense approval for 
Hitler and hatred for Jews. He has stated that ``anything that is bad 
for the Jews is good for us'' and told a Danish audience that ``the 
Jews were treated too nicely in the concentration camps.'' Yet buried 
among the Nazi-themed books sold at his Web site were a group of texts 
that question whether the Holocaust took place, bearing titles like 
``Auschwitz: Truth or Lie?'' and ``Did Six Million Really Die?''

                            HOLOCAUST DENIAL

    Why would an anti-Semitic neo-Nazi such as Gerhard Lauck deny that 
the Holocaust took place? A July 1996 message from fellow neo-Nazi 
Harold Covington to his National Socialist White Peoples Party E-mail 
mailing list provides some possible reasons. Covington comments, ``take 
away the Holocaust and both the National Socialists and the Jews become 
very different people, almost reversing roles.''
    Viewing the Holocaust as a ``seemingly bottomless gold mine in the 
form of `reparations' which has financed murderous Israeli aggression 
in the Middle East and numerous anti-White Jewish institutions,'' 
Covington wonders: ``without the Holocaust, what are the Jews?'' His 
answer: ``Just a grubby little bunch of international bandits and 
assassins and squatters who have perpetrated the most massive, cynical 
fraud in human history.''
    Likewise, Covington thinks the general public would be ``stunned 
with admiration for the brilliance of Adolf Hitler'' \29\ if it 
believed the Holocaust did not happen. Paraphrasing prominent Holocaust 
historian and Emory University professor Deborah Lipstadt, he declares 
that ``the real purpose'' of Holocaust denial is ``to make National 
Socialism an acceptable political alternative again.
    Since 1979, when Willis Carto founded the Institute for Historical 
Review (IHR), a sizable Holocaust denial movement has surfaced. 
Holocaust deniers make the mendacious claim that the account of Nazi 
genocide universally accepted by legitimate historians is false, either 
in its entirety or in most of its central facts. To support this claim, 
they distort and even fabricate history.
    Unlike Harold Covington, most in the Holocaust denial movement try 
hard to mask the anti-Semitism underlying their claims. Instead, hoping 
to make their views seem respectable, they pretend that their sole goal 
is to ``correct'' the historical record. Posing as historians and 
cloaking themselves in ersatz scholarship, the deniers claim that the 
Holocaust is a Jewish fabrication, not the product of Nazi hatred.
    Holocaust deniers' thousands of pages of propaganda on the Web, 
presented as academic fact or in the guise of free and open ``debate,'' 
take particular advantage of many Web users' difficulty distinguishing 
between reputable and disreputable Web sites.
    When ADL first reported on Holocaust denial Web sites in 1996, only 
three existed: Greg Raven's IHR site, Bradley Smith's site for the 
Committee for Open Discussion of the Holocaust Story (CODOH), and the 
Zundelsite, which promotes the work of Canadian Holocaust denier Ernst 
Zundel. Today, these sites are still among the most significant 
manifestations of Holocaust denial on the Web, but have been joined by 
more than a dozen others, as well as numerous sites with Holocaust-
denial materials alongside other hateful propaganda.

                    INSTITUTE FOR HISTORICAL REVIEW

    The California-based IHR, which split with Willis Carto in 1993, 
remains the world's single most important outlet for Holocaust-denial 
propaganda. While the IHR seeks to gain credibility by working under 
the guise of scholarship and impartiality, many of its staffers and 
Editorial Advisory Committee members often participate in pro-Nazi and 
anti-Jewish activities. Current director Mark Weber was an activist in 
the National Alliance during the 1970's, and editorial advisor Robert 
Faurisson was convicted three times of violating French hate-crime laws 
because of his anti-Semitic activities. Other active participants in 
IHR include David Irving, the leading Holocaust denier in England, and 
Ernst Zundel, Canada's most notorious neo-Nazi.
    From 1996 to 1998, IHR Associate Director Greg Raven housed 
extensive IHR materials at his ``personal'' Web site, which he claims 
is ``not supported, sponsored, or financed by the Institute for 
Historical Review.'' Raven's ``personal'' site continues to exist, 
though he moved all of his IHR materials to a separate, ``official'' 
IHR site in March 1998.
    The IHR Web site contains hundreds of online ``revisionist'' 
pamphlets, books, and articles, as well as a complete index of the JHR. 
Among IHR's leaflets, one finds ``Auschwitz myths and facts,'' which 
claims that ``Auschwitz was not an extermination center'' and that 
``the story of mass killings in `gas chambers' is a myth.'' Many JHR 
articles are reprinted in their entirety, including ``Is The Diary of 
Anne Frank genuine?'' Additionally, IHR publishes the full text of a 
few books at its site, such as Did Six Million Really Die? by British 
``revisionist'' Richard Harwood.

                        BRADLEY SMITH AND CODOH

    Formerly the ``Media Project Director'' for IHR, longtime Holocaust 
denier Bradley Smith joined current IHR leader Mark Weber in founding 
the Committee for Open Debate on the Holocaust (CODOH) in 1987. On his 
Web site, Smith presents himself as an intellectually honest gadfly 
with no ax to grind.
    Smith works hard to create the image of a man who wants to 
encourage reasonable debate among reasonable people. His admission that 
``the Hitlerian regime was antisemitic [sic] and persecuted Jews'' 
seems meant to show that it is intellectual honesty, not anti-Semitism, 
that leads him to deny that ``the German state pursued a plan to kill 
all Jews or used homicidal `gassing chambers' for mass murder.''
    For many years, Smith has been at the center of the deniers' 
college outreach program. He first drew public attention when about 70 
college newspapers published his Holocaust denial ads, which he still 
regularly sends to campus editors, in the early and mid-1990's. All of 
these ads are reprinted at the CODOH Web site.
    At first, Smith's ads featured long essays that outlined the 
deniers' position, such as Mark Weber's ``The `Jewish soap' myth.'' 
Smith's first widely published ad stated ``the figure of 6 million 
Jewish deaths is an irresponsible exaggeration, and * * * no execution 
gas chambers existed in any camp in Europe which was under German 
control.'' This ad went on to note that the ``purpose'' of accounts of 
the Holocaust is ``to drum up world sympathy and political and 
financial support for Jewish causes, especially for the formation of 
the State of Israel.'' Another early CODOH ad claimed ``The U.S. 
Holocaust Memorial Museum displays no convincing proof whatsoever of 
homicidal gas chambers.''
    Upset about the high cost of these lengthy ads, Smith soon realized 
the power of the Internet. He began to place brief, inexpensive ads in 
school papers that merely listed his Web site and E-mail addresses. Not 
only did these ads cost less money, they also hid Smith's agenda. In 
addition, Smith tried to draw his readers' attention with misleading 
slogans such as ``Ignore the Thought Police'' and ``Judge for 
yourself.''
    Smith's savvy marketing technique was tailor-made for students, 
many of whom are comfortable with the Internet, predisposed against 
authority, and willing to challenge received wisdom. Students 
responding favorably to these deceptive ads would realize Smith's 
intention to deny the Holocaust only after visiting the CODOH Web site, 
where they would receive his message without mediation.
    Once at the CODOH site, students are targeted further. They are 
urged to distribute CODOH leaflets on their campuses and fight what 
Smith calls the ``Campus Thought Police'' (that is, legitimate 
Holocaust historians). Also, students are offered a set of links and 
asked to ``choose a major'' such as ``Mathematics,'' ``Science,'' or 
``Politics.'' By clicking on a ``major,'' they are linked to Holocaust 
denial articles specially tailored to their areas of interest. Also 
presented is an innocuous-sounding section titled ``Hot Links to Higher 
Learning,'' which contains links to a variety of Holocaust denial 
sites; Smith classifies such sites as ``Social, Political and 
Historical Activism & Commentary.''
    The CODOH Web site today contains a vast amount of Holocaust-denial 
information. Visitors to the site can look for any one of over 1,000 
separate documents using one of the site's eight search tools, such as 
its index of articles by subject and its chronological list of 
additions. Particularly troublesome are the sections titled ``War 
Crimes Trials'' and ``The Tangled Web: Zionism, Stalinism, and the 
Holocaust Story.'' ``War Crimes Trials'' offers articles that attack 
the objectivity and legal validity of the post-war Nuremberg Trials, 
where much information about the Holocaust first became public, and 
where the basic history of the genocide was first established. ``The 
Tangled Web'' suggests that Jews were responsible for Bolshevism in the 
Soviet Union while linking Zionism to Fascism. CODOH manages to present 
Jews as both International Communist conspirators and ultra-nationalist 
bigots who willingly cooperated with violent anti-Semites.

                           ZUNDEL AND RIMLAND

    Another longtime ``revisionist,'' Ernst Zundel has been the leading 
Holocaust-denial propagandist in Canada for more than two decades. In 
the early 1970's, Zundel penned pro-Nazi materials under the name 
Christ of Friedrich, including the book The Hitler We Loved and Why. In 
the late 1970's, ads for his Samisdat Publishers Ltd. in George Dietz's 
neo-Nazi Liberty Bell magazine (based in West Virginia) offered 
Holocaust-denial books for sale, and Zundel wrote articles for Liberty 
Bell and another Dietz publication, White Power Report. In the early 
1980's, the German government named Zundel as one of the world's 
largest distributors of neo-Nazi material. Mid-1995 marked the debut of 
the Zundelsite. Though Zundel, a German citizen, lives in Canada, the 
site has been hosted by an Internet Service Provider in California. 
Zundel has denied that he operates the Zundelsite. Rather, he claims, 
the site is run by his ``webmaster,'' Dr. Ingrid Rimland of California. 
Currently, the site is called ``Ingrid Rimland's Zundelsite'' and 
declares, ``the Zundelsite, located in the USA, is owned and operated 
by Dr. Ingrid A. Rimland, an American citizen.'' Regardless of who 
actually maintains the Zundelsite, its agenda is clearly that of its 
namesake.
    From its first appearance on the Internet, the Zundelsite made its 
Holocaust denial agenda unambiguous, challenging assertions that there 
``was a Fuhrer order for the genocidal killings of Jews, Gypsies and 
others''; disputing the fact that gas chambers were ``designed for the 
express purpose of targeting groups of human beings,'' and refusing to 
believe that ``the numbers of victims claimed to have been killed are 
anywhere near the number of people who actually died in concentration 
camps of whatever cause.'' The site rejects claims that ``World War II 
was fought by the Germans to kill off the Jews as a group,'' arguing 
that these are ``deliberately planned, systematic'' deceptions 
``amounting to financial, political, emotional and spiritual 
extortion.''
    Early editions of the Zundelsite provided readers with Zundel's 
writings on ``revisionism,'' including the text of his newsletters, 
book reviews and editorials. The site today focuses mostly on other 
sources of Holocaust denial propaganda, though it continues to sell 
audio and video tapes featuring Zundel.
    The Zundel site contains an archive of daily ``ZGram'' E-mail 
messages sent by Ingrid Rimland to the site's supporters; almost a 
thousand messages are archived, dating back to early 1996. A passionate 
admirer of Zundel, Rimland shares his views on the Holocaust, seeing it 
as an extortion ``racket'' run by Jews for the purpose of financing 
Israel and humiliating Germany and Germans.
    Both Zundel and Rimland lived through the defeat of the Nazis, and 
both lament it. Rimland holds high hopes that Holocaust ``revisionism'' 
will help revive the image of Hitler as a man who made Germany ``the 
most progressive and advanced Nation of its time.'' In her view, 
teaching the facts of the Holocaust is emblematic of a systematic 
assault against people of German descent. ``Holocaust teaching,'' she 
writes, ``is * * * child abuse. It is adult abuse. It is ethnic abuse. 
I want to go on record that it is soul-abuse.'' Additionally, unlike 
many other Holocaust deniers, who go to great lengths to deny the anti-
Jewish sentiment that fuels their views, Rimland has openly voiced her 
approval for anti-Semitism, calling it ``a responsible and, indeed, 
unavoidable response to relentless provocation against the gentile 
culture and tradition conflicting with a Jewish culture and 
tradition.''
    The Zundelsite also reprints a book originally published by 
Zundel's Samisdat press: the infamous ``Leuchter Report.'' Despite the 
fact that he has publicly acknowledged his lack of scientific 
credentials, Fred Leuchter claimed to have taken scientific ``samples'' 
from death camp gas chambers that prove they could not have been used 
to exterminate people. Notwithstanding the discredited nature of 
Leuchter's work, deniers like Zundel still pass his report off as fact, 
and the IHR continues to market it as ``essential revisionist 
reading.'' Also posted at the Zundel site is the fallacious ``Rudolf 
Report,'' by German ``scientist'' Germar Rudolf, which defends 
Leuchter's work. Rudolf also claims to have taken ``samples'' from 
masonry in gas chambers and found no trace of poison gas.

                               AHMED RAMI

    One high-profile Arab Holocaust denier is Swedish-based Moroccan 
exile Ahmed Rami, creator of the Radio Islam Web site. Once a 
lieutenant in the Moroccan military, Rami reportedly played a leading 
role in a failed 1972 coup d'etat and fled, gaining political asylum in 
Sweden. In 1987, Rami began using a public access Swedish radio station 
to broadcast Radio Islam, ostensibly a public relations program for 
Sweden's Muslims but in fact a vehicle for unvarnished anti-Semitism.
    Rami has rationalized his bigotry as support for Palestinian 
causes. While he has become a source of embarrassment for serious 
Palestinian activists, Holocaust deniers have unabashedly and 
enthusiastically associated with him. Rami spoke at the 1992 IHR 
conference and has often been praised by Ingrid Rimland, among others.
    Off the air from 1993 to 1995, Rami's program returned in 1996, the 
same year that he established the Radio Islam Web site. From the start, 
Rami's site offered visitors anti-Semitic material in English, French, 
German, Swedish and Norwegian. Early versions of the site described the 
``so-called `holocaust' '' as a tool used by ``Zionists'' to win 
``sovereign rights to oppress and vilify other people,'' namely 
Palestinians. These ``Zionists,'' according to Radio Islam, have a 
monopoly over ``information services in the West'' and bribe Western 
politicians to support them in their ``Anti-Arab and anti-Moslem 
racism'' and ``hatred against everything German.''
    Today, visitors to the Radio Islam site are greeted with a 
statement that seems to deny Rami's extremism: ``No hate. No violence. 
Races? Only one Human race.'' Yet his site has become even more bigoted 
than ever and demonstrates the implicit connection between Holocaust 
denial and other forms of anti-Semitism. Radio Islam promotes a myriad 
of anti-Semitic works in addition to those of Holocaust deniers such as 
Robert Faurisson, Greg Raven, John Ball, and Bradley Smith.
    The Radio Islam site continues to portray the Holocaust as part of 
a Jewish conspiracy to draw the world's attention away from ``the 
ongoing Zionist war waged against the peoples of Palestine and the 
Middle East'' and ``Zionism's totalitarian and racist backgrounds.'' To 
support this theory, it provides numerous anti-Semitic texts that 
allege Jewish conspiracies for political domination, such as The 
Protocols of the Elders of Zion.
    Expanding on the anti-Semitism expressed by its denial of the 
Holocaust, Radio Islam equates ``Jewish Racism,'' envisioned as Jewish 
prejudice against Muslims, with ``Jewish `Religion,' '' as outlined by 
the Talmud. Visitors to Radio Islam can read ``The Truth About The 
Talmud'' by Michael A. Hoffman II and Alan R. Critchley, which asserts 
that Jews are impelled, by religious law, to mistreat and attempt to 
dominate non-Jews. The Nature of Zionism by Vladimir Stepin, also 
available at the Radio Islam site, declares that Zionism rests on three 
basic beliefs: that Jews are ``God's chosen people''; that all others 
are ``merely two-legged animals (goys),'' and that ``Jews have both the 
right and the obligation to rule the world.''
    Furthermore, according to Radio Islam, the Jews are not the 
``chosen people'' for they are not `` `descendants' of the mythic Jews 
of the Bible.'' Rather, today's Jews are ``descended from Mongolians 
and other Asiatic peoples who had adopted `Judaism' as their `religion' 
over 1,000 years ago and had become know as `Jews.' '' Often advanced 
by Identity believers, this theory alleges that most, if not all, 
Ashkenazic Jews descended from the Khazars, an obscure Turkic people 
whose leaders converted to Judaism in the eighth century. While 
Identity adherents employ this theory in order to bolster their 
assertion that Anglo-Saxon whites are actually the biblical Church of 
Israel, Rami uses it to demonstrate that the ancestors of the Jews were 
not from Palestine, implying that Israel has no right to exist.

                      WORLD CHURCH OF THE CREATOR

    In 1973, Ben Klassen announced the birth of the Church of the 
Creator, publishing a 511-page book entitled Nature's Eternal Religion. 
In it, Klassen wrote, ``we completely reject the Judeo-democratic-
Marxist values of today and supplant them with new and basic values, of 
which race is the foundation.'' Sharing the Identity movement's view 
that non-whites are subhuman ``mud people,'' Klassen believed ``that 
which is good for the White Race is the highest virtue'' and ``that 
which is bad for the White Race is the ultimate sin.'' ``Rahowa,'' an 
acronym for ``Racial Holy War,'' was Klassen's battle cry and remains a 
rallying point for ``Creators'' today. The heart of his ``religious 
creed'' was ``total war'' against Jews and non-whites, ``politically, 
militantly, financially, morally and religiously.''
    Under Klassen's leadership, Church of the Creator grew slowly but 
steadily. That growth stopped abruptly two decades later, in 1992, when 
George Loeb, a Church Reverend, was convicted of first-degree murder 
for killing Harold Mansfield Jr., an African-American Persian Gulf War 
veteran. In 1994, Mansfield's family, represented by the Southern 
Poverty Law Center, won $1 million in damages from Klassen's Church. 
Klassen appears to have anticipated this lawsuit, as he tried to rid 
the group of its assets and committed suicide in 1993.
    Continuing legal problems forced Klassen's successor, Richard 
McCarty, to dissolve the group. In two separate incidents in 
California, police averted potential bombing sprees that were to be 
directed at Jews, Blacks, and homosexuals. In both cases, the would-be 
terrorists were closely affiliated with branches of Klassen's Church.
    Church of the Creator was reborn in 1996 with the emergence of the 
young, charismatic Matt Hale as its leader. Following Hale's ascension 
as Pontifex Maximus (an ancient Roman title designated for the Church's 
supreme leader), the Church of the Creator became known as World Church 
of the Creator. Aggressive pamphleteering ensued; new local chapters 
were created, and membership has grown. Since Hale's ascension, 
Creators have been arrested in Florida for attacking an African-
American boy and his father.
    Additionally, WCOTC spawned dozens of sites on the World Wide Web, 
probably because most of its members are young and computer-literate. 
While Klassen was in his 70's when he led the Church, Hale is in his 
20's, and he has taken his Church onto the Web with a vengeance.
    At the group's main site, a document entitled ``Expanding 
Creativity on the Net'' (referring to the racist, anti-Semitic 
``religion'' practiced by WCOTC) outlines Hale's plan for an ``Internet 
Blitzkrieg.'' Calling the WCOTC central site ``one of the finest White 
Power pages out there,'' Hale asserts that the Internet ``has the 
potential to reach millions of White People with our message and we 
need to act on that immediately.''
    ``We call on all Creators and White Racial Comrades to go to 
[Internet discussion groups] and debate and recruit with NEW people,'' 
he declares, ``post our URL everywhere, as soon as possible.''
    Updated frequently, the WCOTC Home Page features books for sale, 
articles about WCOTC, editorials by Hale from The Struggle newsletter, 
and Hale's weekly ``Voice of The Struggle'' audio-on-demand broadcasts. 
The site makes WCOTC membership easy, providing a membership form, 
dozens of ``contact points'' in the United States, and a lengthy 
membership manual that covers topics from a WCOTC ``Wedding Ceremony'' 
to ``Dealing with Law Enforcement.''
    According to this manual, ``the inferior mud races are our deadly 
enemies, and the most dangerous of all is the Jewish race.'' Creators 
are urged to ``relentlessly expand the White Race, and keep shrinking 
our enemies.'' Also spreading anti-Semitism, the ``Jew Watch'' section 
of the site contains the full text of Henry Ford's hate tract The 
International Jew. The online version of FACTS That the Government and 
the Media Don't Want You to Know, a pamphlet widely distributed by 
WCOTC, claims that Jews control the media, promotes the myth of a 
``Kosher Food Tax,'' and reprints spurious anti-Semitic documents 
purportedly penned by Benjamin Franklin and George Washington.
    Connected in a ``Creator Webring'' (which links WCOTC sites, one to 
the next, in a virtual circle), the World Church subsidiary sites serve 
a variety of purposes, though they share significant content with the 
group's main site. Many World Church sites have been housed at 
WCOTC.COM, which claims to be ``dedicated to hosting all the WCOTC Web 
Pages all over the White World.''
    A formerly active World Church site highlights WCOTC's aggressive 
recruiting techniques: World Church of the Creator Kids! With a site 
like this, easily accessible to young Web surfers, the danger to 
impressionable youngsters posed by hate's reach on the World Wide Web 
becomes evident. The WCOTC Kids! site (subtitled ``Creativity for 
Children!'') utilized enticing graphics to lure young Web users. For 
instance, the site posted a picture of a white family next to the 
phrase, ``The purpose of making this page is to help the younger 
members of the White Race understand our fight.'' While many of the 
documents at the site were copied directly from the WCOTC membership 
manual, one--``What It Means To Be A Creator''--is an adaptation of a 
membership manual piece, ``The Essence of a Creator.'' The children's 
version of this hateful tract simplified and tones down its language, 
making its racist ideology easier for children to understand.
    Also available at the Kids! site were ``Coloring Pages'' and 
``Crossword Puzzles.'' Children were urged to ``have fun'' solving 
these puzzles while helping ``educate'' themselves ``in the Creed of 
Creativity.'' Kids are encouraged to E-mail the site so that Creators 
can ``answer any questions'' they might have about the crosswords. It 
is suggested that youngsters print out and color illustrations bearing 
calligraphic, medieval designs, apparently upheld by WCOTC as artistic 
accomplishments of the ``white race.''
    At the White Berets Web site, a drawing of white men holding guns 
and a WCOTC flag is set against a green, camouflage background. It 
describes the Church's ``security legions,'' composed of ``White 
Berets'' and ``White Rangers,'' who are charged with providing 
``security services for members and Church property.'' Though these 
uniformed militants are urged to ``abide by the law of the land,'' they 
are instructed to own a handgun, practice ``martial arts,'' and school 
themselves in ``police communications.''
    The White Berets site also links to a ``Frequently Asked 
Questions'' pamphlet about racist Skinheads (violent, shaven-headed 
youths). In fact, the ``White Berets'' pictured at the site are 
themselves racist skinheads: they have shaved heads, wear suspenders, 
and sport combat boots. WCOTC has courted racist skinheads since the 
1980's, a few WCOTC sites are specifically designed to target that 
element of the white supremacist ``movement.''
    Visitors must click ``OK'' in a window that declares ``Whites 
Only'' before entering the Skinheads of Racial Holy War site, where 
they are greeted by a drawing of a giant WCOTC ``White Beret'' crushing 
a tiny, Hasidic Jew in his closed fist. The Web site for the SS 
Bootboys, who are referred to as the WCOTC ``Church Band,'' also 
reflects a skinhead theme. This group of skinhead musicians, which has 
been active in the San Francisco area since the mid-1990's, plays what 
it calls ``WP metal'' [white power heavy metal music]. In addition to 
racist and anti-Semitic articles by William Pierce and Don Black, the 
SS Bootboys site provides Web users with audio recordings of the 
group's songs to download, such as ``Coon'' and ``White Patriot.''
    Along with these WCOTC skinhead sites, Resistance Records, a racist 
Skinhead rock-and-roll record label, has long had a site on the Web. 
Resistance was founded by three Church members, and its former 
president, George Eric Hawthorne, has been described as ``a top honcho 
in the Church of the Creator.'' While the Resistance Records site was 
one of the first racist skinhead sites on the Web, there are now dozens 
of sites that promote skinheads and their hate-filled brand of rock 
music.

                              RACIST ROCK

    The skinhead phenomenon originated in the early 1970's, when groups 
of menacing-looking, shaved-head, tattooed youths in combat boots 
appeared on the streets of England. For some, the racist and 
chauvinistic attitudes held by these gangs developed into a crude form 
of Nazism with a penchant for violence, exemplified by frequent, 
racially motivated attacks on Asian immigrants (``Paki-bashing'') and 
homosexuals (``fag-bashing'').
    In the years that followed, the Skinhead movement spread from 
England to the Continent and beyond. Racist Skinheads are found today 
in almost every industrialized country whose majority population is of 
European stock, though not all Skinheads are racists. Skinheads are 
almost uniformly white youths in their teens and twenties, who respond 
to the movement's seductive sense of strength, group belonging and 
superiority over others.
    Generally, neo-Nazi Skinheads' views have varied. Some believe in 
orthodox Nazi ideology, while others adhere to a mixture of racism, 
populism, ethnocentrism and ultranationalist chauvinism, along with a 
hodgepodge of Nazi-like attitudes.
    Their numbers have gown substantially since Neo-Nazi Skinheads 
first appeared in the United States during the mid-1980's. Predictably, 
this growth has been matched by violence: since 1987, racist Skinheads 
have committed at least 43 murders in the United States as well as 
thousands of lesser crimes such as beatings, stabbings, shootings, 
thefts, and synagogue desecrations. In addition to World Church of the 
Creator, Skinheads in the U.S. have also linked up with other 
established hate groups, such as Aryan Nations, the Ku Klux Klan, and 
Tom Metzger's White Aryan Resistance (WAR). On November 12, 1988, three 
members of a skinhead gang in Portland, Oregon, killed an Ethiopian 
immigrant, Mulugeta Seraw. In a suit brought by the Southern Poverty 
Law Center and ADL, it was later shown that Metzger and his son John 
had incited these Skinheads to murder Seraw. A jury awarded Seraw's 
family $12.5 million in damages, one of the largest civil verdicts of 
its kind in U.S. history.
    A major aspect of Skinhead life is devotion to bands that play 
``oi'' white power music, a hard-driving brand of rock and roll whose 
lyrics pound home a message of bigotry and violence. Music is the 
Skinhead movement's main propaganda weapon and its chief means of 
attracting young recruits. Skinhead use of the Internet has almost 
exclusively focused on racist music. Bigotry-laced hard rock and the 
Internet have proved a natural match in being used by white 
supremacists trying to capture the minds of youngsters.
    Bigoted music companies sell their hateful music on the Web. The 
Tri-State Terror Web site peddles Aryan vs. Alien by the group Mudoven, 
which features a cover photo depicting corpses from Nazi concentration 
camps. According to that site, over 900 copies of this release have 
already been sold. Also available there are Racially Motivated Violence 
by Angry Aryans and Murder Squad by Blue-Eyed Devils, which displays a 
photo portraying three lynched Jews on its cover.
    The huge Plunder and Pillage Web site serves as two fans' tribute 
to white power music. These lovers of racist rock, who go by the names 
``Plunder'' and ``Pillage,'' give their fellow fans the latest news on 
new releases and concert appearances of Skinhead bands; reviews of the 
latest white power records; reports on recent concerts; lyrics from 
various albums and transcripts of their interviews with over a dozen 
music groups. The Plunder and Pillage site also provides racist rockers 
a historical perspective in ``Oi! The Classics,'' which features 
reviews of and sound clips from early ``oi'' albums that have ``earned 
a spot in every skinhead's record collection.''
    The Skinhead who maintains The White Pride Network registered his 
site under Ian Stuart's name in order to hide his identity. At his 
site, he goes by the name ``Micetrap.'' Though he cloaks himself with a 
pseudonym, Micetrap doesn't hide his hateful views. Claiming to ``have 
been involved in the skinhead movement for many years,'' Micetrap 
declares the Holocaust ``the biggest financial scam in history'' and 
glorifies the Skinhead movement as ``a sub-culture built for pissed off 
Pro-White youth to rebel against the ZOG system.''
    Formerly known as Whitepower, The White Pride Network features 
Micetrap's reviews of the latest racist rock records and houses the 
page for ``Patriot Video Services,'' which stocks video tapes of white 
power bands performing. In addition to music-oriented pages, The White 
Pride Network pays tribute to Hitler; posts some of William Pierce's 
allegations of Jewish media control, and contains a ``Skinhead Cyber 
Tattoo Parlor,'' which pictures racist designs etched in ink on 
Skinheads' arms, backs, and skulls. Micetrap also encourages his 
supporters to become active, offering to sell them E-mail addresses and 
space for Web sites, connecting them with each other in his ``Personal 
Ads & Pen Pals'' section, and giving them advice on how to use Internet 
Relay Chat (IRC).
    Though not a Skinhead, Alex Curtis also uses the Internet as a tool 
to bring together and motivate the ``youth of the Aryan Struggle.'' 
Along with racist Skinheads and WCOTC devotees, Curtis, who is still in 
his mid 20's, represents the new, young face of white supremacy on the 
Web.

                              ALEX CURTIS

    Alex James Curtis, an anti-Semitic and racist activist based in San 
Diego, is a rising star among bigots on the Web. Originator of the 
Lemon Grove (San Diego) Ku Klux Klan, Curtis has described himself as a 
history student at San Diego State University.
    The Nationalist Observer Web site is the online version of the 
print publication of the same name, which was founded by Curtis in 
1996. Curtis is the editor of this online edition, posting his ``Lead 
Editorials'' from the print edition as well as content available 
exclusively online. Curtis also includes transcripts of his telephone 
hotline message; an archive of hateful articles by propagandists such 
as David Lane of The Order and neo-Nazi Matt Koehl, and a catalog of 
racist audio and video tapes. Additionally, readers can find Curtis' 
``White Power Manual,'' which suggests white supremacist propagandizing 
strategies and offers assistance to aspiring hatemongers.
    Curtis believes Jews have corrupted the white race, using the media 
to convert whites into ``comfort-loving cowards'' who ``sit passively'' 
as Jews and minorities seize power. His Nationalist Observer ``Tribute 
to Jewry'' consists of a picture of ``Jew York City'' being destroyed 
by an atomic bomb under the caption ``The quickest way to exterminate 6 
million vermin!''
    Curtis thinks the answer to whites' problems is separatism. 
``Racial separation seeks the preservation of life, whereas racial 
integration is the realization of the death of peoples,'' he writes. 
According to Curtis, white supremacists should not regard themselves as 
U.S. citizens, but as members of the white race who should concentrate 
on ``moving into separatist areas or assisting in dismantling the 
system.'' He envisions a ``race-centered'' state in which ``citizenship 
and residency will be explicitly stated as restricted to those of pure 
White ancestry.''
    He feels that only the elite of the white supremacist movement 
should participate in creating this state. ``We believe the Aryan 
struggle to be an elite one,'' Curtis writes on the Nationalist 
Observer Home Page. ``We don't promote democratic or mass appeals. We 
support the unity of our movement and the revolutionizing of our spirit 
into a combined force to take back control of our Race's destiny, by 
any means necessary.''
    Unity among white supremacists is central to Curtis' vision. He 
sees many different white supremacist movements as part of a single 
``White Nation.'' ``We go by names such as White nationalists, White 
separatists, Skinheads, National Socialists, Ku Klux Klansmen, and 
Identity Christians, or others,'' Curtis writes, ``but these people who 
put White Racial survival as their highest priority are members of the 
White Nation.''

                           HOMOPHOBIA ONLINE

    Many racist and anti-Semitic Web sites also contain anti-gay 
propaganda, but some Web pages, in particular C.N.G. (Cyber 
Nationalists Group) and S.T.R.A.I.G.H.T (Society To Remove All Immoral 
Godless Homosexual Trash), focus their hatred primarily on gays and 
lesbians. Perhaps the most vile and best-known anti-gay Web site is God 
Hates Fags, which is maintained by Benjamin Phelps, grandson and 
compatriot of Westboro Baptist Church (WBC) leader Fred Phelps.
    Incorporated May 15, 1967 as a not-for-profit organization adhering 
to Calvinistic Baptist beliefs, WBC (which is located in Topeka, 
Kansas) is well-known for picketing the funerals of AIDS victims and 
others it perceives as homosexual or connected to homosexuality. God 
Hates Fags contains an archive of photos depicting Fred Phelps and his 
supporters picketing, carrying signs bearing slogans such as ``No Fags 
in Heaven''; ``Thank God for AIDS,'' and ``2 Gay Rights: AIDS and 
Hell.'' According to God Hates Fags, WBC has ``conducted some 10,000 
such demonstrations during the last five years at homosexual parades 
and other events,'' including the funeral of slain University of 
Wyoming student Matthew Shepard.
    The site reprints dozens of flyers promoting its activities, 
including a few regarding Shepard. One states:

        Matt Shepard now believes the Bible. He checked into Hell Oct. 
        12 [1998] where the worm that eats on him never dies and the 
        fire is never quenched * * * Not the wealth of the world, nor 
        an act of Congress, nor a ruling by the U.S. Supreme Court, nor 
        all the prayers of mankind, nor any power on earth--can buy 
        Matt Shepard a drop of water to cool his tongue or ease his 
        pain--or ease his sentence a day short of eternity.

    Citing the Book of Romans, WBC asserts that the Bible deems gays 
and anyone who supports them ``worthy of death.'' The group believes 
the activities of gays and their supporters encourage God's anger 
against humankind. Addressing homosexuals, WBC states, ``it was your 
ilk who brought destruction on Sodom, and it will be your ilk who fuels 
God's wrath to the point that there will be no remedy.''
    Reflecting a conspiracy-oriented outlook, WBC declares that gays 
have an ``agenda'' they are trying to impose on an unsuspecting public. 
This agenda involves ``desensitizing the public,'' convincing people 
``to affirm their filthy lifestyle,'' and turning them away from 
Christianity. WBC believes, homosexuality is no longer classified as a 
mental disorder by the American Psychiatric Association only because 
gays used ``guerrilla theater tactics'' at that group's convention for 
two successive years. WBC also believes that gays ``infiltrate the 
house of God to try to make themselves look holy,'' and calls religious 
congregations that welcome gay members, ordain gay ministers, or 
perform gay marriages, ``fag churches.''
    While WBC's anti-gay activities have received much press coverage, 
its anti-Semitism has gone largely unnoticed. According to God Hates 
Fags,

        The only true Jews are Christians. The rest of the people who 
        claim to be Jews aren't, and they are nothing more than 
        typical, impenitent sinners, who have no Lamb. As evidence of 
        their apostacy [sic], the vast majority of Jews support fags.

    In 1995, WBC picketed a synagogue in Kansas because it was holding 
a commemoration for victims of the Holocaust, including homosexuals.
      ``militias'' and ``common law'' courts: ``patriots'' online
    In mid-1994, bands of armed right-wing militants calling themselves 
``militias'' began to appear in several states. Often spouting mistaken 
interpretations of early American history to justify their actions, 
militia members are united in their obsession with ``protecting'' 
Americans' Constitutional rights, which they claim the Federal 
government has trampled. A variety of activists make up the militia 
movement. There are those militia adherents who merely discuss the 
Constitution and perceived Federal intrusions. Others trade conspiracy 
theories at gun shows. At the extreme are members of heavily armed 
paramilitary units.
    ``Common law court'' adherents declare themselves exempt from the 
laws of the United States. Using pseudo-legal theories based on 
selective--and often bizarre--interpretations of the Bible, the Magna 
Carta, state and Federal court decisions, and the U.S. and state 
constitutions, these activists present a serious threat to the rule of 
law by using phony liens, money orders, and documents in an attempt to 
defy the authority of legitimate courts.
    Militia activists and common law court adherents refer to 
themselves as ``patriots.'' Like anti-Semites and racists, these 
``patriots'' have a fondness for historical distortions and conspiracy 
theories (such as the contention that the Federal Reserve runs the 
United States). Elements of overt anti-Semitism and racism have 
frequently surfaced in the ``patriot'' movement, which has been 
inspired by the activities of the Identity group Posse Comitatus.
    Though many ``patriots'' deny the movement's racial and religious 
bigotry, its intolerance is apparent on the Web. For instance, though 
the Patriot Knowledge Base Web site states that ``the enemy'' is ``not 
the Jewish masses,'' it posts the Protocols of the Learned Elders of 
Zion, one of the world's most widely circulated anti-Semitic works. 
Similarly, the U.S.A. The Republic page links to the vicious Identity 
site God's Order Affirmed in Love while claiming ``We Are Not Anti-
Semitic.''
    Even though militia membership dwindled following the Oklahoma City 
bombing in 1995, militia members continue to plan bombings and 
robberies. Meanwhile, new militia-oriented Web sites continue to 
appear. Likewise, despite the fact that legitimate authorities have 
cracked down on unlawful common law court activities, common law court 
advocates persist in threatening violence and common law Web sites are 
still active. Currently, there are more than a hundred ``patriot'' 
sites on the Web.
    Common law Web sites often post legal jargon out of context and 
link to reputable law sources, leading readers to misinterpret actual 
law. For instance, Dr. Tavel's Self-Help Legal Clinic, called ``The 
Disneyland of the web for patriots and freedom fighters!'' by the 
extremist publication Spotlight, links to online records of state and 
Federal rules, procedures, and laws. Visitors are encouraged to 
interpret this information based on fallacious common law principles 
and then use it in a court of law, even when under oath as part of a 
jury. The Legal Clinic posts a document entitled ``The Citizens Rule 
Book--Jury Handbook,'' which encourages jurors to judge cases based on 
their own understanding of ``natural, God-given, Common or 
Constitutional Law'':

        You--as a juror--armed merely with the knowledge of what a 
        COMMON LAW JURY really is and what your common law rights, 
        powers and duties really are, can do more to re-establish 
        ``liberty and justice for all'' in this State and ultimately 
        throughout all of the United States than all our Senators and 
        Representatives put together. WHY? Because even without the 
        concurrence of all of your fellow jurors, in a criminal trial, 
        you, with your single vote of ``NOT GUILTY'' can nullify every 
        rule of ``law'' that is not in accordance with the principles 
        of natural, God-given, Common or Constitutional Law.

    Numerous common law sites also promote anti-government activists as 
``sovereign citizens'' answerable only to God and thus immune from 
state or Federal jurisdiction. Some offer a racist twist to this 
formulation, arguing that there are two classes of citizens: 
``Sovereign'' white citizens, whose rights are God-given, and 
``Fourteenth Amendment'' citizens, non-whites whose citizenship is 
granted only by the Fourteenth Amendment.
    Militia Web sites express paranoid fantasies about a power-hungry 
government trying to impose tyranny on its citizens, a government often 
portrayed as a pawn of the United Nations or the vaguely defined ``New 
World Order.'' False depictions of militia members as the true 
defenders of liberty and democracy abound.
    For instance, one Militia of Montana Web site declares that group 
``an educational organization dedicated to the preservation of the 
freedoms of ALL Citizens of the State of Montana and of the United 
States of America.'' Yet the militia held ``the tyranny of a run-away, 
out of control government'' responsible for usurping those freedoms.
    The ``Articles of the Alliance Of the Southeastern States Militia'' 
claim that group's members ``stand against all enemies of the 
Constitution and Bill of Rights, both foreign and domestic.'' The group 
appears to consider the government one of these ``enemies'': it pledges 
to actively resist whatever it feels constitutes ``unconstitutional use 
of our armed forces * * * against the America people'' and promises to 
``fight the New World Order, and any of its proponents, to the bitter 
end.''
    Many militia Web sites provide resources to help their readers 
become more active. For example, the Citizen Soldier Web site contains 
a ``Militia/Survivalist'' post exchange page, which links to the Web 
sites of weapons suppliers, as well as military manuals that cover 
topics including ``combat training.'' The Minnesota Minutemen Militia 
site allows supporters to ``enlist'' online by filling out a simple 
form. The American Patriot Network and California Militia Web sites, 
among others, feature real-time chat rooms in which ``patriots'' can 
communicate with each other, and the United States Theatre Command Web 
site maintains the ``Eagleflight'' electronic mailing list, which often 
contains messages urging violent action from various militia members 
across the nation.
    Militia and common law court propagandists on the Internet have 
openly expressed sympathy for ``patriot'' activists on trial for 
committing, or planning to commit, acts of violence. These sites lend 
credence to the anti-government movement by focusing on those who have 
actually come face to face with the government. Militia and common law 
Web sites have provided biased accounts of trial proceedings involving 
North American Militia of Southwest Michigan member Bradford Metcalf 
and the Montana Freemen, among others.
    On November 18, 1998, members of the Montana Freemen, a group of 
common law court adherents notorious for their 81-day standoff with the 
FBI in 1996, were convicted on criminal charges including bank and mail 
fraud and armed robbery. During the trials that led to these 
convictions, the Fully Informed Grand Jurors Alliance (FIGJA) Web site, 
maintained by Georgia common law guru Elder Burk Hale and former 
Militia of Montana member Kamala Susan, kept Web users abreast of the 
latest happenings ``at the request of family and friends of the 
`Freemen' prisoners.'' Erroneously citing laws in support of the 
Freemen's cause, Hale posted photos of Freeman Ralph Clark, who he 
alleges was ``tortured'' by his jailers, as well as ``Common Law 
Affidavits'' written by other incarcerated Freemen.
    On the same day as the Freemen decision, Bradford Metcalf was 
convicted of conspiring to possess machine guns; threatening to assault 
and murder Federal employees, and plotting to damage and destroy 
Federal buildings using explosives. As with the Freemen case, anti-
government Web sites, such as Patriots Under Siege and Caged Patriots: 
An American Disgrace, kept militia sympathizers updated on the trial's 
progress and voiced support for its defendant.
    In April 1996, Oklahoma Constitutional Militia leader Ray Lampley, 
his wife, Cecilia, and their friend John Baird were convicted of 
plotting to bomb ADL's Houston office, the Southern Poverty Law Center 
in Alabama, welfare offices, abortion clinics, and gay bars. Also the 
leader of the Universal Church of God in Hanna, Oklahoma, Ray Lampley 
has expressed intensely anti-Semitic and anti-government views and 
visited Elohim City, an encampment on the Oklahoma-Arkansas border 
associated with the Identity movement.
    Writing on the Web about the Lampley trial, Indiana-based militia 
figure Linda Thompson declared that the trials of Lampley and other 
militia figures were fixed by what she sees as a corrupt Federal 
government that pays informants to help convict anti-government 
activists:

        At the defense table, the jury will see the ``nut'' or target 
        and his ``co-conspirators'' and the jury will hear the babbling 
        and crazy ``confidential'' tapes played, as they look at the 
        ``nut'' and his ``friends'' while the ``good-guy informant'' 
        tells them how all these folks were planning to do nasty 
        terrible things. The ``good-guy informant'' of course will be 
        backed up by ``good-guy law enforcement'' who will parade a lot 
        of evidence, whether it is relevant or not, to support this 
        public bastion of integrity, their informant, emphasizing how 
        good his work was. The Ray Lampley case is a good example of 
        this that most are familiar with.

    Two weeks prior to his arrest, Ray Lampley told a group in Tulsa, 
``If you want to have freedom in this country, you are going to have to 
shed somebody's blood for it.'' He also suggested that he had been 
attempting to acquire bomb-making materials. ``I only wanted one bag 
[of ammonium nitrate fertilizer,]'' he said, ``because I realized that 
one bag is enough to blow up several Federal buildings if you know the 
right thing.''
    Where did Lampley learn the ``right thing'' that told him ``one bag 
is enough'' to blow up several buildings? According to law enforcement 
authorities, he likely retrieved this information from bomb-making 
manuals. Several of these are available on the Internet.
                          bomb-making formulas
    In November 1995, Ray Lampley, Cecilia Lampley, and John Baird 
began construction of a bomb with the help of the bomb-making manual 
entitled ``Homemade C-4.'' When the FBI arrested the conspirators, law 
enforcement agents recovered the bomb-making manuals Anarchist's 
Cookbook and Homemade Weapons, in addition to the ``Homemade C-4'' 
text, from the Lampley residence.
    Many of these bomb-making instructions are available online. 
Numerous pages devoted to terror manuals are currently present on the 
Web, and explosives enthusiasts regularly post information at USENET 
newsgroups.
    Additionally, some white supremacist sites, such as Death 2 ZOG 
(Zionist Occupation Government), have posted bomb-making instructions. 
Covered with Nazi and World Church of the Creator symbols, this site 
urged its readers to ``Kill the jew [sic] pig before it's too late'' 
and proclaimed its support for ``black on black violence.'' Death 2 ZOG 
contains downloadable copies of bomb-making manuals such as ``Jolly 
Roger Cookbook,'' ``The Big Book of Mischief,'' and ``Anarchy 
Cookbook.''
    William Powell's legendary Anarchist's Cookbook, first published in 
1971, has inspired many Web pages. Though Powell's book has not been 
available on the Web in its entirety, a number of Web pages contain 
works named after it, such as ``The Anarchist Cookbook IV,'' otherwise 
known as the BHU Pyrotechnics Cookbook. Explosive-related sections of 
this document, which is widely available on the Web, include ``Making 
Plastic Explosives,'' ``Napalm,'' and ``Revised Pipe Bombs 4.14.'' 
``The Anarchy Cookbook IV'' also contains instructive information about 
lock picking, computer ``hacking,'' and robbing Automated Teller 
Machines.
    Many versions of another popular online manual, the Terrorist's 
Handbook, include a disclaimer that warns, ``don't try anything you 
find in this document!!! Many of the instructions doesn't [sic] even 
work.'' Yet these directions are posted nonetheless, instructing 
readers how to construct ``High Order Explosives'' such as ``Ammonium 
Nitrate,'' ``Dynamite,'' and ``TNT'' as well as ``Molotov Cocktails,'' 
``Phone Bombs,'' and other destructive devices. Significantly, this 
Handbook also includes a ``Checklist for Raids on Labs,'' concluding 
that ``in the end, the serious terrorist would probably realize that if 
he/she wishes to make a truly useful explosive, he or she will have to 
steal the chemicals to make the explosive from a lab.''
    According to the Bureau of Alcohol, Tobacco, and Firearms, Federal 
agents investigating at least 30 bombings and four attempted bombings 
between 1985 and June 1996 recovered bomb-making literature that the 
suspects had obtained from the Internet. In these investigations, the 
possession of bomb-making literature has been taken by law enforcement 
authorities as strong circumstantial evidence that this literature has 
been used to plan crimes.
    Like other extremist material on the Internet, bomb-making manuals 
are readily accessible to children. In fact, these tracts have already 
been accessed by eager, impressionable youngsters. The Washington Post 
has described discussions among 14-year-olds about ``which propellants 
are best to use, which Web sites have the best recipes and whether tin 
or aluminum soda cans make better bomb casings.'' Furthermore, children 
have used recipes found on the Web to create and detonate bombs. For 
example, two 15-year-old boys from Orem, Utah, landed in a juvenile-
detention center after they constructed a pipe bomb using online 
instructions. Similarly, three high school students in Ogden, Utah, who 
ignited a bomb at a Jehovah's Witnesses church later told police they 
learned how to make the device from a Web page devoted to the 
Anarchists Cookbook.

                   RESPONDING TO HATE ON THE INTERNET

    As an organization dedicated to the eradication of bigotry in all 
its forms, the Anti-Defamation League has long been concerned about the 
propagation of racism, anti-Semitism, and prejudice on the Internet. 
After all, this medium allows extremists easy access to a potential 
audience of millions. In numerous reports, the League has detailed the 
ways bigots are using the Internet to promote and recruit for their 
cause, communicate more easily and cheaply and reach new audiences--
particularly the young.
    Practically and legally, combating online extremism is enormously 
difficult. The First Amendment's protection of free speech shields most 
extremist propaganda, and Internet Service Providers, the private 
companies that host most extremist sites, may freely choose whether to 
house these sites or not. When providers choose not to host hateful 
sites, these sites migrate easily to the computers of services without 
such restrictions. Furthermore, the size of the Web, which contains 
hundreds of millions of distinct pages, complicates efforts to identify 
extremist material. Hundreds if not thousands of Web pages, some of 
which are not listed by search engines, contain bomb-making formulas.
    What follows are answers to 10 frequently asked questions regarding 
regulation of hate on the Internet.

    Why can't the government ban use of the Internet to spread hateful 
and racist ideology in the United States?

    The Internet is probably the greatest forum for the exchange of 
ideas that the world has ever seen. It operates across national 
borders, and efforts by the international community or any one 
government to regulate speech on the Internet would be virtually 
impossible, both technologically and legally.
    In the United States, the First Amendment to the Constitution 
guarantees the right of freedom of speech to all Americans, even those 
whose opinions are reprehensible. In a number of recent decisions, the 
Supreme Court has reaffirmed that our government may not regulate the 
content of Internet speech to an extent greater than it may regulate 
speech in more traditional areas of expression such as the print media, 
the broadcast media, or the public square. While courts may take into 
account the Internet's vast reach and accessibility, they must still 
approach attempts to censor or regulate speech online from a 
traditional constitutional framework.

    What kind of hate speech on the Internet is not protected by the 
First Amendment?

    Internet speech that is merely critical, annoying, offensive, or 
demeaning enjoys constitutional protection. However, the First 
Amendment does not provide a shield for libelous speech or copyright 
infringement, nor does it protect certain speech that threatens or 
harasses other people. For example, an E-mail or a posting on a Web 
site that expresses a clear intention or threat by its writer to commit 
an unlawful act against another specific person is likely to be 
actionable under criminal law. Persistent or pernicious harassment 
aimed at a specific individual is not protected if it inflicts or 
intends to inflict emotional or physical harm. To rise to this level, 
harassment on the Internet would have to consist of a ``course of 
conduct'' rather than a single isolated instance. A difficulty in 
enforcing laws against harassment is the ease of anonymous 
communication on the Internet. Using a service that provides almost-
complete anonymity, a bigot may repeatedly E-mail his victim without 
being readily identified.
    Blanket statements expressing hatred of an ethnic, racial, or 
religious nature are protected by the First Amendment, even if those 
statements mention individual people and even if they cause distress in 
those individuals. Similarly, denial of the Holocaust--though 
abhorrent--is almost never actionable under American law. The 
Constitution protects the vast majority of extremist Web sites that 
disseminate racist or anti-Semitic propaganda.

    Has anyone ever been successfully prosecuted in the United States 
for sending racist threats via E-mail?

    There is legal precedent for such a prosecution. In 1998, a former 
student was sentenced to one year in prison for sending E-mail death 
threats to 60 Asian-American students at the University of California, 
Irvine. His E-mail was signed ``Asian hater'' and threatened that he 
would ``make it my life career [sic] to find and kill everyone one 
[sic] of you personally.'' That same year, another California man pled 
guilty to Federal civil rights charges after he sent racist E-mail 
threats to dozens of Latinos throughout the country.

    Has anyone ever been held liable in the United States for 
encouraging acts of violence on the World Wide Web?

    Yes. In 1999, a coalition of groups opposed to abortion was ordered 
to pay over $100 million in damages for providing information for a Web 
site called ``Nuremberg Files'' which posed a threat to the safety of a 
number of doctors and clinic workers who perform abortions. The site 
posted photos of abortion providers, their home addresses, license 
plate numbers, and the names of their spouses and children. In three 
instances, after a doctor listed on the site was murdered, a line was 
drawn through his name. Although the site fell short of explicitly 
calling for assault on doctors, the jury found that the information it 
contained amounted to a real threat of bodily harm.

    Can hate crimes laws be used against hate on the Internet?

    If a bigot's use of the Internet rises to the level of criminal 
conduct, it may subject the perpetrator to an enhanced sentence under a 
state's hate crimes law. Currently, 40 states and the District of 
Columbia have such laws in place. The criminal's sentence may be more 
severe if the prosecution can prove that he or she intentionally 
selected the victim based on the victim's race, nationality, religion, 
gender, or sexual orientation. However, these laws do not apply to 
conduct or speech protected by the First Amendment.

    May commercial Internet Service Providers (ISP's) prevent the use 
of their services by extremists?

    Yes. Commercial ISP's, such as America Online (AOL), may 
voluntarily agree to prohibit users from sending racist or bigoted 
messages over their services. Such prohibitions do not implicate First 
Amendment rights because they are entered into through private 
contracts and do not involve government action in any way.
    Once an ISP promulgates such regulations, it must monitor the use 
of its service to ensure that the regulations are followed. If a 
violation does occur, the ISP should, as a contractual matter, take 
action to prevent it from happening again. For example, if a 
participant in a chat room engages in racist speech in violation of the 
``terms of service'' of the ISP, his account could be cancelled, or he 
could be forbidden from using the chat room in the future. ISP's should 
encourage users to report suspected violations to company 
representatives. The effectiveness of this remedy is limited, however. 
Any subscriber to an ISP who loses his or her account for violating 
that ISP's regulations may resume propagating hate by subsequently 
signing up with any of the dozens of more permissive ISP's in the 
marketplace.

    May universities prevent the use of their computer services for the 
promotion of extremist views?

    Because private universities are not agents of the government, they 
may forbid users from engaging in offensive speech using university 
equipment or university services. Public universities, as agents of the 
government, must follow the First Amendment's prohibition against 
speech restrictions based on content or viewpoint.
    Nonetheless, public universities may promulgate content-neutral 
regulations that effectively prevent the use of school facilities or 
services by extremists. For example, a university may limit use of its 
computers and server to academic activities only. This would likely 
prevent a student from creating a racist Web site for propaganda 
purposes or from sending racist E-mail from his student E-mail account. 
One such policy--at the University of Illinois at Champaign-Urbana--
stipulates that its computer services are ``provided in support of the 
educational, research and public service missions of the University and 
its use must be limited to those purposes.'' Universities depend on an 
atmosphere of academic freedom and uninhibited expression. Any decision 
to limit speech on a university campus--even speech in cyberspace--will 
inevitably affect this ideal. College administrators should confer with 
representatives from both the faculty and student body when 
implementing such policies.

    How does the law in foreign countries differ from American law 
regarding hate on the Internet? Can an American citizen be subject to 
criminal charges abroad for sending or posting material that is illegal 
in other countries?

    In most countries, hate speech does not receive the same 
constitutional protection as it does in the United States. In Germany, 
for example, it is illegal to promote Nazi ideology. In many European 
countries, it is illegal to deny the reality of the Holocaust. 
Authorities in Denmark, France, Britain, Germany, and Canada have 
brought charges for crimes involving hate speech on the Internet.
    While national borders have little meaning in cyberspace, Internet 
users who export material that is illegal in some foreign countries may 
be subject to prosecution under certain circumstances. An American 
citizen who posts material on the Internet that is illegal in a foreign 
country could be prosecuted if he subjected himself to the jurisdiction 
of that country or of another country whose extradition laws would 
allow for his arrest and deportation. However, under American law, the 
United States will not extradite a person for engaging in a 
constitutionally protected activity even if that activity violates a 
criminal law elsewhere.

    What are Internet ``filters'' and when is their use appropriate?

    Filters are software that can be installed along with a Web browser 
to block access to certain Web sites that contain inappropriate or 
offensive material. Parents may choose to install filters on their 
children's computers in order to prevent them from viewing sites that 
contain pornography or other problematic material. ADL has developed a 
filter (ADL HateFilter<SUP>TM</SUP>) that blocks access to Web sites 
that advocate hatred, bigotry, or violence towards Jews or other groups 
on the basis of their religion, race, ethnicity, sexual orientation, or 
other immutable characteristics. HateFilter<SUP>TM</SUP>, which can be 
downloaded from ADL's Web site, contains a ``redirect'' feature which 
offers users who try to access a blocked site the chance to link 
directly to related ADL educational material. The voluntary use of 
filtering software in private institutions or by parents in the home 
does not violate the First Amendment because such use involves no 
government action. There are also some commercially marketed filters 
that focus on offensive words and phrases. Such filters, which are not 
site-based, are designed primarily to screen out obscene and 
pornographic material.

    May public schools and public libraries install filters on computer 
equipment available for public use?

    The use of filters by public institutions, such as schools and 
libraries, has become a hotly contested issue that remains unresolved. 
At least one Federal court has ruled that a local library board may not 
require the use of filtering software on all library Internet computer 
terminals. A possible compromise for public libraries with multiple 
computers would be to allow unrestricted Internet use for adults, but 
to provide only supervised access for children.
    Courts have not ruled on the constitutionality of hate speech 
filters on public school library computers. However, given the broad 
free speech rights afforded to students by the First Amendment, it is 
unlikely that courts would allow school libraries to require filters on 
all computers available for student use.

    The Chairman. We will finish with you, Mr. Roy, and then I 
will have a few questions for you.

                STATEMENT OF JOSEPH T. ROY, SR.

    Mr. Roy. Thank you, Mr. Chairman. On behalf of the Southern 
Poverty Law Center in Montgomery, Alabama, I want to thank the 
committee for inviting us here today. My name is Joseph Roy. I 
am Director of the Intelligence Project at the Center.
    Basically, we are a non-profit, private law firm out of 
Montgomery that for the last 20 years has tracked these hate 
organizations and reported on them. We have developed the 
largest database file in the country which houses hundreds of 
thousands of activities, identification of members, 
photographs, news reports, court records, and other items of 
interest to the law enforcement community.
    With this information, we develop trends, write stories 
about who is involved in the movement, where they are from, 
what they believe, and what their motivations are. And we 
publish this four times a year and send it out free to about 
50,000 law enforcement agencies and other people.
    Part of the trend that we have been noticing for the last 
few years is a disturbing one. The number of hate groups for 
the last 2 years has gone up about 26 percent. This comes at a 
time when historically these numbers should be down, with a 
good economy, low unemployment and things of this nature. In 
the past, these groups have not thrived very prosperously.
    We attribute most of this growth to the Internet, which has 
stimulated new recruiting, new technology, and a tremendous 
weapon in the arsenal of these hate groups reaching an audience 
that would probably never in their lives have come across these 
organizations or their ideology.
    In 1995, there was only one Internet site, Stormfront, on 
the Internet that we were aware of. And since that time, in 
just a very short period of time, in the last 4 years or so, 
that has grown 60 percent. There were 163 sites in 1997 that we 
tracked. There were 254 sites in 1998, which is a 60-percent 
increase. We expect that number to go up again for 1999 when we 
report out on the sites.
    Another thing that we have noticed about the Internet and 
the use of it by these organizations is they are getting a lot 
better. I can remember when we first started aggressively 
tracking the Internet, the sites were slow. Their links didn't 
work half the time. There was a lot of confusion as to how to 
insert graphics into the pages and audios and other things. 
That is not the case anymore.
    The sites we see now--and my co-panelists here, we had 
conversations about it--they are very slick. They use all the 
bells and whistles that technology affords to them. They are 
tracking their own sites. They are monitoring the number of 
hits each site is receiving, and they are also finding out 
where these hits are coming from to see who is interested in 
their site, just like any other site in cyberspace would.
    They have a much better networking capability where they 
share information, where they are able to share e-trees, 
publish notices, announce events. They use PGP encryption to 
communicate with their membership and other people in the 
movement, you know, so they are not the same old guys that we 
saw 4 years ago struggling to get up on the Web site.
    And one of the things we have also noticed is how cost-
effective the Internet is. Back several years ago in the early 
1990's, we had a civil suit against the Invisible Empire 
Knights of the Ku Klux Klan, which we bankrupted in North 
Carolina. And I spent several months auditing their financial 
records and it was obvious that they were spending probably 
$2,000 or $3,000 a month to publish a newsletter that went out 
every month to about 5,000 or 10,000--it varied--members and 
supporters that got their newsletter.
    With the Internet technology, this same group, were it in 
existence today, could reach millions, potentially, for about 
$50 a month, plus it offers people who would never join their 
ranks, never get a tattoo--it offers them the anonymity to sit 
in their den and to spew this hatred and download the 
information they want and to share it with their friends and 
like thinkers.
    Another alarming trend that we have noticed is the 
targeting of young children and young adults by these 
organizations. The movement leadership, the old guys that have 
been around for a long time, see the Internet as a new 
recruiting field and where the leadership of the movement in 
the future is going to come from. These are people that are 
headed off to college with their laptops. They are not the 
beer-bellied, red-neck, toothless stereotypical hater that we 
have seen in the past. These are tekkies that they are looking 
for. They don't want the old stereotypical hater.
    Keep in mind also that of all the hate crimes that were 
reported last year, only 15 percent of the hate crimes 
committed in this country--and that is our best estimate--were 
committed by people who actually belong to any organization. 
The rest were Bob down the street, or Fred with a fax line, or 
somebody who is out there looking to get into this movement. 
These are very recruitable people. There were over 8,000 hate 
crimes reported, which is not all of them, certainly, but the 
people that committed these hate crimes come from a culture 
where these groups will meet some kind of success in recruiting 
them.
    It is pretty easy to categorize who falls into the shadow 
of these hate organizations. They are people not much different 
from you and I, but they are people who are angry, they are 
frustrated, they are afraid. They are looking to regain control 
of their lives. If they are young kids, they are looking for 
acceptance. That is why guns and scapegoating are such a 
powerful part of the recruitment of these organizations because 
it gives instant empowerment. It gives them control. It makes 
them feel like they are doing something to regain direction in 
their lives.
    And there is something out there for everybody. We see 
sites that are wrapped in religion, like Christian Identity 
which teaches that Jews are the actual spawn of Satan and that 
white people are the lost tribe of Israel, and that anything 
that is not white are beasts of the field.
    If Christianity is not your bent, there are groups like 
World Church of the Creator that teaches that religion is a 
joke that the Jews are playing on white people and has been 
going on for 2,000 years. The list is endless.
    There is hate music. There were over 50,000 CD's sold by 
one organization that were CD's that you can't go down to the 
local record store and pick up. And there is a political 
correctness air that we see pop up occasionally during the 
movement, where they have become a lot more media-savvy. They 
say, we are not racist, we are racialists; we are not 
segregationists, we are separatists; we don't hate anybody, we 
just love white folks. And they try to use orderly, reasonable 
arguments in their Web sites to bring these people in.
    Finally, the solution to this type of problem is one that 
has to be very guarded, we think. I think the aggressive 
tracking and identification of these sites, reporting on them 
to the law enforcement community and to the proper authorities, 
is something that is critical. I think criminal and civil 
litigation needs to continue and develop new ways to attack 
these problems as they show up.
    Software filters are an immediate relief, but the one 
problem that we have discussed with other organizations is the 
fact that there is high maintenance on it. These groups move 
around very, very quickly. Of the 254 groups that we reported 
on for 1998, more than half of them are gone or moved to 
another site or another provider. To replace them, though, we 
have already identified another 100 to 150 sites to take their 
place for the next reporting. This is an ever-evolving, ever-
changing environment they are in.
    The Internet has provider policing that goes on that kicks 
a lot of these groups off their Web sites. That is another 
relief that we can take advantage of, but basically this is not 
a one-time, fix-all cure that can be taken to the Internet. It 
is like a new infant, and the Internet is in its infancy and we 
must protect it from the virus of hate and from attack from the 
hate peddlers out there that want to recruit our children.
    But we have to be careful not to stunt its growth. We have 
to use education, supervision, and parental involvement. You 
know, boiling water at one time was new technology. We didn't 
quit using it. We took our kids aside and said, this will hurt 
you, this will burn you, but it will also feed and clothe and 
warm you. And that is the approach I think we should take to 
the Internet.
    Thank you.
    [The prepared statement of Mr. Roy follows:]

                PREPARED STATEMENT OF JOSEPH T. ROY, SR.

    Good morning. My name is Joseph T. Roy, Sr. and I am the Director 
of the Intelligence Project at the Southern Poverty Law Center, which 
is located in Montgomery, Alabama. At the Center, we have been tracking 
and studying hate groups for the last two decades. Over the years, we 
have built the largest data base on these groups and their activities 
in the world. In order to educate the public and law enforcement as to 
the nature of white supremacist and other hate groups, we publish the 
Intelligence Report, which is sent out free four times a year to almost 
50,000 law enforcement officers, among others.
    We are here today to discuss the role of the Internet in 
disseminating racial and religious intolerance and promoting violence. 
In the past few years, the Center has been intensively monitoring the 
Internet and the increasingly important role it plays in recruitment 
and propagandizing for hate groups. We have seen how this technology 
has been adopted wholesale by such groups, and the remarkable and 
unprecedented access this has afforded these groups to teenagers and 
other potential recruits. This access is all the more frightening 
because of changes in how America parents its children.
    Today, when parents send an errant child to his bedroom, little 
Johnny is not alone. With a few clicks of his computer mouse, he can 
join a large crowd of people who want to be his friends. He meets them 
in Internet chat rooms, on Web pages where their propaganda is posted, 
on E-mail lists where messages are forwarded to large groups of people. 
Too often, what these ``friends'' are offering up to Johnny--whose 
parents today are often working, or too busy to monitor his activities 
closely--is a smorgasbord of violent hate propaganda. The people who 
want to talk to your children are Tom Metzger, the head of the racist 
White Aryan Resistance in California, Matt Hale, leader of the neo-Nazi 
World Church of the Creator, and a host of other professional white 
supremacists and revolutionaries.
    The outcome can be disastrous. In South Carolina, what was once a 
tiny neo-Nazi band known as the Knights of Freedom put up a World Wide 
Web page last fall, and as a result it has managed to grow into a real 
group of more than 100 dues-paying members, a large number of them high 
school and college students. In Littleton, Colorado, the two youths who 
opened fire on their classmates at Columbine High School may well have 
been inspired, in some part, by neo-Nazi propaganda they encountered on 
the Net. It seems clear that they found plans for building pipe bombs 
and other weapons there.
    Although hate on the Internet has received a great deal of 
attention lately, it's wise to remember that the very first hate site 
on the net, known as Stormfront and run by a former Klansman who served 
time in federal prison, went up just over four years ago. Since then, 
there has been a veritable explosion in the number of such sites. Just 
last year, the number of ``hate sites''--sites based on hatred of such 
groups as blacks, Jews and homosexuals--jumped by almost 60 percent, 
from 163 at the end of 1997 to 254 in late 1998. The leading reason for 
this growth is obvious. A few years ago, a Klansman, for instance, 
needed to put out substantial effort and money to produce and 
distribute a shoddy pamphlet that might reach 100 people. Today, with a 
$500 computer and negligible other costs, that same Klansman can put up 
a slickly produced Web site with a potential audience in the millions.
    The propaganda power of such sites is, in other ways too, 
unprecedented. When a teenager visits one of the many Holocaust denial 
sites, for instance, he or she is not typically confronted with crude 
expressions of anti-Semitism. Instead, the visitor finds well-written 
essays by allegedly renowned historians, analyses by a so-called gas 
chamber expert concluding that there were no Nazi death camps, and so 
on. There is nothing to suggest that all serious historians find such 
theories to be pure malarkey. In the same way, organized white 
supremacist groups often put up Web material that portrays the groups 
not as haters, but as simple white pride civic groups concerned with 
social ills. Add to that some of the high-tech bells and whistles these 
sites often include--arcade-style games, chat rooms, bulletin boards, 
music, real-time videos and so on--and it becomes understandable how 
these sites can be genuinely attractive, especially for rebellious 
teens.
    Consider, for example, the ``Creativity for Children'' Web site put 
up by Matt Hale's World Church of the Creator. The title page, which 
says its purpose is to awaken white youth to ``our fight,'' is written 
in childlike handwriting, a kind of Sesame Street for haters. On 
another site, you've invited to play ``Sieg Heil,'' a computer game 
where you become an Aryan hero battling to thwart scientists creating a 
``cross-bred'' race. On a third, you can watch a real video of 
Skinheads taunting an apparently retarded black man.
    A growing number of hate sites are carrying clips or even entire 
songs from white power bands. You can't find this kind of music, which 
features extremely racist and violent lyrics, in your local record 
store. But you can hear tracks from many of these CD's by visiting 
certain Web sites, and you can order them over the Net. Along with the 
propaganda found on hate sites, this racist music--some 50,000 CD's of 
which are sold in the United States annually--can be very effective at 
reaching young people. There are reports that the two students who 
attacked Columbine High School were fans of ``extreme music'' genres 
known as Gothic/Black Metal/Death Metal, music that was always violent 
and rebellious, but which today is increasingly influenced by white 
power themes.
    The Net is proving useful to the organized white supremacist 
movement in other important ways, as well. In the 1980's, groups like 
the White Aryan Resistance made efforts to recruit racist Skinheads as 
the ``shock troops'' of the movement. The result was a number of deaths 
and a larger number of people hurt--but no real advancement of white 
supremacy as a political movement. Today, the aging cadre of white 
supremacist leaders recognize this lack of progress and are 
concentrating instead on a different kind of youthful recruit: the 
bright, college-bound teenager who is seen as a potential leader and 
movement-builder of tomorrow. The Net gives white supremacists 
unprecedented access to precisely these teens, who live in their 
parents' homes and have computers in their bedrooms.
    These children are largely middle- and upper-middle-class youths 
who wouldn't be caught dead at a Klan rally--or whose parents would 
make sure they weren't. The Net, with its promise of privacy, lowers 
any social inhibitions they might have had about consorting openly with 
racists and other haters. Where these teens would likely have met 
social disapproval if they expressed anti-Semitic or racist ideas at 
home or in school, they are able to propound such ideas over the 
Internet in a welcoming environment. Unlike older forms of debating 
ideas--in public forums or classrooms or even over the family dinner 
table--talk on the Internet is often limited to those who already agree 
with one another. There is no real exchange of ideas on 
www.whitepower.com.
    What can be done about hate on the Net, which the Supreme Court has 
clearly ruled is protected speech under the First Amendment? One 
approach is that taken by the Anti-Defamation League and others, who 
have developed software packages capable of filtering out many hate 
sites. This is a useful tool, but the fact is that many computer-savvy 
teens are probably going to be capable of finding technical ways around 
the filters. There also are other difficulties in trying to limit these 
sites by technological means. Hate sites today are frequently booted 
off private servers with ``no-hate'' policies like America On-Line, and 
so their Web addresses tend to change very frequently as they move 
around to new servers. Almost half of the 254 hate sites that were 
monitored by the Intelligence Project in 1998 have gone off line or 
changed their internet address. Over 100 new sites have been discovered 
as well. This means that constant changes are required to update the 
filtering software, which in turn requires a large force of programmers 
and monitors. Finally, one can ask parents to monitor every moment 
their kids are on the Net, but this is, I think, unrealistic. With 
large numbers of single-parent families, with almost 50 percent of 
American women in the work force, and with people in general working 
longer hours to make ends meet, it is difficult to picture the parent 
who has time to keep track of all his or her child's Net explorations.
    I The only real inoculation is communication. Parents need to talk 
to their children about these sites and what they represent. Hate sites 
that claim there was no Holocaust can serve as a catalyst for a 
discussion of what Nazi Germany was all about. The racism found on 
white supremacist sites can spark a family exchange about the nature of 
racism and the need to celebrate, not fear, racial and other 
differences in America. Extreme homophobia like that displayed on 
www.godhatesfags.com can be used to talk about sexual differences 
between people. The alternative is to try to ignore these sites and to 
hope your child does not come across them--a hope that is increasingly 
unrealistic. History shows us that ignoring ugly social problems like 
racism does not make them go away. On the contrary, burying one's head 
in the sand is a sure way to guarantee the spread of hate.

  (1) Editorial, Intelligence Report, No. 94, Spring 1999.
  (2) Internet Hate Site List, Intelligence Report, No. 93, Winter 
    1999.
  (3) Story on Hate Sites and Related Litigation, Intelligence Report, 
    No. 93, Winter 1999.
  (4) Story on Hate Sites, Intelligence Report, No. 89, Winter 1998.

[GRAPHIC] [TIFF OMITTED] T7653.001

[GRAPHIC] [TIFF OMITTED] T7653.002

[GRAPHIC] [TIFF OMITTED] T7653.003

[GRAPHIC] [TIFF OMITTED] T7653.004

[GRAPHIC] [TIFF OMITTED] T7653.005

[GRAPHIC] [TIFF OMITTED] T7653.006

[GRAPHIC] [TIFF OMITTED] T7653.007

[GRAPHIC] [TIFF OMITTED] T7653.008

    The Chairman. Let me just ask a few questions. Mr. Gennaco, 
I am most impressed by your efforts in securing the first 
conviction of a hate crime assailant for acts undertaken on the 
Internet, and I am also encouraged to hear that the conviction 
you secured in that matter has recently been affirmed on 
appeal.
    Is the statute you utilized to prosecute the defendant--
that is, 18 U.S.C. section 245, which is a 30-year-old civil 
rights statute that pre-dates the creation of the Internet--is 
that an adequate tool to pursue those who engage in illegal 
threats and harassment on the Internet, and what did you view 
as the strengths and weaknesses of that statute insofar as you 
utilized it to prosecute illegal activity on the Internet?
    Mr. Gennaco. Mr. Chairman, 18 U.S.C. 245 did prove to be an 
adequate statute in order to enforce the law in the two cases 
that I have prosecuted, and that was in large part because the 
victim class in both the UC-Irvine case and the Cal State-Los 
Angeles case were involved in federally-protected activities; 
that is, they came within one of the categories demarcated 
under 18 U.S.C. 245.
    In the first instance, the students were attending a public 
institution, which is one of the federally-protected 
activities. And in the second case, the professors were engaged 
in employment at a public institution, which was also covered 
by 18 U.S.C. 245.
    The Chairman. Well, now, it was reported this August that 
the Department of Justice was supportive of a proposal that 
would allow Federal agents to obtain search warrants on a 
lesser showing than probable cause to search through computers 
for passwords and to override encryption programs. Now, would 
this proposal, if ultimately enacted, be of assistance in 
Federal prosecutors' efforts to respond to hate crimes on the 
Internet?
    Mr. Gennaco. Mr. Chairman, I think that it could be of 
assistance. As the perpetrators of hate crimes over the Net 
become more sophisticated, it becomes more difficult to track 
down and trace the perpetrators, including identification 
numbers and locator information. In fact, there are new 
technologies that allow senders of e-mail to send e-mail from 
anonymous sites which mask effectively the perpetrator and make 
it very difficult for technicians to track down individuals who 
are responsible for those threats.
    The Chairman. Now, all of you have heard my opening remarks 
on some of the suggestions that I have made, or at least 
thoughts on possible approaches that Congress might pursue 
without treading at all on the First Amendment, we hope, to 
better enable Federal prosecutors to respond to hate on the 
Internet.
    I would like each of you to tell me your thoughts 
specifically on a proposal that would criminalize the knowing 
or intentional advocacy on the Internet of the commission of a 
crime of physical violence against the person or the property 
of any individual or group or class of individuals. Can we 
start with you, Mr. Roy?
    Mr. Roy. Well, the Law Center supports the efforts that 
everybody is making in this arena. We feel like that civil 
litigation and criminal prosecution, whenever possible, are 
good things to do. We have been doing it for a long, long time. 
But these groups are still with us and the reason they are 
still with us is because this is handed down from generation to 
generation, and that is why we say education is so important.
    You can't legislate morality. You can only encourage people 
to do the right things and offer the children that come out of 
this movement a viable alternative. What we have put a lot of 
effort into is providing schools with curricula to teach 
diversity. We have just put out ``Responding to Hate in the 
Schools,'' and we encourage law enforcement everywhere.
    I have been doing this for--this is my 14 year. One thing 
that I have learned about the law enforcement community is that 
they are very able, willing and ready to prosecute these crimes 
if they are given the proper constitutional vehicle to do it.
    The Chairman. Thank you.
    Mr. Berkowitz.
    Mr. Berkowitz. I believe, as I understand it, that if an 
individual over the Internet is specifically advocating action 
of physical violence to an individual, then we would be in 
favor of that type of legislation.
    The Chairman. OK. Mr. Henderson.
    Mr. Henderson. Mr. Chairman, you raise an interesting and 
difficult question. Let me just say in response to Mr. 
Gennaco's comments to you, 18 U.S.C. section 245 does have two 
limitations. One, as he noted, it requires individuals to be 
engaged in a federally-protected activity, and unless that is, 
in fact, taking place, it does not permit a prosecution by 
Federal officials. Second, the statute does not cover crimes 
directed to persons because of their disability status or their 
sexual orientation or their gender. And those are two issues 
that we think are adequately addressed in proposed amendments 
to the Hate Crimes Prevention Act.
    Now, with respect to your question, Mr. Chairman, I think 
there are a couple of issues. One, when you focus on the 
knowing and intentional conduct of individuals, that is 
helpful. Specificity is, in fact, needed, but I think the 
second element is one in which you suggest the individual must 
be taking activity specifically for purpose of generating 
violence or harm. If that can be established, I would think 
that those are two useful elements that would perhaps encourage 
some of our member organizations to look more closely and more 
favorably at the statute. There are others who would still 
express some concern.
    So I think from the standpoint of the Leadership 
Conference, we would like to take a closer look at the 
proposal. We do think that the more specificity and the 
narrower the scope of application, the better, and we are 
committed to examining it in greater detail.
    The Chairman. Thank you.
    Rabbi Cooper.
    Rabbi Cooper. Chairman Hatch, I think I can echo almost all 
the other comments that were made before. You know, this has 
not been a quiet summer for us. The Wiesenthal Center was 
Furrow's first and main target.
    Michael Gennaco is a very important partner for our efforts 
at the Museum of Tolerance, and I think in this area, through 
our training of law enforcement, our Tools for Tolerance 
program, and trying to spread the message of tolerance, that is 
basically our pedagogical and educational mandate.
    When it comes to the area of stiffening the laws and 
narrowing the distance between the new technologies and our 
commitments here, we are going to be looking to the people in 
the field, like this brilliant U.S. attorney, for the signal. 
If they feel that they need, in the day-to-day fight, in the 
expanding online fight, more expansion along with the general 
hate crimes expansion, then certainly our Center would back it.
    We are trying to continue our approach in a consortium of 
getting as much input as we can from the people at the U.S. 
attorney's office in Southern California and around the 
country, at the same time trying to do the same balancing act 
that you and your committee try to do everyday, balancing First 
Amendment rights with the need to protect our kids and our 
community.
    And I just might add one additional image for us to 
consider, which is I know every parent in America was wondering 
where was Eric Harris' father when this kid was downloading all 
of this information teaching him how to make bombs, et cetera, 
et cetera. And we leave this hearing this morning, I am still 
not sure that if the next potential Eric Harris' mother is 
looking over his shoulder, that we have the necessary 
partnering from everyone involved with this issue.
    In other words, I think the U.S. Senate is taking 
leadership here. We have the brilliant civil servants, but if 
we don't have partners from the online community to help 
parents, even with the phenomenal software available from the 
ADL and the rest, we are going to see these kinds of events 
repeating themselves over and over and over again.
    So I commend everything that you are trying to achieve 
here. I hope at the next set of hearings, we will have the 
important leaders of the Internet community sitting with us in 
order to try to work out a community-based approach to a 
problem that is not going to go away.
    The Chairman. Thank you.
    Mr. Gennaco.
    Mr. Gennaco. Thank you, Mr. Chairman. I would echo my 
fellow panel members with regard to the proposal that you have 
set forth. As I am sure you are aware, Mr. Chairman, there is a 
body of law that puts outside of First Amendment protection 
direct and immediate incitement to violence by anybody, whether 
it is over the Internet or any other medium. And I believe a 
carefully crafted legislation that would prevent such behavior 
and would not impinge upon the First Amendment would be a 
helpful weapon in our arsenal against hate.
    To echo what Mr. Henderson said again, with 245, just to 
elaborate on my comments, while I was able to use 245 in the 
two scenarios that we successfully prosecuted, I can envision 
hypotheticals in which I would not have had 245 available to me 
in a prosecution. For example, in the UC-Irvine case, if the 
victims had been attending a private school and, in fact, the 
threat had been because of the sexual orientation of students 
at that facility, 245 would not have been available.
    The Chairman. Thank you very much. Now, let me just ask one 
other question because it is an important question. I would 
like you to address generally where you think the best 
solutions lie in our efforts to combat hate on the Internet.
    Is each of you of the conviction that heightened 
responsibility by Internet companies and parents through self-
policing as well as anti-hate filters provides the key, or is 
the ultimate answer to be found in a legislative response that, 
while vigilantly respecting the boundaries of the First 
Amendment, may assist prosecutors in combatting illegal threats 
and harassment and that assist Internet companies in 
terminating those sites that illegally incite violence through 
hate speech?
    Can we start again with you, Mr. Roy?
    Mr. Roy. I think certainly that the Internet providers are 
the obvious place to start. One of the things that we have seen 
out in the Internet community is an effort by a number of these 
groups to develop their own domain, their own ISP's, to where 
they can't be kicked off. And for providers to have a ``no 
hate'' policy and push them in that direction is certainly 
fine. If we had them all in one spot, it would make our lives a 
lot easier.
    But I think that it is going to take a combination of 
things. I think that we need some regulations that may or may 
not exist to be retooled or developed, you know, to combat 
this. But I think initially and ultimately, it is going to be 
the providers that police cyberspace, and some of them do a 
really good job and some of them are making no effort at all.
    The Chairman. Thank you.
    Mr. Berkowitz.
    Mr. Berkowitz. Yes, Senator. I don't think there is a 
silver bullet and I don't think there is an either/or. I really 
believe that this is a new challenge, one of the most difficult 
challenges that we face in continuing to make sure that the 
pluralistic democracy that we all cherish continues.
    For all the reasons that were mentioned here, I think that 
we have to find the answers, and it is not going to come with 
just one answer. Yes, we have developed a hate filter and we 
think it is a good one and we think it does a very good job. 
Should it be mandatory? It is a very difficult thing to say. I 
don't think that it should be unless you have the ability of 
either librarians or teachers to override the filter.
    Should it be on all library computers? No. If there are 
some libraries, as I understand it, that have computers for 
children under the age of 15 and other computers for those over 
the age of 15, you maybe can find some kind of age level to 
deal with that. Do you need to train teachers and librarians to 
a greater extent in how to deal with the Internet and problems 
of the Internet? Absolutely.
    I think that legislation is important. I think that Senator 
Feinstein's legislation as it relates to bomb-making 
instructions on the Internet will be a valuable tool. A number 
of the ones that you have mentioned, I think, will also be 
valuable. So I don't think it is going to be one solution. 
Certainly, the ISP's are going to have to be brought into the 
situation, and as Mr. Roy stated, I think that if we can 
isolate the hate groups on their own ISP's, we will be able to 
control them to a greater extent. All of this has to be done 
within the framework of protecting the First Amendment in every 
single instance.
    The Chairman. Thank you.
    Mr. Henderson.
    Mr. Henderson. Mr. Chairman, this is an important hearing, 
and I really do commend you on behalf of the Leadership 
Conference for having initiated this discussion. I note that it 
takes place on the second day of the trial of a white 
supremacist charged with the murder of James Byrd in Texas from 
the dragging death last year. So what we are attempting to do 
today by focusing attention on this problem, I think, is really 
commendable and important.
    Having said that, I think there is no simple solution and 
answer to your question specifically about what must be done. I 
think all of us have emphasized a combination of a number of 
approaches that we think when taken together will make a 
significant start in trying to address the problem. We in the 
Leadership Conference have emphasized the importance of 
education and more speech, and we still believe that that is 
the first among many options that we would encourage pursuing.
    I do think that you have suggested a range of additional 
steps that might be taken, including collaboration with the 
online supporters of Internet sponsors and others to talk about 
ways, consistent with the First Amendment, of trying to address 
the problem. But the emphasis on family responsibility, on 
training, on civic participation, on the role of religious 
groups and the religious community, all have to be added 
together in developing a comprehensive approach to the problem. 
And we stand ready to work with you as you continue to pursue 
solutions to this difficult issue.
    The Chairman. Thank you.
    Rabbi Cooper.
    Rabbi Cooper. Thank you, Mr. Chairman. I note here that on 
the top 10 active bomb-making sites right now that only one of 
them would be on a racist server. So, clearly, if the Internet 
community would act to get rid of the other nine, we won't 
remove or eliminate the problem, but we would, I think, put a 
significant crimp on terms of the links between hate music and 
other youth-oriented sites. And that is an action which I think 
all Americans are behind.
    The only question is will the Internet community do this on 
their own or do they have to be pushed by the U.S. Congress. 
And I think after the events starting with Columbine, most 
Americans want action. We prefer if we don't have to come to 
the Government. But if not, possibly in this area alone, some 
basic common sense and regulation may be necessary.
    Obviously, everyone here agrees with the basic idea that 
the answer to hate speech is more speech. But I would suggest 
to everyone when you go home tonight and you go online, take a 
look at a site called mlking.org, as in martinlutherking.org. 
It is the perfect address for your average teenager who is 
going to go home and do a research project on one of the 
greatest Americans in the history of our country. It took us 
about 4 or 5 minutes at the Wiesenthal Center to figure out 
that this is a site that was developed, put up and maintained 
by Stormfront, one of the leading white supremacist groups.
    And so what we are talking about in terms of the challenge 
is the basic approach of answering hate speech with more speech 
is an unprecedented challenge when we look at the Internet. The 
manipulation of information, sometimes the stealing of domains, 
the fact that there is no online librarian, that all 
information is flat--you put in the word ``Holocaust'' or 
``Martin Luther King, Jr.,'' and if there isn't a librarian or 
parent around, we don't quite know what they are going to end 
up getting.
    So we have all seen this tremendous growth of the Internet. 
We all welcome it. Everyone in this room utilizes the Internet, 
and I still feel that in a sense there is an empty chair here 
today, and that is the Internet community themselves. We need 
their collective genius, we need them at the table as partners.
    And again I want to commend, Senator Hatch, you and your 
entire committee for revisiting this issue again, and we are 
going to have to come back again and again until we come up 
with, at the end of the day, an unscientific approach of where 
we draw the line between hate and speech.
    One last comment, if I may. When we use the term ``hate 
speech''--and Mr. Henderson made a very important distinction 
between speech and action--let's also understand that when we 
are talking about the Internet, it is not only hate speech, but 
the posting of information that has to do with terrorism, 
mayhem, violence and other illegal activity and, as such, 
interwoven with the issues of the First Amendment.
    We will need the continued leadership of your committee, 
and I commend you for bringing us together this morning.
    The Chairman. Well, thank you. I might mention that we did 
invite representatives of the Internet service community to 
testify today and they respectfully declined. We are hopeful 
that we can get them in sometime in the future because we do 
need their viewpoint on what should be done here, and perhaps 
we can do that just with a panel for them. We are not trying to 
railroad anything here. We want to solve these problems to the 
extent that they can be solved. As you know, they don't go away 
easily. We will give them another opportunity to testify, but 
it needs to be noted that we did invite them.
    Mr. Gennaco, we will end with you.
    Mr. Gennaco. Mr. Chairman, as a prosecutor on the front 
line I also commend you for directing focus to this issue. 
There is one other thing that I think is an important component 
of ways to address the situation and that is to continue to 
support partnerships. In Southern California, we have a good 
working partnership with both local prosecutors, with the 
Museum of Tolerance.
    As a result of the partnership that we have formed, I think 
we are able to share intelligence, techniques, and expertise in 
various areas to combat the problem. And I think it is this 
synergy that is as a result of this partnership that causes me 
optimism that we can beat this problem.
    The Chairman. Well, we are appreciative. I think this 
hearing has been very valid and very important today. As you 
can see, we are thrashing around trying to find some way of 
solving these problems because they are going to get worse. We 
know that there are a lot of offensive things on the Internet. 
There are a lot of wonderful things, too. What we want to do is 
find some way, within the constraints of the First Amendment, 
to resolve some of these problems so that our kids are not 
beset with this type of garbage day in and day out. And as you 
know, it is a very difficult thing to do.
    I presume that many ISP's don't want to get involved 
because they know that it would be a never-ending journey for 
them, and they also worry about legal liability for taking 
people off the Net, perhaps, or worry about whether or not they 
are making the right decisions, or worry about whether they 
will be criticized for taking some off the Net who, in the eyes 
of many, should not be taken off the Net.
    It is a very, very difficult set of problems as far as I 
can see, and especially when you consider the importance of the 
First Amendment. Every one of you have expressed a certain 
degree of solicitude for the First Amendment, as we all should, 
and every one of you have been champions of the First 
Amendment.
    On the other hand, there are limitations that society does 
provide as to what can or cannot be done under the First 
Amendment. And something has to be done, it seems to me, to at 
least help our children in this society to have a better chance 
to be hate-free, to be pornography- and obscenity-free and, of 
course, to be free of some of the evil influences that I think 
almost any reasonable person in our society would call evil.
    We are seeing more and more acts of violence in our society 
committed by juveniles. That is why this juvenile justice bill 
is so important. You know, many in the media and many who have 
political points to make are trying to make that bill into a 
gun bill. That is a very small part of it. That bill does an 
awful lot of things that could help to resolve the problems of 
juvenile justice. And we are probably going to go into a 
conference this week, and I am hopeful that I can get something 
out that will be supported by the vast majority of people in 
the Congress.
    If one side wants to play the gun issue all the way 
through, we will never get it done. If either side wants to, we 
are never going to get it done. So it is very important that we 
have the wisdom of people like yourselves in these processes 
and with regard to these problems so that we can get to the 
bottom of what should be done, what can be done, and how we 
should do it.
    So we would like to keep the record open so that you folks, 
having heard my opening remarks and the opening remarks of 
Senator Leahy, and having heard each other, might be willing to 
give us more of your advice and counsel so that we can do what 
is best here, because if I don't miss my bet, you folks are as 
concerned about all these principles as anybody I know. And you 
are experts in this area and I think all of you are noted for 
having done very, very important and worthwhile things in this 
particular area. So that is why we called on you. It has been a 
very helpful committee meeting and I am very grateful to all of 
you for putting in the time and effort to give these excellent 
statements to us today and answer the questions.
    So with that, we will adjourn until further notice. Thanks 
so much.
    [Whereupon, at 12:01 p.m., the committee was adjourned.]


                            A P P E N D I X

                              ----------                              


                         Questions and Answers

                              ----------                              


      Responses of Michael Gennaco to Questions from Senator Leahy

    Question 1. The Department of Justice seems to have made effective 
use of the Internet in the context of various online investigations, 
such as the ``Innocent Images'' efforts to combat distribution of child 
pornography through the Internet. Has the Department used the Internet 
to gather evidence of criminal activity on the part of hate groups in 
the United States?
    Answer. The Department has used the Internet to gather evidence of 
criminal activity on the part of hate groups or perpetrators of hate or 
terrorism in the United States. For example, a review of messages sent 
over the Internet helped locate additional threats and victims in a 
recent hate crimes threats prosecution. In another case, review of a 
militia group's Internet communications resulted in additional federal 
charges being lodged against members of that group.

    Question 2. Does the Internet provide the Department of Justice 
with access to information published online that makes it easier for 
you to monitor potential domestic terrorist activities organized by 
hate groups in the United States?
    Answer. The Department of Justice does not engage in the regular 
federal monitoring of hate groups in the United States unless it is 
pertinent to investigative actions undertaken by the FBI pursuant to 
the Attorney General's guidelines for investigations. In situations 
where there have been allegations of criminal activity by certain hate 
groups or there has already been evidence developed of criminal 
activity by members of hate groups, the open source material on the 
Internet may be searched in order to locate additional information 
about the criminal activity alleged.
                               __________

     Responses of Howard Berkowitz to Questions from Senator Leahy

    Question 1. How has your organization been able to use the Internet 
to gather information about organized hate groups in the United States?
    Answer. The Anti-Defamation League monitors the Web sites, USENET 
newsgroups, E-mail mailing lists, and chat rooms used by extremists to 
spread their message and communicate with each other. Most online 
information created by hate groups is openly available. There are 
neither practical nor legal barriers to the collection of most of this 
material.

    Question 2. Has the Internet helped your organization find out 
information such as events or gatherings organized by hate groups in 
the United States?
    Answer. The Internet consistently, provides the Anti-Defamation 
League with relevant, timely information about hate group rallies and 
gatherings nationwide.

    Question 3. Has your organization used the Internet as an 
organizing tool opposing hate groups or events organized by hate 
groups? Can people use the Internet to join or support your 
organization?
    Answer. At the Anti-Defamation League Web site, a Web user can find 
contact information for any of our 30 regional offices, report an anti-
Semitic incident to us, or make a donation. Additionally, our site 
contains publications such as ``Prejudice: 101 Ways You Can Beat It!,'' 
which proposes specific, concrete actions people can take in the fight 
against hate. Also present on the ADL homepage is our Legislative 
Action Center, which allows Web users to E-mail Members of Congress 
about priority issues of concern, such as the Hate Crime Prevention Act 
or anti-Semitism in Russia.

    Question 4. Does your organization use the Internet, including web 
pages or e-mail lists, as an education tool to teach people about the 
damage hate and hate groups can do?
    Answer. The full text of all ADL reports exposing hate and hate 
groups is posted on our Web site, where it is available free of charge. 
It is our hope that these reports will lead the public to reject hate 
groups and their propaganda.

    Question 5. I understand that your organization has developed a 
product called ``HateFilter,'' which parents can install on their home 
computers if they want to prevent their children from being exposed to 
web sites that advocate hatred or intolerance.
    I understand that there is a fairly robust market for these kinds 
of tools, including close to a dozen like HateFilter and perhaps two 
dozen or more Internet Service Providers that filter hate speech as 
part of the Internet service they sell to dial-up customers. Are these 
options useful tools for families who are concerned about hate speech 
on the Internet? Do they work on web sites outside of the United States 
as well as on hate sites in the U.S.?
    Answer. Though there is no single solution to the problems posed by 
online hate, filtering software is a useful tool. The ADL's HateFilter 
is a frequently-updated, site-specific filtering device, effectively 
blocking hate sites selected by ADL researchers both in the United 
States and outside the country. Unlike other filtering software 
products, HateFilter empowers parents who want to restrict their 
child's access to hate--and encourages parents to teach their children 
about the nature of bigotry and the hatemongers who promote it. It 
offers users who try to access a blocked site the chance to visit a 
special portion of the ADL Web site, where they can find basic 
information about hate and hate groups.

                  Additional Submission for the Record

                              ----------                              


 Prepared Statement of Karen Narasaki, on Behalf of the National Asian 
                   Pacific American Legal Consortium

                            I. INTRODUCTION

    The National Asian Pacific American Legal Consortium (Consortium) 
respectfully submits this statement to urge the Senate Committee on the 
Judiciary to respond to the growing problem of hate crimes and hate 
groups on the internet by ensuring that S. 622, the Hate Crimes 
Prevention Act of 1999 (HCPA), is enacted this session without 
amendment.
    The Consortium and its Affiliates--the Asian American Legal Defense 
and Education Fund (AALDEF), the Asian Law Caucus (ALC), and the Asian 
Pacific American Legal Center (APALC)--have been the leading 
authorities on hate crimes against Asian Pacific Americans (APA's). 
Every year, the Consortium and its Affiliates produce the nation's only 
nongovernmental, comprehensive report and analysis on anti-Asian 
violence. Additionally, we monitor bias-motivated incidents against 
APA's, collect data, provide technical assistance to victims of hate 
crimes, conduct educational outreach efforts on the general problem of 
hate crimes and collaborate with government agencies, civil rights 
groups and community organizations to improve data collection, police 
training on the identification of hate crimes, and community response 
to hate acts.
    This statement first discusses hate on the internet directed at 
APA's, in particular a precedent-setting case which successfully 
invoked federal hate crime laws to prosecute an individual for sending 
hate e-mail messages to 60 students at a public university. Second, the 
statement provides examples of hate messages aimed at APA's on 
websites. Third, the statement recounts the deaths of three APA hate 
crime victims as demonstrative evidence that hate violence is growing 
increasingly brutal and deadly; is not disappearing despite a booming 
economy; and, is perpetrated increasingly by individuals with 
connections to hate extremist groups. These groups have been turning to 
the internet to incite violence, recruit youth, and target minorities 
via anonymous e-mail and broadcast hate messages over websites. The 
Consortium strongly supports HCPA as a powerful statement that America 
will not tolerate hate.

        II. USE OF E-MAIL MESSAGES TO PURVEY HATE AGAINST APA'S

    The incident that led to the nation's first successful federal 
prosecution of a hate crime over the internet occurred in September 
1997, when Richard Machado sent a threatening e-mail to members of an 
APA student group at the University of California at Irvine. Machado 
warned the students that if they did not leave campus, ``I personally 
will make it my life career to find and kill every one of you 
personally.'' The Consortium's Affiliate, the APALC, monitored the 
trial that followed.
    Sixty APA students sued Machado over violation of their civil 
rights pursuant to federal hate crimes laws. At trial, several of the 
students who received the e-mail testified that they believed the 
threat was real. They said they feared walking alone around campus and 
were scared that they may be physically harmed. They felt isolated and 
vulnerable even though APA's comprised roughly 50 percent of the campus 
population; several testified that they had not reported the crime 
because they believed that no action would arise from their disclosure. 
On February 1998, Machado was found guilty and convicted on a 
misdemeanor count and sentenced to one year in prison.
    One of the laws which the students were able to rely upon was 18 
U.S.C. Sec. 245, a 30-year-old federal statute, to bring their case 
because Machado singled them out because of their race and intended to 
interfere with their federally protected right to a public education. 
In the same year, hate e-mail incidents were reported by students 
across the nation including Indiana University, Stanford University and 
the University of Southern California.
    The Consortium believes that the Kennedy-sponsored bill, the Hate 
Crimes Prevention Act of 1999 (S. 622), would address this gaping hole 
in federal protection and urges the Senate conferees to pass it without 
any weakening amendments before the session adjourns.

          III. USE OF WEBSITES TO BROADCAST HATE AGAINST APA'S

    The Consortium is monitoring a rise in websites sponsored by hate 
groups, especially white supremacist organizations, which are beginning 
to include APA's in their vitriol against minority groups.
    The majority of hate messages remain directed against Jews and 
blacks. However, groups who target hate against one group are likely to 
strike at all minorities. A case in point follows in the website titled 
``Better Than Auschwitz,'' where the author spews the following hate 
diatribe:

        ``I don't have a flying f----k about what anyone thinks. I have 
        been f----ked over an uncountable number of times by the mud 
        people, and the jews which overlook them. * * * There are no 
        blacks, mexicans, there are no asians, there are no ``kosher 
        people''. There are only niggers, spics, gooks and kikes. I 
        have never met a descent person from the above, and so choose 
        not to refer them as people anymore, but things; monsters. 
        Everyone that is not white deserves to be melted down in a f--
        --king oven.'' \1\
---------------------------------------------------------------------------
    \1\ See http://www.yoderanium.com/webhome/deathdlr/.

    The websites reflect xenophobia and show the perverse extremes of 
the affirmative action debate. Despite the number of generations who 
have lived in the United States, cultural assimilation and innumerable 
contributions made to society from high technology to science, 
moviemaking and architecture and more, APA's still are considered the 
perpetual foreigners posing an outside threat to their own homeland. 
The perceptions are not mere misunderstandings. As was the case in 
1982, when bat wielding, unemployed Detroit workers thought a Chinese 
American was Japanese, these perceptions can be lethal. The following 
website fosters the same type of hate that likely would engender 
---------------------------------------------------------------------------
animosity toward any person of Asian descent:

        A cartoon sketches an Asian man with slanted eyes, buck teeth 
        and a menacing grin rubs his hands in delight as he stands next 
        to a poster advertising the sale of property with the words 
        ``Sold'' written over it. Overhead, the message reads, ``Do you 
        think that those rice-nibblin' little Nips have ceased being 
        sneaky and dreaming of world domination just because WWII is 
        over? * * * Don't be a fool * * * today, just like yesterday * 
        * * BEWARE THE YELLOW PERIL!'' \2\
---------------------------------------------------------------------------
    \2\ See http://www.resist.com.

    In the following two cases, the hate mongers push the envelope on 
free speech protections by promulgating hate, yet stopping short of 
encouraging immediate and specific violent acts at an identifiable 
group. In the ``Voice of White America,'' one site posts in capital 
letters, ``Hordes of Incoming Asians are Taking Over our West!!'' next 
to a headshot of an unidentified Asian man. When the photo is clicked, 
a kung-fu-type cry sounds over the speaker. Under the title, the 
---------------------------------------------------------------------------
message reads:

        ``We are being flooded with Chinese and Filipinos! These people 
        stick to their own, and stick up for their own, AT THE EXPENSE 
        OF EVERYONE ELSE! The San Francisco city & county government 
        now has equal numbers of Asian and White employees. When Asians 
        come into power, they do not hire fairly, they hire MORE 
        ASIANS! And affirmative action give them the blessing to do it! 
        * * * The number of exclusively Chinese language businesses, 
        city areas, and theme parks is expanding at an ALARMING rate! 
        WAKE UP, AMERICA! * * * \3\
---------------------------------------------------------------------------
    \3\ See http://members.aol.com/tsaukki/taketake.htm.

    Similarly, in ``Our Racial Hatred,'' an author by the name of Shaun 
---------------------------------------------------------------------------
W. states,

        ``Why is it that for five years, while I went to college here 
        in California, I felt like an exchange student living in China? 
        * * * Since being around them in school, I've learned to really 
        hate the little yellow bastards.'' \4\
---------------------------------------------------------------------------
    \4\ See http://www.resist.com/Aourracialhatred.html.
---------------------------------------------------------------------------

              IV. THREE APA DEATHS IN THE PAST SIX MONTHS

    In its annual 1997 audit, the Consortium and its Affiliates 
reported 481 anti-Asian incidents, including two murders. In the past 
five years during which the Consortium and its Affiliates have 
monitored bias-motivated violence, there have been approximately two 
hate crime murders per year.
    The Consortium is alarmed that in the past 6 months, the Asian 
Pacific American community has seen THREE particularly vicious attacks 
on members of its community. Of the three deaths, two were caused by 
individuals with clear ties to white supremacist groups. Both groups 
spread hate propaganda online.
    One of the men murdered was a 26-year-old Korean student, Won Joon 
Yoon. Yoon was killed during the racially motivated shootings that took 
place in Illinois and Indiana this past July. The gunman, Benjamin 
National Smith, was an active member of the World Church of the Creator 
(WCOTC). The WCOTC has used the internet as means of organizing, 
publishing its hate materials and recruiting. The group's current 
campaign is called ``Operation Internet Blietzkrieg,'' which exhorts 
its members to use the internet extensively to spread their hate 
messages. One of the fastest growing white supremacist organizations in 
the country, WCOTC now has over 40 chapters across the country and 
abroad.
    Another man shot to death was 39-year-old Joseph Ileto, a Filipino 
American letter carrier. Ileto was gunned down by Buford Furrow, who 
had hours earlier walked into a Jewish Community Center and shot five 
victims, including three young children. Furrow confessed to shooting 
Ileto because he looked Hispanic or Asian. Furrow had ties to the Aryan 
Nation and The Order. According to the Anti-Defamation League, ``the 
Aryan Nation perceives itself as literally surrounded by enemies: 
vigorously fighting back is not only a solution to its problems, but a 
duty.'' The Aryan Nation has a prolific website including a youth corp 
section, news updates, state offices contact information, audio and 
video tape catalog, language translations of their website and links to 
other hate sites, among other things.
    The Consortium believes that while hate on the internet was not 
directly responsible for these men's deaths, it contributed to the 
climate of hate that influenced and goaded the perpetrators toward 
their ultimate acts of murder.

                             IV. CONCLUSION

    One of the nation's leading experts on anti-Asian violence, the 
Consortium believes that hate crimes is a serious national problem that 
requires federal government involvement to supplement the traditional 
state role of policing crimes. Hate crimes are unique in that they 
strike not only at the victim, but at all members of the community to 
which the victim belongs. Consequently, the impact of hate crimes has 
more far-reaching effects than the ordinary crime. With the advent of 
the internet, the ability of hate extremist groups to spread hate, 
communicate with each other and organize will only continue to be 
enhanced.
    Whereas in the past, hate mongers primarily relied on public 
rallies, marches, and leafleting to spread their messages, the favored 
communication tool is now the internet. For a few hundred dollars, any 
individual may purchase a computer, acquire an e-mail account and sign 
up with an Internet Service Provider to host their World Wide Web page, 
sometimes for free. The expenses are little; one Southern Poverty Law 
Center investigator reported that the rise in chapters are often due to 
one individual setting up shop.
    The federal government has an important role to play in the 
prevention of hate crimes. By passing the Hate Crimes Prevention Act of 
1999, Congress can and should send a strong symbolic statement that the 
nation does not tolerate hate; furthermore, the law puts potential 
criminals on notice that they will be sentenced with stiffer penalties 
if they target any innocent person for violence on the basis of their 
race, religion, national origin, as well as sex, disability and sexual 
orientation.
    Hate Crimes Prevention Act will also allow for enhanced cooperation 
between the federal and state law enforcement agencies similar to the 
joint federal-state partnerships forged after the enactment of the 
Church Arson Prevention Act of 1996. That initiative led to successful 
investigative and prosecution efforts in church arsons nationwide after 
the lifting of restrictions placed on federal prosecutors. Hate Crimes 
Prevention Act needs to be passed to lift the undue restrictions which 
bar federal prosecutors from adequately addressing hate crimes.
    Based on the foregoing, the Consortium urges the Members of this 
Committee to continue its support of S. 622, the Hate Crimes Prevention 
Act of 1999, in its current form as it heads for a joint conference and 
ensure that it is enacted into law before the end of this legislative 
session.

                                <all>

</pre></body></html>
